                              SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-22                                    Office of Inspections                                     March 2013




                             Inspection of

                      the Foreign Service Institute





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY

                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •		 Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •		 Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •		 Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

         In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; and reviewed the substance
of the report and its findings and recommendations with offices, individuals, organizations, and
activities affected by this review.

         Inspectors conducted on-site interviews with available direct-hire staff and many contract
staff in the School of Professional and Area Studies, School of Applied Information Technology,
Leadership and Management School, Transition Center, and Executive Office. To inspect the
School of Language Studies, inspectors interviewed direct-hire and selected contract staff in the
Foreign Service Institute’s five largest language programs: Arabic, Chinese, French, Russian,
and Spanish. The team also reviewed the following nine medium-sized, small, and
microlanguage programs: Dari, Georgian, German, Kinyarwandan, Korean, Kurdish, Portuguese,
Tajiki, and Tibetan. In FY 2012, these 14 languages composed 52 percent of the resource
expenditure of the School of Language Studies, 58 percent of its staff, 73 percent of its
Department students, and 71 percent of its students from other agencies. The operations of the
Foreign Service Institute’s 3 overseas schools and 11 regional language programs were outside
the scope of this inspection.

                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                         1

Context                                               3

Executive Direction                                   4

Crosscutting Issues                                   9

School of Language Studies                           12

School of Professional and Area Studies              36

School of Applied Information Technology             46

Leadership and Management School                     48

Transition Center                                    51

Resource Management                                  52

Security                                             72

Quality of Life                                      74

Management Controls                                  75

List of Recommendations                              76

List of Informal Recommendations                     84

Principal Officials                                  87

Abbreviations                                        89





                                     iii

                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Key Judgments

•		 The rapid growth of Foreign Service Institute (FSI) staff, students, courses, and facilities
    reflects the Department of State’s (Department) commitment to professional training. The
    director has managed this transition with dedication and energy. Enrollment has more than
    quadrupled over the past decade, in part because of FSI’s creative use of distance learning
    and regional training.

•		 Improved communication and clearer delegation of authority are needed to address staff’s
    perception that FSI leadership exercises excessive control over details to the detriment of
    initiative and supervisor growth.

•		 The School of Language Studies (SLS) teaches more than 70 languages, with 60 percent of
    students reaching target proficiency levels on time, even though the Department no longer
    considers employees’ language aptitude when making assignments. The Department needs to
    reinstitute language aptitude screening and establish a policy of assigning employees who
    lack demonstrated prior success in language learning or tested language aptitude to hard or
    super hard language training only if there are no other qualified bidders available.

•		 SLS needs organizational and programmatic changes to strengthen pedagogy, coordination,
    and strategic planning. Outside review of a portion of recorded language test samples and
    other steps are required to address the inherent conflict of interest of SLS instructors serving
    as testers.

•		 The School of Professional and Area Studies (SPAS) responds effectively to Department and
    congressional requirements for new courses on issues such as democracy, development, and
    refugees. Consular, public diplomacy, and economic training are linked well to
    policymakers’ priorities; other functional areas are not.

•		 The Leadership and Management School’s (LMS) courses are highly praised by Department
    and interagency participants. Demand for some of its offerings outstrips LMS’s capacity.
    Morale among staff members was low due to leadership deficiencies but is improving.

•		 The School of Applied Information Technology (SAIT) successfully delivers technical
    training to Department employees but should improve internal cohesion and determine
    whether it could realize savings by having a commercial vendor teach its industry-standard
    courses.

•		 The Transition Center is small but effective in preparing Department employees and family
    members for diplomatic life, service overseas, and retirement.

•		 FSI’s Executive Office (FSI/EX) generally supports FSI’s training program efficiently, a
    significant accomplishment given FSI’s size. However, FSI/EX needs to improve
    procedures, office structures, and customer service in its human resources and general
    services offices.

                                         1
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


•		 Deficiencies in project management as well as contracting and budgeting practices resulted in
    inadequate tracking of major application development costs and timelines.

•		 FSI and other Department entities will require new resources to carry out all of the inspection
    team’s recommendations. Some of these resources should be offset by the resulting medium-
    and long-term savings to the Department.


        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where OIG did not identify problems that need to be corrected.

        The inspection took place in Washington, DC. The first phase was between May 2 and
July 3, 2012, and covered executive direction, crosscutting issues, SPAS, SAIT, LMS, the
Transition Center, and FSI/EX. (b) (6)




       The second phase was between September 18 and December 12, 2012, and covered
executive direction, crosscutting issues, and SLS as well as implementation of recommendations
proposed by the spring team. (b) (6)




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



Context

        Established in 1947, the Foreign Service Institute (FSI) is charged with the professional
development and training of employees of the Department and other Federal agencies. Since the
last inspection in 1999, which criticized the Department’s lack of commitment to training, FSI’s
staff and budget have tripled. The 2010 Quadrennial Diplomacy and Development Review
(QDDR) strongly endorsed the need for professional development. As of December 2012, FSI
had 1,327 staff members, with 740 direct-hire positions and 587 full-time equivalent contractors.
FSI’s FY 2012 base funding was $78 million; total funding was almost $116 million, which
includes almost $10 million in reimbursements to fund training delivered to 47 government
agencies and other entities, with $4.6 million from the U.S. Agency for International
Development (USAID). FSI had more than 133,000 enrollments in FY 2012, of which, 59,000
were in the classroom; more than 48,000 via FSI-developed distance learning; 21,000 via
commercial distance learning; and 5,000 in external training. An expansion of facilities on FSI’s
72-acre George P. Shultz National Foreign Affairs Training Center (NFATC) campus in 2010
added 100 classrooms. About 2,000 students are on campus daily.

        FSI comprises four schools, a center, and an executive office. The School of Language
Studies (SLS), with 684 staff members, 3 overseas schools, and 11 regional language programs,
offers training and testing in more than 70 languages. The School of Professional and Area
Studies (SPAS), with 167 staff members, provides orientation to new Foreign Service and Civil
Service employees, tradecraft training, and predeployment training for employees preparing for
tours in hardship and danger pay regions. The School of Applied Information Technology’s
(SAIT) staff of 64 trains Department personnel in information technology. The 48 staff members
of the Leadership and Management School (LMS) provide leadership training at all levels,
including for ambassadors and deputy chiefs of mission. The 21 staff members of the Transition
Center help Department and other agency personnel and family members prepare for life and
work overseas and for retirement and to develop security and life skills. The director of FSI’s
Executive Office (FSI/EX) oversees a 343-member staff handling personnel, budget, and other
management responsibilities. FSI also provides training at three regional training centers and
various overseas missions. In addition, FSI is one of five Federal e-training service providers and
is the designated human resources service provider for five bureaus.

        Congress and many other outside organizations monitor the training FSI provides. The
Foreign Service Act of 1980 gives FSI broad authorities, including unlimited contracting
authority, subject to the availability of appropriations, and the ability to hire instructors and
linguists as excepted Civil Service personnel and in other employment categories. A January
2011 Government Accountability Office report 1 identified gaps in the Department’s efforts to
plan strategically and prioritize training, ensure efficient and effective training design and
delivery, and determine whether or how training contributes to improved performance. The
Department and FSI are taking steps to address these concerns.



1
 United States Government Accountability Office, Department of State - Additional Steps are Needed to Improve
Strategic Planning and Evaluation of Training for State Personnel, Report to the Honorable Daniel K. Akaka, U.S.
Senate, GAO-11-241, January 2011.
                                            3
                               SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



Executive Direction

        The director of FSI, a member of the Senior Executive Service, has headed the institute
since 2006 and served an earlier term as deputy director. She brought the institute extensive
personal experience in the Department’s resource and personnel decisionmaking systems as well
as close relations with senior managers in the Department. The director’s bedrock objective is to
position FSI to offer Department employees the training they need, when they need it. Under her
tenure, FSI has become much more capable of meeting this goal. The front office has four Civil
Service positions and one Foreign Service position, one contractor, and a budget in FY 2012 of
$1.276 million.

        An OIG inspection of FSI in 1999 2 concluded that the Department viewed training as a
distraction from, if not an impediment to, the pursuit of career goals. The director of FSI led her
senior team in strongly supporting the change in culture and practice, launched by then Secretary
Colin Powell and boosted by Secretary Hillary Clinton in the QDDR, which made professional
development an integral part of a normal Department career. The director has presided over a
period of extraordinary growth in the student body, staff, physical plant, budget, and use of
advanced technology. She has established a better balance between full-time and contract
employees while streamlining FSI’s sourcing of contract instructors. Her in-depth work on the
QDDR led to her determination that FSI should develop courses for USAID staff, a partnership
that has been a distinct success. Respected for her bureaucratic and networking skills, cost
consciousness, and dedication to FSI, the director persuaded senior Department leaders to
support training and encouraged them to participate regularly in lectures and panels. Her energy,
focus, and skill drove the institute’s development and expansion during a crucial period.

       The director is assisted by a deputy director. In the first phase of the inspection, the
deputy was a senior Foreign Service officer, a former chief of multiple missions, who took over
the number two position after serving as dean of SPAS for a year. The current deputy, also a
former chief of mission, came to the front office after serving as dean of SLS for a year. Both
deputies were handpicked by the director and have performed ably. The deputy supervises the
deans of the four schools, the director of the Transition Center, and the executive director and is
responsible for the execution of the training program for the Department and the 47 other
government agencies whose employees take FSI training. The division of labor in the front office
works well. The director’s preference for filling the deputy position from among the school
deans shortens the new deputy’s learning curve and promotes speedy effectiveness.

        The four deans and two directors are Senior Foreign Service or Senior Executive Service
personnel. The majority of recent deans of SLS, LMS, and SPAS have been former chiefs of
mission, whose appointments provide the schools with a relevant, current, and high-level Foreign
Service perspective. This background is most critical in LMS. Some senior members of staff, and
several at the subdean level, have post-graduate academic experience and/or pedagogical
expertise, important attributes in diversifying the leadership’s knowledge base.




2
    Inspection of the Foreign Service Institute, Report No. ISP-I-99-16, June 1999.
                                                4
                                   SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


        Internal Relations: Communication between the front office and deans is broad and
frequent. The front office practices hierarchical communication, relying on senior staff members
as intermediaries with FSI’s rank and file. The director engages FSI’s senior staff at regular
meetings. The director and deputy director also hold individual meetings with senior staff to help
ensure that the front office has a detailed understanding of the work of each school. The director
makes a special effort to support informal FSI-wide activities and uses the school’s Facebook
page to try to stay in touch with staff. Although the director and deputy director meet with
students and view themselves as accessible, there are few opportunities, such as town hall
meetings or unstructured staff gatherings, where staff can frankly discuss issues of concern with
the institute’s top leadership in an informal give-and-take format. The perception among many
mid- and working-level employees, especially in the larger schools, is that the front office is
isolated from the staff at large. Numerous personnel told OIG inspectors that they need more
direct personal communication with FSI’s leadership. More openness to staff would increase
cohesion and improve the staff’s understanding of front office aims, vision, and proposals for the
institute, as well as allow employees to discuss their opinions and ideas directly with institute
leaders.

       Informal Recommendation 1: The Foreign Service Institute should require the director
       and deputy director to hold periodic informal meetings at various levels to engage with
       staff members on issues of concern to the institute and its personnel.

        Strong front office supervision has some convinced that the leadership lacks trust in the
competence or judgment of FSI personnel. Staff offered OIG inspectors instances of front office
involvement in minor administrative details. The director and deputy director acknowledge that
they keep a tight rein on matters such as budgeting and resource allocation but argue that FSI’s
size and complexity require top-down management. As FSI has grown, however, this level of
front office supervision and scrutiny has become impracticable. Empowering FSI deans and
directors to manage their schools more independently in areas such as travel, personnel, or
working conditions would speed decisionmaking and free the front office for more strategic
tasks. Communicating more fully to staff about the need for maintaining effective oversight over
resources would help improve the morale of FSI’s workforce.

Recommendation 1: The Foreign Service Institute should establish standard operating
procedures that delegate to deans, directors, and their deputies the authority to make specified
administrative decisions for the units they supervise. (Action: FSI)

        Documentation: The front office and FSI/EX convey many decisions orally rather than
in writing. In a number of areas, the OIG team found it difficult to obtain clear documentation of
FSI decisions and policies. Mid-level managers were frustrated by the lack of guidance due to
the absence of written records of key decisions made by the front office and FSI/EX, making
accountability difficult to establish and leaving the reasons for decisions unclear to staff.
Decisions made orally in committee meetings were not always communicated effectively to
staff. Greater use of decision memos, accessible records, and transparency would streamline
operations and enhance accountability.

Recommendation 2: The Foreign Service Institute should implement a system to track, record,
and disseminate policy decisions. (Action: FSI)
                                                5
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


         Instructor Travel and Training: Ineffective communication between the front office and
staff has produced misunderstandings and generated tensions in areas such as instructor travel.
Travel is needed by many instructors, including those whose knowledge and teaching benefit
from visits to embassies, short stints working with Department experts, or attendance at
academic conferences. FSI’s travel policy states that the director or deputy director must
approval all travel, although the front office has delegated approval for some local travel to
deans. The perception is common among staff members that the front office micromanages
travel, treats it as a privilege, and makes arbitrary decisions. FSI management acknowledges that
it has closely managed official travel in recent years in accordance with guidance from the Office
of Management and Budget and the Under Secretary for Management to reduce expenses,
including compensatory time. FSI’s tendency to convey travel decisions orally may contribute to
complaints of favoritism heard by inspectors.

Recommendation 3: The Foreign Service Institute should implement a travel authorization
system in which the front office sets overall funding levels and criteria for proposed travel during
financial reviews and authorizes and holds the deans accountable to approve the specific
allocation of those funds. (Action: FSI)

        Strategic Planning: The FSI leadership team addresses one of its greatest challenges
informally but with notable skill: accommodating the Department’s fluctuating requirements for
training in a multitude of languages and subjects for widely varying cohorts of employees. The
population of students can vary by hundreds from one semester to the next, affecting the number
of instructors, classrooms, materials, and support services needed. FSI leadership stays ahead of
this ever-changing curve by paying close attention to Department policy trends and anticipating
the likely effects on training requirements. More formal Department processes for assessing
training needs would enable FSI to ramp up and down with greater precision. Like its previous
strategic resource plans, FSI’s FY 2014 Bureau Resource Request, 3 completed in May 2012,
delineates broad, widely accepted goals and concentrates on past and current accomplishments.
Planning and progress monitoring varies from school to school and would benefit from inclusion
of the mid-level staff. FSI has taken some steps since June 2012 to improve its strategic
planning.

        Evaluation: In recent years, FSI implemented several evaluation methods to determine
whether classroom learning had been successful. These efforts made important strides in 2011
and 2012, when FSI responded to the January 2011 Government Accountability Office report on
Department training, the GPRA Modernization Act of 2010, 4 and complied with Federal
regulations 5 by beginning to survey both graduates and their supervisors. FSI now meets the
industry standard for the percentage of courses surveyed. Results demonstrate a high overall
transfer of knowledge from course to job. With the OIG team’s encouragement, LMS and SAIT
began a limited pilot to evaluate the extent to which students use training on the job. Schools and
divisions used different ways to select which courses to evaluate, which participants and
supervisors to survey, and how. Standardizing these evaluations would reinforce the continuous
3
  In December 2011, the Department issued 11 STATE 124737, which discontinued the Bureau Strategic and

Resource Plan. The Bureau Resource Request (3-year strategic plan, with shorter annual resource requests) replaced

the Bureau Strategic and Resource Plan beginning with the FY 2014 budget cycle.

4
   GPRA (Government Performance and Results Act), Pub. L. No. 111-352.

5
  Code of Federal Regulations 5 CFR. § 430.202.

                                             6
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


improvement process the institute is already engaged in, helping FSI to keep courses current and
focused.

Recommendation 4: The Foreign Service Institute should centralize responsibility for directing
the program evaluation process and issue standards for the conduct and content of these
evaluations. (Action: FSI)

        Quality of Management and Instruction: FSI’s schools vary greatly in the types of
training they provide and their methods of instruction. Some rely primarily on staff to conduct
training; others make almost exclusive use of outside subject matter experts. FSI does not have
metrics to compare workload or staffing across schools or divisions, nor does it have guidelines
on the amount of time instructors should spend in the classroom or developing curricula. SLS is
one exception, with a clear understanding about staffing and the need for class preparation time.
A number of instructors in other schools told inspectors they do not have adequate time between
courses to adjust curricula, update course manuals, do research to stay current in their field, and
prepare for division off sites. Given the array of subjects taught, flexible standards are essential,
but guidelines would help managers assess how to allocate resources.

Recommendation 5: The Foreign Service Institute should establish guidelines for its instructors
for classroom hours and curriculum development time. (Action: FSI)

         Equal Employment Opportunity: FSI has a significant number of Equal Employment
Opportunity (EEO) and harassment-related complaints. Office of Civil Rights statistics show that
between June 2010 and November 2012, FSI had 36 informal complaints and 20 formal
complaints, 7 percent of the total the Office of Civil Rights received. This percentage was the
highest among bureaus, although not the highest in actual numbers. (b) (5)
                           The Office of Civil Rights and FSI managers cited several reasons for
this statistic: the perception that FSI is unwilling to confront performance issues that later
develop into EEO and harassment complaints; the perception that offenders are given multiple
chances to change their conduct; the 120 nationalities represented by language instructors; and
the lack of understanding among some language instructors about the hiring and retention
precepts.

Recommendation 6: The Office of Civil Rights, in coordination with the Foreign Service
Institute, should schedule quarterly meetings to review trends in Equal Employment Opportunity
and harassment complaints and implement a joint action plan to address complaints, including
customized training. (Action: S/OCR, in coordination with FSI)

        A number of FSI’s EEO and harassment-related complaints started as performance or
conduct issues. Although FSI reported relatively few disciplinary issues in the past year, some
managers said they do not receive the detailed guidance from the human resources office that is
necessary to deal with problem employees. SLS does not employ individual development plans
for the direct-hire employees, as recommended in 3 Foreign Affairs Manual (FAM) 2864.2.

       Informal Recommendation 2: The Foreign Service Institute should designate and train a
       specialist in employee relations to address discipline and conduct issues and provide
       advice to supervisors.
                                                7
                           SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


         FSI has a more active EEO program than most Department bureaus. Even though the
Department does not require bureaus to provide annual training to their employees, FSI works
closely with the Department’s Office of Civil Rights, which provides annual training tailored for
FSI on EEO issues, including antiharassment. FSI mandates that all SLS supervisors, managers,
and team leaders attend this training and strongly urges that instructors and other nonsupervisory
staff attend. However, current FSI sessions are generally limited to 1 hour, with no time for
questions. The Office of Civil Rights recommends that training be at least 2 hours, including 30
minutes for questions, to provide the depth of information required. SLS management provides
additional EEO refresher training to instructors and requires that supervisors take a course in
performance and conduct management. All of this training is in addition to the statutorily
required online No FEAR Act 6 training.

Recommendation 7: The Foreign Service Institute, in coordination with the Office of Civil
Rights, should require all School of Language Studies’ employees and contractors to attend an
annual 2-hour training session held by the Office of Civil Rights. (Action: FSI, in coordination
with S/OCR)

        EEO information, including the names of FSI’s counselors, was hard to locate on FSI’s
Intranet site and internal SharePoint site in October 2012, making it difficult for staff and
students to find necessary information or to contact a counselor on an informal or anonymous
basis. At the OIG team’s suggestion, FSI made EEO information easier to find on its internal
Web sites.




6
    Notification and Federal Employee Antidiscrimination and Retaliation Act of 2002, Pub. L. No. 107-174.
                                               8
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



Crosscutting Issues

        Interagency Collaboration: The 1980 Foreign Service Act states that FSI is to “provide
necessary training and instruction in the field of foreign relations to members of the [s]ervice and
to employees of the Department and of other agencies.” 7 In recent years, the Department’s
hiring surge required FSI to focus primarily on the needs of Department personnel. From FYs
2007 to 2012, non-Department enrollments declined from 11 percent of the student body to 9
percent. In FY 2012, 47 other agencies reimbursed FSI more than $9 million for training, almost
half of which came from USAID. The relationship with USAID is increasingly collaborative in
response to the Secretary’s call for closer partnership, with joint courses taken by more than 700
Department and USAID students. At FSI’s suggestion, USAID detailed a senior official to FSI to
help guide this process. During the inspection, FSI began a course for USAID mission directors
that received excellent feedback from participants. The inspection team suggested that FSI’s
leadership use this partnership as a model for interaction with other foreign affairs agencies.

         FSI provides language and other training to 47 government agencies and other entities,
often at a lower cost than the individual agencies could contract for themselves. FSI plays a vital
role in the Interagency Language Roundtable and hosts meetings of the Interagency Working
Group on Training and Exercises, with active participation from nongovernmental organizations.
FSI communicates well with other Federal agencies, though much of its interaction in the
nonlanguage schools focuses on processing student attendance rather than on assessing training
needs or defining desired course content. Few divisions and only some deans have strong
contacts with interagency counterparts. FSI was not taking full advantage of the opportunity to
act as a center for training in foreign affairs for the entire U.S. Government, particularly now that
the Department’s hiring surge has eased off. Closer contact with other agencies would broaden
FSI’s awareness of trends; training developments in foreign policy, leadership studies, language,
and information management throughout the interagency community; and pedagogical
developments and issues essential to FSI as a teaching institution. More regular contact would
also give FSI more notice of impending changes in agency requirements such as hiring
fluctuations or new mandates.

           Informal Recommendation 3: The Foreign Service Institute should direct all of its
           training divisions to establish and keep current a point of contact in all agencies with an
           interest in institute courses.

         External Outreach: It is common practice for educational institutions, both inside and
outside government, to establish mechanisms to seek best practices, counter parochial
tendencies, and ensure a flow of regular counsel and insight from outside experts. Outreach can
take many forms, such as a board of advisors, a special advisor temporarily detailed to the
leadership, or an established chair with rotating incumbents from outside the institution. FSI does
not enjoy the benefits of such a brain trust. Knowledgeable observers outside FSI described the
institution to inspectors as insular and inward looking. Its senior staff, consisting largely of
career Department personnel, conducts only limited outreach to bring in fresh perspectives and
relevant non-Department experience. An exception is the SLS staff, which helps lead and
7
    Sec. 701(a), 22 U.S.C. § 4021(a).

                                               9
                                  SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


benefits greatly from the Interagency Language Roundtable. SLS also brought in an outside
curriculum expert in the fall of 2012. In addition, Transition Center staff conducts active
interagency outreach. Regular, sustained contact and cross-fertilization with the broader foreign
affairs and educational communities, including academic institutions, language schools, think
tanks, nongovernmental organizations, and global corporations, would help FSI stay current and
outward looking in its curriculum, technology, and management.

Recommendation 8: The Foreign Service Institute should implement an outreach plan for
senior staff members to interact with non-Department of State experts in fields including
training, pedagogy, leadership, languages, information technology, and foreign policy. (Action:
FSI)

         Training Needs Assessment: The Department has taken some steps over the past decade
to determine what knowledge, skills, and abilities its Foreign Service, Civil Service, and locally
employed staff will require in the coming years. 8 After a 2011 Government Accountability
Office report criticized the Department’s lack of a systematic and comprehensive training needs
assessment involving all bureaus and posts, the Department incorporated a training needs survey
into its resource request process. Regrettably, only one-quarter of overseas missions and
domestic bureaus responded in FY 2012. The Department’s training plan for FYs 2012–2015,
which FSI produces in compliance with Federal regulations, 9 details training by FSI, the Bureau
of Diplomatic Security, and other Department entities; however, beyond FY 2012 the plan does
not describe skill deficits, prioritize Department training needs, or incorporate evaluation. Such a
limited plan does not permit FSI to prioritize and deliver courses effectively.

         Many Department bureaus fail to provide FSI with sufficient guidance for FSI to carry
out its 13 FAM 10 responsibilities to develop policies and training. FSI reaches out to bureaus and
USAID to develop training to meet QDDR and other needs, but most bureau representatives
interviewed by the inspection team acknowledged that their bureaus do not assess and prioritize
training needs or work with FSI to meet those needs. Although FSI often responds to requests
from bureaus for new courses, this ad hoc approach is inefficient and complicates FSI’s
prioritization process and its determination of the most cost-effective way to deliver courses,
whether at FSI, a regional training center, an overseas mission, by distance learning, or some
combination thereof. This approach also does not allow the Department to use training funding
as effectively as possible. In the case of a course attended primarily by participants from one
region, it would often be more cost effective and expedient for bureaus to fund FSI trainers to
conduct classes at an overseas mission rather than for the bureaus to pay to send employees back
to FSI.


8
  A 2008 Stimson Center report observed that the Foreign Service is increasingly deficient in skills needed to
conduct today’s diplomacy, specifically foreign language fluency; advanced area knowledge; leadership and
management ability; negotiating and precrisis conflict mediation/resolution skills; public diplomacy; foreign
assistance; post-conflict stabilization; job-specific functional expertise; strategic planning; program development,
implementation, and evaluation; and budgeting. The study noted that FSI had responded well to emerging needs by
developing new curricula in a number of areas. (Stimson Center and The American Academy of Diplomacy, A
Foreign Affairs Budget for the Future, p. 21.)
9
  Planning for Training, 5 C.F.R. § 410.201 (2012).
10
   13 FAM 011 b.
                                            10
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Recommendation 9: The Office of Management Policy, Rightsizing, and Innovation, in
coordination with the six regional bureaus, should develop and prioritize the bureaus’ training
needs, including for language training, over the next 5 years and provide updated information to
the Foreign Service Institute annually. (Action: M/PRI, in coordination with AF, EAP, EUR,
NEA, SCA, and WHA)

Recommendation 10: The Foreign Service Institute should incorporate regional bureau training
priorities into the Department of State’s training plan and adjust its course offerings to meet
those needs. (Action: FSI)

         Advanced Education: FSI’s current courses, such as the interagency National Security
Executive Leadership Seminar, are highly rated by students but are not sufficient to address the
educational requirements of future Department leaders. The QDDR emphasizes improved
training for a broad range of policy skills and knowledge. An October 2012 Stimson Center
report 11 made the ambitious recommendation that the Department fund a study of what would be
required for FSI to offer senior professional education comparable to the National Defense
University and military war colleges. Although it is unlikely that a proposal along these lines
could be implemented, or that the canceled interagency Senior Seminar could —or should—be
resurrected in its previous form, the Department committed to provide other forms of training for
senior officers. 12 This commitment has been only partially fulfilled. There are 127 long-term
educational opportunities outside the Department for mid- and senior-level officers, including
many at Department of Defense institutions. Between 10 to 17 percent of these slots are not
filled each year. The Director General has no educational opportunities outside the Department at
the counselor or minister-counselor level. This issue requires attention.

Recommendation 11: The Bureau of Human Resources should survey mid-, senior-, and
executive-level employees to find out what additional long-term education they need and why
employees are not bidding on certain current long-term educational opportunities. (Action:
DGHR)




11
  Stimson Center Report, Diplomacy in a Time of Scarcity, October 25, 2012.

12
  Department of State, M/FSI/LMS, Notice 2003 08 033, A Message from the Director of FSI: Update On Senior

Leadership Training, August 2003.

                                          11
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



School of Language Studies

        SLS is the largest of FSI’s schools, with a base budget of $33.5 million in FY 2012 and a
total budget of $46.7 million, which includes $5.5 million in reimbursements from other
agencies. In December 2012, SLS had 684 staff members: 374 direct-hire employees and 310
full-time equivalent contractors. SLS is managed by a dean and two associate deans and is
composed of a testing division, five language divisions, a Curriculum and Staff Development
division, and an administrative section. SLS trains employees of the Department, USAID, and
other agencies in 70 languages ranging from Spanish to super hard languages such as Korean.

        SLS performs its core function well. The majority of students reach their proficiency
goals on time, even though the Department no longer considers employees’ language aptitude
when making assignments. SLS has dealt successfully with a greatly expanded and more diverse
student population and the need to expand course offerings, such as in Dari. Some languages
enjoy significantly greater testing success rates than others. FSI has taken steps to improve
underperforming divisions; additional adjustments in pedagogy, curriculum, and management
and consistent sharing of best practices will improve overall performance. SLS needs to
concentrate more on improving pedagogy. Increasing instructors’ qualifications, providing
clearer feedback, and determining the right balance between direct-hire and contract employees
will also help SLS be more effective. SLS costs to get students to the general professional
proficiency level, referred to as “3/3” for the tested score in speaking and in reading, are
comparable to or lower than those of most commercial entities. SLS is recognized as a leader in
language testing but needs to institute independent reviews of test scores.

School of Language Studies Leadership and Coordination

        SLS is responsive to Department priorities, but a long-standing disconnect between the
dean’s office and instructional staff has led to unresolved management problems, lack of clarity,
and pedagogical inconsistency. Reallocating operational responsibilities to the associate dean for
management and operational coordinators should free up the dean, associate dean for instruction,
division directors, and language training supervisors to concentrate on addressing these
problems.

        Outreach: Representatives from several agencies complimented SLS staff for effective
participation in the Interagency Language Roundtable, the primary U.S. Government forum for
coordinating language policy. At the four monthly meetings inspectors observed, SLS staff
developed productive agendas and led inclusive discussions with government, academic, and
business representatives to improve the results of U.S. Government language instruction.

        Department Coordination: SLS effectively responds to changes in the number and kind
of languages needed, human resources policies affecting hiring and language requirements for
promotion of Foreign Service staff, and QDDR imperatives to accommodate students from
USAID. SLS’s workload is in constant flux. In past years, important issues pertaining to
language training often went unresolved, giving SLS scant warning of developments that
affected the number of language students and languages they would be studying. To improve
coordination, the previous Director General of the Foreign Service in 2010 empowered the
                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Language Policy Working Group, a forum with senior employees from the Bureau of Human
Resources and FSI, to discuss and propose resolutions to problematic issues, such as language
incentive pay. In the fall of 2012, the OIG team observed FSI’s deputy director and SLS senior
officials playing an effective role in the Language Policy Working Group, which is still needed.

         Internal Coordination: Many direct-hire and contract staff members reported they had
no contact with the dean’s office. A long-standing disconnect between the dean’s office and
instructional staff has led to unsolved management problems, lack of clarity, and pedagogical
inconsistency. Several factors contributed to this disconnect. Excessive turnover of SLS deans—
five in the past 6 years—drew attention away from addressing important issues. Numerous
staffing gaps required a few employees to fill roles in acting capacities, often multiple roles at a
time. Many decisions are ad hoc, conveyed with little explanation or documentation. Many SLS
employees assert that bringing problems or poor results to leaders’ attention is unwelcome or
even job threatening. Contract instructors told inspectors “we feel unprotected,” “we are afraid to
say anything for fear we will lose our jobs,” and “if a student complains you can lose your job.”
Although FSI management stated that there have been no cases of contract instructors being fired
without cause and due process, SLS leadership needs to address this widely held perception. The
dean and associate deans are experienced managers, but only the associate dean for instruction
has a pedagogical background. This imbalance of skills deemphasizes what should be a core
focus: teaching methods, materials, and curricula. Reducing the associate dean for instruction’s
management and financial duties will allow him to focus on pedagogy and oversight of the
language divisions to better leverage the pedagogical talent and experience within SLS,
especially of its division directors, to improve instruction.

Recommendation 12: The Foreign Service Institute should transfer the management and
financial duties of the School of Language Studies’ associate dean for instruction to the associate
dean for management. (Action: FSI)

         SLS’s primary weakness is pedagogical inconsistency. The school is not effectively
sharing solutions to common challenges, spreading innovative practices, or improving
coordination among the language divisions, the testing division, and the Curriculum and Staff
Development division. Structures to coordinate policies and procedures, prioritize needs, allocate
resources, and evaluate effectiveness are weak. SLS leadership is increasing efforts to
institutionalize best practices. For example, in December 2011, SLS created a Curriculum and
Staff Development division with a director dedicated to curriculum development.

        Two important management problems need greater attention from SLS leadership. First,
SLS managers need to be more proactive in addressing staff performance problems and EEO and
harassment-related complaints, the majority of which are in SLS. Second, SLS successfully
shifted hundreds of individual contracts with instructional staff in 2011 to a contracting
mechanism with four firms to respond to Internal Revenue Service requirements pertaining to
contractor income tax payments. SLS leadership’s concerted outreach, however, did not
successfully address contract instructors’ concerns. SLS’s contract instructors reported to
inspectors a strong perception of unfairness and lack of transparency in how this shift was made,
which decreased morale and effectiveness. Their concerns about favoritism are aggravated by a
lack of clarity about administrative practices. The inspection team strongly encouraged SLS to

                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


continue the new associate dean for management’s much-needed campaign to develop standard
operating procedures to address many of these uncertainties.

        Strategic Planning and Evaluation: The overwhelming focus of the SLS dean, associate
deans, and division directors on operations deprived them of time to concentrate on strategic
planning and evaluation to plan and improve pedagogy. SLS staff often has insufficient lead time
to react to changes of language designated positions and other language policies. Even in
strategic languages, student numbers can drop dramatically, causing significant disruption and
expense in SLS. In Dari, there were 41 students in FY 2010, 34 in FY 2012, and only 13 in FY
2013. In Arabic, the number of students dropped from 207 in FY 2010 to 153 in FY 2012,
causing FSI to reduce instructors from 56 in FY 2010 to 39 in FY 2012. The associate dean for
management, in concert with the associate dean for instruction and the Curriculum and Staff
Development division, can most effectively coordinate SLS strategic planning, working with the
dean to map future directions and proactively allocate resources to new projects and programs.

Recommendation 13: The Foreign Service Institute should assign responsibility for
coordinating the School of Language Studies’ strategic planning to the school’s associate dean
for management. (Action: FSI)

         SLS instruction and test format may not reflect employees’ language needs. Former
students surveyed during their overseas assignment reported that FSI should teach and test skills
more relevant to job performance and place greater emphasis on conversation. Some former
students argued for the elimination of the briefing portion of the speaking test and the “speed
reading” part of the reading test because the skills are irrelevant to job requirements. Many
instructional staff members said they do not know how Department personnel need to use
language, which impedes their ability to target instruction to employees’ needs. Instructors feel
pressure to teach to the test, the format of which has not changed for decades. Data about student
performance on progress and end-of-training tests and the results of SLS student surveys are not
shared routinely with instructors. Few SLS language divisions coordinate with post language
programs. To obtain the views of post leadership, SLS held digital video conferences (DVC)
with two large posts in 2011, a third in November 2012, and was planning a fourth in early 2013.
In February 2013, SLS finalized a plan for quarterly DVCs with select posts in each division.
SLS does not have a comprehensive plan for visiting overseas posts. Instructional staff schedules
visits to overseas missions to obtain feedback, coordinate with post language programs, and
mentor post language instructors. Because of personal issues and regional instability, none of the
five budgeted language training supervisor trips was carried out in FY 2011 and only two of the
five were made in FY 2012. The associate dean for instruction is best placed to oversee the
gathering and analysis of data on student performance and language needs, including surveying
overseas missions, bureaus, and former students, to improve instruction and align training with
Department needs.

Recommendation 14: The Foreign Service Institute should assign responsibility for oversight,
collection, analysis, and use of data on student performance and language needs to the School of
Language Studies’ associate dean for instruction. (Action: FSI)



                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 15: The Foreign Service Institute should implement a plan of visits to
overseas posts with post language programs to obtain feedback and improve coordination of all
Department of State-funded language activities. (Action: FSI)

        Effectiveness of Division Directors and Language Training Supervisors: Most divisions
in SLS are well led, but instructional staff in sections of both the European and African
Languages division and the Near East, Central, and South Asian Languages division described a
communications gap with division leadership and pervasive perceptions of favoritism. Although
division managers have taken the required FSI leadership and management training, they receive
uneven mentoring and counseling. The lack of standard operating procedures reduces
transparency. Instructors in the Arabic division saw their leadership as unwilling to consult with
instructors on new materials and curricula. Instructors in the French section saw the division
director’s management as overly negative. During the inspection, division directors introduced a
number of measures suggested by the OIG team to improve communication.

        The explosive growth of many divisions, the addition of large numbers of new teachers,
and the use of different models for scheduling classes have complicated instruction and
coordination. It is challenging, for example, to ensure that more than 100 students shift
successfully from one teacher to another. The Chinese, Spanish, and French sections developed
independent solutions to this challenge but do not share best practices. Operational duties such as
class scheduling preoccupy division directors, language training supervisors, training specialists,
and language and culture instructors, leaving insufficient time and attention for instructional
issues and curriculum development. Reassigning operational responsibilities to one lead
coordinator in each division would concentrate these responsibilities and allow others to focus on
instruction. SLS can make this adjustment without creating any new positions.

Recommendation 16: The Foreign Service Institute should assign operational duties to one lead
coordinator in each of the School of Language Studies’ instructional divisions. (Action: FSI)

       FSI’s larger language sections, such as French and Spanish, are headed by three or four
co-equal language training supervisors rather than a single individual. This approach allows each
supervisor to focus on a different functional issue such as conversation or curriculum. In the
French section, however, there is uncertainty about which supervisor is responsible for which
students and a less accountable relationship between the teachers and their rating supervisors.

       Informal Recommendation 4: The Foreign Service Institute should reorganize
       responsibilities in the French section of the School of Language Studies to assign
       responsibility for each teacher and student to a single supervisor.

        Foreign Affairs Manual and Handbook: Portions of the FAM and Foreign Affairs
Handbook (FAH) pertaining to SLS are confusing, out of date, or no longer being implemented.
For example, 13 FAH-1 H-222 refers to category A, B, and C languages, terms that are no longer
used, and use of the Modern Language Aptitude Test (MLAT), which FSI stopped administering
routinely in 2011. FSI’s internal list of category I, II, III, and IV languages is not in the FAM or
FAH or on the Department intranet site. SLS estimates for the standard length of time it needs to
teach a student language to the 3/3 level assume that the student is a native speaker of English
with no prior knowledge of the language and has at least a very good aptitude for classroom
                                                  15
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


learning of foreign languages. The Department does not take either of these assumptions into
account when assigning an employee to language study, and there are no guidelines in the FAH.

Recommendation 17: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should update Foreign Affairs Manual and Foreign Affairs Handbook sections that
pertain to the School of Language Studies. (Action: FSI, in coordination with DGHR)

Instructional Staff

         The majority of SLS instructional staff members dedicate great effort and skill to bring
their students to desired proficiency levels. SLS relies on contract instructors for flexibility to
respond to changing needs and continuously incorporates large numbers of new contract
instructors into its workforce. Increasing instructors’ qualifications, providing clearer feedback,
and determining the appropriate balance between direct hires and contractors will help SLS be
more effective.

        Personnel Management: SLS faces unpredictable changes in enrollment. For example,
the French section increased from 59 students and 37 instructors in 2009 to 175 students and 57
instructors in 2012. The Chinese section grew from 30 students and 18 instructors during the
1999 OIG inspection to 92 students and 54 instructors now. To cope with fluctuations, SLS uses
contract instructors from four contracting agencies to expand and contract its workforce. In 2012,
52 percent of instructors were contractors and 48 percent were direct hire. Contractors do not
have benefits or job security, so many leave when they can find a better position. In FY 2012,
roughly 30 percent of SLS contractors were new, reflecting higher enrollments in Spanish,
French, Portuguese, and Chinese. From September to December 2012, an additional 10 percent
of SLS instructors were new. In some languages, all the instructors are contractors. This turnover
inevitably reduces efficiency and effectiveness. Some students complained that newer contract
instructors were unfamiliar with curriculum and teaching methods. Contract instructors
repeatedly told inspectors that the insecurity of contract work limits their willingness to correct
students’ errors or report student conduct issues out of fear that complaints would affect renewal
of their work assignment to FSI. Instructors expressed concern that supervisors would side with
the student, not the instructor. FSI management told the OIG team this impression is not
accurate. SLS does not have statistics on contractor turnover, the increased cost of orientation
and continuing education because of turnover, or a cost comparison for direct-hire and contract
instructors. Preliminary figures from the Bureau of Administration indicate a full-time contract
instructor costs over 13 percent more than a similar direct-hire instructor. The Department uses
workforce studies to determine the appropriate balance of employees and contractors and which
functions are best performed by each. The policy in 3 FAM 2160 provides guidance to guarantee
that Federal employees receive consideration, on a regular basis, to perform new functions and
functions performed by contractors in order to implement pertinent sections of the Omnibus
Appropriations Act, 2009, 13 and Office of Management and Budget guidance on Managing the
Multi-Sector Workforce, M-09-26.


13
  Financial Services and General Government Appropriations Act, 2009, Div. D, Title VII, § 736, Pub. L. No. 111­
8, 123 Stat. 524, 689-91.

                                           16
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 18: The Bureau of Administration, in coordination with the Foreign Service
Institute and the Bureau of Human Resources, should conduct a workforce study of the School of
Language Studies, identifying functions and analyzing workforce mix. (Action: A, in
coordination with FSI and DGHR)

        Recruitment and Hiring: SLS requirements for direct-hire and contract instructors’
qualifications are insufficient: native to near native proficiency in the target language and a
cultural background in a country where that language is spoken. Division directors report that
successful instructors also require strong English language skills, prior experience in teaching
adults a new language, and experience with multimedia. Many instructors lack these
qualifications, sometimes because trained instructors are not available despite FSI’s efforts to
find them. Almost all instructors begin their careers as candidates from contracting firms.
Supervisors interview candidates in the target language, asking about their teaching experience.
SLS does not, however, test their written proficiency in either the target language or English.
Candidates do not have to present evidence of their skill in teaching adults or use of multimedia
equipment. As a result, instructors’ qualifications vary widely. SLS workshops on teaching and
multimedia skills cannot substitute for basic minimum qualifications.

Recommendation 19: The Foreign Service Institute should strengthen qualifications for contract
and direct-hire instructors to include oral and written proficiency in both the target and English
languages, teaching experience, and relevant information technology skills. (Action: FSI)

        Management of Contract Instructors: FSI does not provide contract instructors with
sufficient feedback on performance. Contract instructors know they face dismissal if they do not
meet FSI standards for instruction and classroom management, but they do not receive the
feedback to help them meet those standards. Contract instructors’ supervisors mistakenly believe
they are not allowed to provide feedback because FSI evaluates the contracting firms, not the
individual contract instructors. Managers submit annual numeric ratings on performance to the
contracting officer’s representative, who uses them to generate an overall rating for each firm.
This approach does not allow FSI to improve individual performance.

Recommendation 20: The Foreign Service Institute should provide guidance to supervisors on
the feedback they should furnish to contract instructors and contracting firms. (Action: FSI)

         Classroom Observation and Evaluation: Once instructors are selected for direct-hire
status, language training supervisors are responsible for monitoring and evaluating their
performance. Although annual evaluations are generally submitted in a timely manner, they are
often based on insufficient classroom observation. Many language training supervisors depend
on training specialists to make classroom observation visits, which sometimes occur in a cursory
or unsystematic fashion. Without regular classroom observation, FSI cannot verify that
instructors are providing a high standard of instruction and classroom management.

Recommendation 21: The Foreign Service Institute should require that instructors in their first
year be observed at least biweekly and that language training supervisors observe all instructors’
classroom performance at least quarterly and include their observations in counseling and annual
evaluations. (Action: FSI)

                                       17
                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Instruction

       SLS’s mission—teaching more than 70 languages to a diverse and changing student
body—is challenging but critical to the Department’s success in advancing U.S. interests. To
help SLS be more effective, the Department needs to start implementing guidelines to ensure
appropriate assignments to language study. SLS also needs to make organizational, procedural,
and programmatic changes, including updating curricula on a systematic basis and strengthening
coordination with post language programs.

         Effectiveness: The Department has determined that approximately 4,100 overseas
positions require language proficiency; two-thirds of these positions are designated at the 3/3
level. SLS reported a 92-percent overall success rate for Department students who were
beginners in a language and assigned to a language designated position in FY 2011. This figure
includes all students, regardless of target proficiency level, but does not reflect the amount of
time it took students to reach their target proficiency level. SLS reported in FY 2011 a 78­
percent overall on-time success rate in getting students to their target proficiency level within the
standard training period established for the language and a 60-percent on-time success rate for
students seeking to attain general professional proficiency or 3/3. Similarly, the OIG team
calculated this rate at 56 percent for FY 2011. SLS’s average on-time success rates for students
seeking to attain a 3/3 in languages with 10 or fewer students was 76 percent, significantly
higher than for students in larger language sections (see table below).

               OIG Calculation of FSI Rates of Success for Beginner Students
                                  Seeking to Attain a 3/3
                             Weeks                  FY 2011                FY 2012
     Language
     Category 14                               On-time Overall On-time          Overall
                                               Success Success Success          Success
                                                Rate        Rate      Rate       Rate
 Category I*        24 weeks                    57%         91%        60%       86%
 Category I         24 weeks in FY 2011;        36%         79%        43%       69%
 (French)           30 weeks in FY 2012
 Category II**      36 weeks                    53%         78%        42%       75%
 Category II        30 weeks in FY 2011;        22%         65%        50%       83%
 (German)           36 weeks in FY 2012
 Category III***    44 weeks                    69%         82%        72%       78%
 Category IV****    44 weeks at NFATC,          68%         68%        63%       63%
                    followed by 44 weeks at
                    FSI Field School
 Overall Success                                56%         82%        60%       82%
 *       Easier so-called world languages: Danish, Dutch, Italian, Norwegian, Portuguese, Romanian, Spanish, and
         Swedish.
 **      Harder so-called world languages: German, Indonesian, Malay, and Swahili.
 *** Hard languages, including all those not cited in the other categories.
 **** Super hard languages: Arabic, Chinese (Cantonese and Mandarin), Japanese, and Korean.

14
     These numerical categories are derived from an internal FSI/SLS list.
                                               18
                                   SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


        Because of persistently low on-time success rates in French and German, 36 percent and
22 percent, respectively, in FY 2011, FSI in 2011 extended the standard study period in both
languages by 6 weeks. After this change, SLS’s on-time success rates in achieving a 3/3 in
French and German as of November 2012 were improving but still below on-time success rates
in other languages. One-third of SLS’s French students enrolled in a pilot program launched in
September 2012 told inspectors they were pleased with the quality of instruction; those who were
not benefitting from the pilot program reported continuing dissatisfaction. The inspection team
urged SLS to implement the new curriculum as soon as feasible.

                OIG Calculation of Cost of Training Extensions in FY 2012 15
            All Students Who Extended Training Beyond Standard Number of Weeks
  Language       Number      Extra     Tuition /    Salary     Estimated      Potential
  Category          of     Training Program           and      Total Cost    Temporary
                 Students Weeks          Cost      Benefits                  Duty Cost
 Category I        149         982     $655,976 $2,523,740 $3,179,716        $1,390,345
 Category II         39        306     $204,408     $786,420     $990,828      $433,244
 Category III      129         819     $547,092 $2,104,830 $2,651,922        $1,159,565
 Category IV         51        347     $231,796     $891,790 $1,123,586        $491,293
 Grand Total       368       2,454    $1,639,272 $6,306,780 $7,946,052       $3,474,447
                     Unsuccessful Students Even With Extension (subset of above)
     Language       Number      Extra      Tuition/      Salary     Estimated                      Potential
     Category          of     Training Program            and       Total Cost                    Temporary
                    Students Weeks           Cost       Benefits                                  Duty Cost
 Category I            28        192       $128,256     $493,440      $621,696                      $271,839
 Category II            5         41        $27,388     $105,370      $132,758                       $58,049
 Category III          11         65        $43,420     $167,050      $210,470                       $92,029
 Category IV            5         17        $11,356      $43,690       $55,046                       $24,069
 Grand Total           49        315       $210,420     $809,550 $1,019,970                         $445,986

        FSI is expending substantial instructor time at considerable cost to assist students, some
of whom require multiple extensions to achieve target goals, whereas others never reach their
target scores and require language waivers. In FY 2012, more than 350 SLS students seeking to
attain a proficiency level required additional training. The cost of this additional instruction
combined with the students’ salary and benefits came to approximately $8 million, not counting
temporary duty costs. Even with the extra training, almost 50 students did not meet their target
proficiency level, at an estimated cost of more than $1 million in addition to temporary duty
costs. In the majority of these cases, SLS informed career development officers that these
students were unlikely to reach the target level, calling into question the utility of extending the
students in training.


15
 Derived from SLS data for students who tested in FY 2012 that indicates the date each student started training and
when each student tested at the end of training.
                                            19
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

         Although some of its terms are out of date, 13 FAH-1 H-222 lays out an effective,
simple, and fair process for assigning employees to hard and super hard language training. It
provides two objective criteria: prior language learning success or a suitably high language
aptitude test score. The policy calls for consulting FSI if an employee does not meet these
criteria and for early withdrawal if an employee is not likely to succeed. The Bureau of Human
Resources is not following these guidelines, causing FSI and the Department to incur significant
expense and staffing gaps. Guidelines in 13 FAH-1 H-222 specify that “While there is no hard­
and-fast rule, a score on the [MLAT] of 60 or better is usually evidence that an employee is
capable of doing acceptable work in a category B 16 [hard] language. Similarly, candidates with
MLAT scores of 50 or better are normally able to succeed in category A [world] language
training. A record of success in previous language training as an adult is usually a more reliable
indication regardless of the MLAT score. Assignment of a person with a low MLAT score and
no previous success in language learning to a category B or C [super hard] language should be
done in consultation with FSI. This does not automatically exclude such persons from training,
but agencies or offices assigning such students should be prepared to withdraw them and make
other arrangements if, early in the course, it becomes evident that success is not likely.”

        The Department needs to take four steps to bring its practice of assigning employees to
hard and super hard languages in line with 13 FAH-1 H-222 guidelines. First, the Department
needs to reinstitute language aptitude screening. All three other U.S. Government foreign affairs
agencies with language institutes use an aptitude test as part of their screening for assignments;
one agency reported that two-thirds of its unsuccessful students had scores below the minimum
recommended score for assignment to study that language. FSI stopped administering the MLAT
routinely in 2011 because the Bureau of Human Resources was no longer using it to make
assignments. Experts in second language acquisition do not see the MLAT as completely reliable
in predicting future language learning success. But parts of it are valuable indicators, and it can
contribute essential information to the diagnosis of foreign language learning disability, provided
that adequate safeguards are in place for its administration. 17 The University of Maryland Center
for the Advanced Study of Language developed a High-Level Aptitude Battery of computer-
delivered cognitive behavioral tasks to identify people who can begin to learn a foreign language
past puberty and attain high levels of language ability. Center testers already administer the
battery at two U.S. Government agencies; a Web-based battery will be available in late 2013.

Recommendation 22: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should reinstitute language aptitude screening. (Action: DGHR, in coordination
with FSI)

        Informal Recommendation 5: The Foreign Service Institute should participate in the
        longitudinal predictive validity study of the High-Level Aptitude Battery developed by
        the University of Maryland Center for the Advanced Study of Language.



16
   13 FAH-1 Exhibit H-214 lists category A (world languages) as Afrikaans, Danish, Dutch, French, German,

Haitian Creole, Italian, Norwegian, Portuguese, Romanian, Spanish, and Swedish. Category B languages are all

remaining languages. Neither the FAM nor the FAH defines category C languages.

17
   Daniel J. Reed and Charles W. Stansfield, “Using the Modern Language Aptitude Test to Identify a Foreign

Language Learning Disability: Is it Ethical?” in Language Assessment Quarterly, 1:2-3, 161–176, 2004.

                                           20
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


        Second, bureaus should not select an employee for a position that would require training
in a hard or super hard language if the employee has not demonstrated prior success in language
learning or tested language aptitude, in accordance with 13 FAH-1 H-222 guidelines. An FSI test
score of at least 3/3 in any language, limited working proficiency (2/2) in a hard language, or 2/0
in a super hard language shows previous language learning success. An MLAT score of 60 or
higher or the equivalent on the High-Level Aptitude Battery demonstrates sufficient language
aptitude for an employee to be successful in hard or super hard language training. A number of
employees have not had the opportunity to have their language aptitude tested, so it may not be
practical for the Department to reinstitute this requirement completely before the fall 2014
assignment cycle. A bureau could request that the Director General waive this requirement if
there are no otherwise qualified assignees or in other special circumstances. For example, a
student’s motivation is an important factor in language learning success but cannot be measured
objectively. In cases when the potential assignee does not meet this requirement, the bureau
requesting the employee’s assignment, the Bureau of Human Resources, and FSI will agree to
assign the employee to an appropriate length of training and to withdraw the employee from
training or waive the language requirement if the employee does not learn the language
successfully. The OIG team advised the Bureau of Human Resources to consider whether
language aptitude and prior language learning success are given sufficient consideration in the
recruitment process for new Foreign Service candidates.

Recommendation 23: The Bureau of Human Resources should instruct bureaus not to offer a
handshake for an assignment that would require training in a hard or super hard language to an
employee who has not demonstrated prior success in language learning or tested language
aptitude without concurrence from the Bureau of Human Resources and the Foreign Service
Institute. (Action: DGHR)

Recommendation 24: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should establish, once a new language aptitude test is available, a policy of
assigning employees lacking demonstrated prior success in language learning or tested language
aptitude to hard or super hard language training only if there are no other qualified bidders
available. (Action: DGHR, in coordination with FSI)

         Third, FSI needs to monitor closely students who have not demonstrated prior language
learning success or language aptitude to determine whether they need extra assistance and/or
training time. FSI also needs to notify the Bureau of Human Resources early in training when a
student is not likely to succeed on time so that the student can be extended, withdrawn, or have
the language requirement waived as necessary. In FY 2012, only 60 percent of beginner students
in all languages achieved their target 3/3 within the standard time of instruction. For category II
languages, the overall on-time success rate for beginner students was 42 percent. As a result, FSI
is not able to plan instruction effectively. Overseas missions experience staffing gaps when a
student fails to achieve the target level and the language requirement is not waived. FSI does not
have a system to review language instruction, curriculum, and standard length of study when on-
time success rates for a language drop below predetermined thresholds.

Recommendation 25: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should determine annually what measures need to be taken if less than 80 percent of

                                       21
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


students in a language do not attain the target proficiency level within the standard time of
instruction. (Action: FSI, in coordination with DGHR)

        Fourth, the Department needs to improve its system for determining whether to withdraw
an employee from language training when it becomes evident the employee is not likely to
succeed, even with extra attention and more time. When a student is making inadequate progress,
SLS needs to notify the Bureau of Human Resources as soon as possible so that the Bureau of
Human Resources and the bureau that selected the employee can determine whether to withdraw
the employee and identify a replacement. Language fluency is only one element of on-the-job
effectiveness. There are times when it is preferable for an employee to go to post without the full
target language proficiency level instead of leaving a position empty for a prolonged period. SLS
developed a standard operating procedure in October 2012 to improve coordination with the
Bureau of Human Resources.

Recommendation 26: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should develop a system to determine jointly whether to withdraw or extend a
student the institute has identified as not likely to succeed in learning a language within the
standard amount of time of instruction. (Action: DGHR, in coordination with FSI)

        The Department considers language test scores to be valid longer than other benchmarked
agencies. FSI language test scores are considered valid for 5 years for assignment and language
incentive pay purposes. FSI reported that other U.S. Government foreign affairs agencies
consider language test scores to be valid from 1 to 3 years, with the exception of one agency that
considers a small percentage of test scores to be valid for 5 years. A November 2012 paper by
the University of Maryland reported that proficiency ratings for reading last approximately 2
years before there is loss, whereas speaking proficiency ratings last about 1 year. 18 The
inspection team advised FSI to work in coordination with the Language Policy Working Group
to determine whether test validity for Department employees should be shorter.

        In addition to limited language aptitude, issues ranging from post-traumatic stress
disorder to family concerns sap the ability of some students to learn a language effectively. The
Learning Consultation Service in the Office of Curriculum and Staff Development plays an
important role in addressing these issues. Two-thirds of FSI students voluntarily take a Learning
Consultation Service evaluation to learn how to study language more effectively. With student
permission, the results of the evaluation are shared with the student’s learning consultant in the
language division but are rarely shared with classroom instructors, limiting their potential
benefit. Both students and instructors noted frustration with this policy.

        Informal Recommendation 6: The Foreign Service Institute should share the results of
        students’ Learning Consultation Service evaluations with instructional staff unless
        students opt out.


18
  Amber N. Bloomfield, Megan C. Masters, Steven J. Ross, Kassandra Gynther, Stephen O’Connell, “How Does
Foreign Language Proficiency Change over Time? Results of Data Mining and the Impact of Language Use”
presented at the Annual Conference of the East Coast Organization of Language Testers, November 2012.

                                         22
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         The Defense Language Institute is researching how to increase language learning speed
and success of students, including those suffering from post-traumatic stress, by preceding
language training with an intensive module of cognitive exercises to strengthen working memory
that were developed by the University of Maryland Center for the Advanced Study of Language.
Initial results show that although some students improved more than others, all students who
benefited from the training showed significant improvements in comprehension, attention, and—
to some extent—reasoning skills compared to students who did not participate in the exercises.
Piloting these exercises would allow SLS to determine how best to improve learning outcomes
and possibly reduce the length of time students need in training, also saving money.

       Informal Recommendation 7: The Foreign Service Institute should conduct a pilot test
       to determine whether preceding language training with intensive cognitive training
       increases language learning success and reduces the amount of training time needed to
       reach specific proficiency levels.

        Although many learning problems result from weak language aptitude, stress, and
problems with instruction and curriculum, a small proportion arise from students’ inappropriate
conduct. Instructional staff related cases of students’ outbursts of temper, failure to do homework
or attend classes, and other conduct issues. Some SLS staff members attribute this problem to the
high levels of stress inherent in intensive language study. Instructors said they try to resolve
problems in the classroom, reporting them to supervisors only if unsuccessful. This delay
complicates the efforts of language training supervisors to counsel students in a timely fashion.
SLS’s periodic evaluation form does not include an area to document conduct problems.
Although language training supervisors often brief career development officers on serious
problems, FSI staff could not recall a single example of when student conduct problems were
documented in writing in either periodic or final training evaluation reports. A system that
reinforces professional student conduct would include procedures for SLS instructors and
language training supervisors to document problems in writing with attendance, homework
completion, and classroom conduct; to counsel students; and, as appropriate, to communicate
problems in writing to students’ career development officers and/or assignment officers.

Recommendation 27: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should implement a system to require professional student conduct during language
training. (Action: FSI, in coordination with DGHR)

        SLS has difficulty compiling consistent data on students’ success rates because staff
cannot retrieve data on students’ target proficiency levels and future posts of assignments from
the Student Training Management System. As a result, language divisions often need to obtain
this information from students and career development officers. This arrangement is inefficient
and undermines FSI’s ability to plan and report data in a timely fashion. The Bureau of Human
Resources reported in February 2013 that assignment officers are routinely entering this
information into the Student Training Management System, but SLS staff cannot access these
data.

Recommendation 28: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should modify the Student Training Management System so that School of Language

                                       23
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Studies staff can retrieve language designated position levels and pending posts of assignment
data for each employee assigned to language training. (Action: FSI, in coordination with DGHR)

        SLS does not have a standard method for calculating on-time and overall success rates.
The Curriculum and Staff Development division is responsible for compiling success rates,
relying on information from the testing division, which records the results of all FSI-
administered tests, and language divisions. A number of factors complicate SLS’s ability to
report student success rates across all languages, including varying proficiency levels at the start
of training, lengths of assignment to language training, and target language levels. Lack of
accurate data decreases FSI’s ability to gauge operational effectiveness and make informed
decisions.

Recommendation 29: The Foreign Service Institute should establish a standard methodology
for calculating and reporting its on-time and overall language success rates. (Action: FSI)

        Efficiency: With the exception of French, FSI’s overall cost per student for the standard
amount of time for a student to achieve 3/3 proficiency is lower than those of the four
commercial language firms the inspection team benchmarked. French exceeded the costs by at
least $4,000 per student because FSI extended standard instruction from 24 to 30 weeks. The
costs shown in the following table include tuition, opportunity cost (salary and benefits at the FS­
03 grade, step 5), and personnel support (for domestic, temporary duty lodging, and per diem).

                OIG Calculation of FSI Program Costs at NFATC for FY 2011
   Language Category             Standard Number                   Cost Per Student
                                  of Weeks for 3/3         Tuition  Salary and  Temporary Duty
                                                                     Benefits       Support*
 Category I                              24                $16,032   $61,680        $27,795
 Category I (French)                     30                $20,040   $77,100        $30,656
 Category II                             36                $24,048   $92,520        $33,518
 Category III                            44                $29,392  $113,080        $37,333
 Category IV                             88                $58,784  $226,161        $58,315
 *Temporary duty support is not provided for all students.

        Curriculum and Staff Development Division: In December 2011, SLS created a
Curriculum and Staff Development division under a GG-15-level director, the sole SLS position
dedicated to curriculum development. The director works with the language divisions to
implement a much-needed process for inventorying, proposing, prioritizing, and completing
curriculum projects. The number of approved projects is more than the director can adequately
oversee, inhibiting his ability to coordinate and assist the language divisions. 19


19
  In November 2012, the Curriculum and Staff Development division was supervising curriculum development
projects in 10 languages: Armenian, Bulgarian, Cantonese, Dari, French, Hebrew, Kinyarwandan, Mandarin,
Russian, and Urdu. SLS was considering starting projects in five languages (Arabic, Dari, Pashto, Tajiki, and
Turkish) later in FY 2013.


                                           24
                               SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Recommendation 30: The Foreign Service Institute should create and fill one or more
curriculum and materials development specialist positions in the Curriculum and Staff
Development division of the School of Language Studies. (Action: FSI)

        SLS has particularly strong curriculum materials in both Russian and Chinese, but its
divisions have largely developed their instructional materials in isolation from each other.
Standards for curricula and syllabi vary widely within language divisions and from language to
language, resulting in materials of uneven quality. Not all languages have consular or security
modules, and the content and delivery of functional modules differ greatly. The creation of the
Curriculum and Staff Development division is spurring greater standardization. However, SLS
does not have a comprehensive plan to develop and revise classroom modules and distance
learning programs in each language. Also lacking is a reliable mechanism for prioritizing
projects, allocating resources, scheduling subject matter experts, evaluating effectiveness, and
refining materials based on instructor and student feedback. SLS does not routinely reach out to
post language programs for help in developing and field-testing materials. Language divisions
often have several specialists who work on curriculum design but have not designated any as
lead liaison with the Curriculum and Staff Development division to increase consistency. This
responsibility can rotate annually.

Recommendation 31: The Foreign Service Institute should implement a multiyear strategic plan
to revise School of Language Studies instructor-led and self-study curricula and syllabi. (Action:
FSI)

Recommendation 32: The Foreign Service Institute should designate one person in each
language division to lead coordination of curriculum material revisions in conjunction with the
Curriculum and Staff Development division. (Action: FSI)

        SLS curriculum development teams do not have the time or objectivity to edit and review
their own work. Peer review is a standard academic practice to enhance quality, eliminate
mistakes, and obtain independent perspectives. Instructors supplement core curriculum materials
with in-house materials. A few language divisions do not consistently follow FSI’s policy on the
use of copyrighted material.

Recommendation 33: The Foreign Service Institute should institute procedures for the language
sections to submit curriculum materials they develop or revise to the Curriculum and Staff
Development division for review, including for adherence to the institute’s copyright policy, and
for external peer review and obtaining copyright permissions as necessary. (Action: FSI)

        Less Commonly Taught Languages: Teaching less commonly taught languages presents
special challenges. Class sizes are small, which increases costs. Some language sections, such as
Tibetan and Cantonese, are able to keep on the payroll instructors who can also teach the
national language. It is difficult to recruit trained, educated, native-speaker contract instructors in
languages such as Kurdish and Somali. Even in languages such as Lithuanian and Armenian,
with enrollments of a dozen or more a year, there are gaps of several months between classes,
making it difficult for FSI to justify retaining even the best performing contract instructors, who
may not be available when needed later.

                                        25
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


        Developing and updating curriculum is challenging in many of the less commonly taught
languages because suitable commercial textbooks often do not exist. Unlike larger SLS language
sections, smaller sections often lack skilled curriculum designers to create new curricula and use
their instructors as subject matter experts to draft training materials. SLS does not have sufficient
staff with expertise in curriculum design to pair with instructors. In cases where instructors did
not have expert assistance with course design, their product was often delayed and not up to
FSI’s standards. For example, there was no suitable commercial Dari text when FSI took on the
challenge of teaching Dari. Instructors started to develop a textbook in 2009 without help from a
curriculum design expert. As of November 2012, the textbook was still incomplete; SLS staff
called it substandard. In late 2011, SLS was asked to prepare to teach a Kinyarwanda course in
September 2012. With no commercial textbook and limited time and funding to develop a
curriculum, SLS acquired materials from Embassy Kigali and Peace Corps instructors and
developed a 36-week program. Although SLS’s responsiveness is commendable, staff had to
develop, field test, and teach the materials simultaneously. In cases of small enrollments, SLS
supplements curriculum in an ad hoc fashion, tailoring it to the specific student.

Recommendation 34: The Foreign Service Institute should prepare cost estimates for
developing curriculum materials in less commonly taught languages and work with the regional
bureau that created the first language designated position to identify funding. (Action: FSI)

        Agencies that participate in the Interagency Language Roundtable shared their interest
with the OIG team in exploring how to contribute funding to FSI for curriculum development in
certain languages. Such funding would enable FSI to retain staff to develop curricula for periods
of low or no student enrollment, reducing disruptive turnover and improving the quality of
instruction.

Recommendation 35: The Foreign Service Institute should explore ways of obtaining funding
from and increasing joint curriculum development efforts with agencies that participate in the
Interagency Language Roundtable. (Action: FSI)

        Reorganization: The director of the Curriculum and Staff Development division reports
to the dean but has far more contact with the associate dean for instruction. The director works
directly with the language division chiefs who report to that associate dean and has frequent
three-party meetings with language division heads and the associate dean. Thus, it is more
effective for the Curriculum and Staff Development division director to report to the associate
dean.

Recommendation 36: The Foreign Service Institute should have the School of Language
Studies Curriculum and Staff Development division director report to the associate dean for
instruction instead of the dean. (Action: FSI)

        Most Continuing Training and Testing division staff focus on testing, a critical SLS
function. Some are responsible for developing distance language learning courses, supporting
post language programs, promoting effective use of educational technology, maintaining SLS’s
SharePoint site, and tracking copyright requests. Allocating nontesting functions currently in the
Continuing Training and Testing division to either the Curriculum and Staff Development
division or the administrative section as appropriate would allow the testing division to focus on
                                                26
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


testing and enhance coordination and efficiency in curriculum development and the delivery of
instruction.

Recommendation 37: The Foreign Service Institute should reassign staff so that personnel in
the Continuing Training and Testing division can focus solely on testing. (Action: FSI)

        Technology Use: SLS uses many new technologies in language learning but does not
benefit consistently from advances in a timely fashion. FSI’s current “low-tech” atmosphere
frustrates tech-savvy language learners. Many staff members would like to use technology more
effectively to bolster instruction and are developing an ambitious plan to create a Wi-Fi campus.
Other language training institutions, such as the Defense Language Institute, addressed this need
by establishing a body of language learning technology specialists. FSI’s current Technology
Advisory Group is made up of volunteers with other responsibilities. Not every language
division has tasked a staff member with evaluating and incorporating educational technology into
training, a responsibility that can rotate on an annual basis.

Recommendation 38: The Foreign Service Institute should assign responsibility for technology
coordination and training to one of its training specialists in each language division. (Action:
FSI)

        Functional Modules: Language sections are developing specialized modules to provide
students with vocabulary for specific professions or functions. SLS developed an effective
functional module for consular affairs. Individual language sections with little functional
expertise are attempting to develop other modules. FSI could develop modules more efficiently
by coordinating efforts and enlisting help from SPAS and Department subject matter experts.

Recommendation 39: The Foreign Service Institute should coordinate the development of
language modules in each functional area. (Action: FSI)

        Functional modules often are introduced toward the end of training and can be eclipsed
by students’ focus on preparing for the test, which does not specifically test functional material.
First-time consular officers must also complete the consular training course before departing for
post. In 2012, 87 percent of consular officers took language before consular training and were
not familiar with consular work while they were studying language. Many arrived at post after
not studying language for at least 6 weeks, which caused their ability to deteriorate. Some
language sections, including Russian and Spanish, teach the consular language module for an
hour a day while the student is in consular training. This approach makes the functional material
more relevant and keeps the student in contact with the language during consular training.

       Informal Recommendation 8: The Foreign Service Institute should encourage language
       sections to begin teaching functional modules during language training and continue
       during professional training.

        Area Studies and Cultural Studies: FSI devotes at least 15 percent of its language
instructional time to culture and area studies. Language instructors teach local customs,
courtesies, and manners as well as grammar and vocabulary. SPAS instructors supplement this
with classes on history, politics, and economics. FSI does not measure the success of either
                                                 27
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


cultural or area studies instruction. Despite the difficulty of coordinating schedules, FSI assigns
students to area studies according to their country of assignment, not their language of study. For
example, one day a week, Portuguese students attend European, African, or Southeast Asian area
studies depending on their post of assignment. Cultural studies are more uneven. The French
section ensures that students are exposed to both French culture and the cultures of francophone
countries in Africa, the Middle East, or elsewhere. The Russian section teaches mostly Russian
culture, which gives Russian-language students who will be assigned to other countries of the
former Soviet Union insufficient information.

        Informal Recommendation 9: The Foreign Service Institute should establish guidelines
        to better link area studies and language teaching and measure their success using the
        Interagency Language Roundtable competence in intercultural communication scale.

        Beyond 3/3 Proficiency: The Department has only one position designated at the
advanced professional proficiency level, referred to as “4/4.” Several regional bureau
policymakers told inspectors that it is in the Department’s interest to develop and maintain a
cadre of personnel with 4/4 language proficiency. The bureaus occasionally request FSI training
for an employee who has time before an assignment to get beyond the 3/3 level. Because there is
only one 4/4 language designated position, FSI does not maintain programs for employees to
reach this level. Only one-third of the 400 Department employees who have tested at the 4/4
level within the past 5 years attained that score because of FSI training. To facilitate planning,
the Department in December 2010 requested that posts identify positions with language needs
greater than the language designated proficiency level, a so-called preferred planning level.
Studies by the American Councils for International Education 20 and other organizations have
concluded that a well-designed immersion program is one of the most effective ways of
acquiring, maintaining, and improving proficiency in foreign languages. If the Department
determines that achieving 4/4 proficiency is desirable for additional positions, extensive
immersion will almost certainly be needed.

Recommendation 40: The Bureau of Human Resources should coordinate with the regional
bureaus for each bureau to submit a phased-in list of positions with designated and preferred
language levels of advanced professional proficiency that they intend to request in FY 2014 and
subsequent fiscal years. (Action: DGHR, in coordination with AF, EAP, EUR, NEA, SCA, and
WHA)

Recommendation 41: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should prepare components of instructional programs, including immersion
programs, to achieve advanced professional proficiency levels specified for relevant language
designated positions. (Action: FSI, in coordination with DGHR)




20
 Dan E. Davidson, President of American Councils for International Education, “Cross-Sector and Interagency
Collaborative Models for Building U.S. Capacity in World Languages,” May 21, 2012. Statement to the U.S. Senate
Committee on Homeland Security and Governmental Affairs’ Subcommittee on Oversight of Government
Management, the Federal Workforce, and the District of Columbia.

                                           28
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


        Immersion During FSI Study: Even short-term immersion in a target language setting
boosts language learning success. Immersions of up to 3 weeks at a language institute outside
Moscow increase the fluency of more than a dozen FSI students and dozens of Embassy Moscow
employees each year. FSI does not oversee this program but funds it for Moscow employees
through the post language program. FSI students still in language training fund their own
immersions. FSI encourages student-initiated immersions, including in Quito, Ecuador; Estelí,
Nicaragua; Ho Chi Minh City, Vietnam; and Tel Aviv, Israel. Many language sections, including
Spanish, Dari, Polish, and Russian, also hold low-cost, 1-week, student-funded immersions
inside the United States, usually accompanied by FSI instructors. FSI provides little assistance to
students to arrange overseas immersions that are not accompanied by an FSI instructor. The
inspection team advised FSI to focus its initial efforts to facilitate short-term immersions in
languages in which a significant percentage of students did not reach target proficiency levels.

       Informal Recommendation 10: The Foreign Service Institute should implement policies
       and procedures to facilitate student-funded, short-term immersions.

        FSI Field Schools and Regional Programs: Reflecting research that immersion is
essential for achieving higher levels of proficiency in super hard languages, FSI field schools in
Seoul, Yokohama, and Taipei teach the second year of Korean, Japanese, and Chinese. FSI
oversees second-year training at two institutions in Beijing and has a pilot first-year training
program in Seoul. FSI closed its field school in Tunis in June 2012, replacing it with programs in
eight countries. From 2009 to 2012, the on-time success rate at these programs ranged from 73 to
87 percent. Costs for all programs exceeded FSI costs by 114 to 176 percent due to security,
allowances, and other expenses for overseas personnel (see tables that follow). FSI closely
coordinates administrative arrangements with field schools and tracks students’ progress.

     OIG Calculation of Success Rates of Overseas Programs from FYs 2009 to 2012
                                       Category Category      Category     Category
           Overseas Program                I           II        III           IV
Beijing - CET (+ 44 weeks at FSI)                                             87%
FSI – AIT (+ 44 weeks at FSI)                                                 85%
FSI - Seoul (+ 44 weeks at FSI)                                               73%
FSI - Yokohama (+ 44 weeks at FSI)                                            73%
In-Country Language Program               33%        20%        56%           43%
Regional Arabic (+ 44 weeks at FS)                                            77%




                                       29
                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





      [This page intentionally left blank]




            30

SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       In-Country Language Training: In addition to FSI-managed overseas training, the
Bureau of Human Resources maintains an in-country language training program to allow
employees to study language full time at their post of onward assignment rather than at FSI for
tandem and family-friendly reasons. The average cost of such training is roughly comparable to
FSI instruction. Only 38 percent of students who completed these in-country programs from
2007 to 2012 achieved their target proficiency rates; almost 18 percent of the students never
completed their programs. After the Language Policy Working Group tightened up eligibility,
accountability, and instructional standards in December 2011, SLS began assigning each student
a mentor and conducting monthly progress checks by phone for the first few months as well as a
mid-term progress evaluation and final test. The program’s 2012 success rate jumped to 83
percent, demonstrating FSI’s value in improving outcomes of non-FSI-managed programs.

        Post Language Programs: FSI and regional bureaus contribute funding to post language
programs. Regional bureau funding focuses primarily on employees on language probation or
those who still need to attain target proficiency levels; FSI funding targets underserved
populations, such as specialists and family members. In FY 2013, FSI expects to provide $1.2
million for post language programs; bureaus expect to provide $2.8 million. FSI reviews
language programs it funds but is rarely informed of those the bureaus fund in support of foreign
language instruction at posts. Regional bureaus’ endorsement of FSI’s request for this
information is important because some overseas missions have been reluctant to share
information on their full program with FSI. All post language programs, regardless of funding
source, can benefit from SLS expertise.

Recommendation 42: The Foreign Service Institute, in coordination with Bureaus of African
Affairs, East Asian and Pacific Affairs, European and Eurasian Affairs, Near Eastern Affairs,
South and Central Asian Affairs, and Western Hemisphere Affairs, should institute a procedure
to incorporate the institute’s review and comment on all anticipated foreign language
expenditures for post language programs. (Action: FSI, in coordination with AF, EAP, EUR,
NEA, SCA, and WHA)

        Each chief of mission designates a post language officer and reports the selection to FSI,
which then guides the officer on how to administer the post language program. Post language
officers are not required to take the institute’s distance learning course on effective program
oversight, PLP100 - Post Language Officer Course, which provides information essential to
efficient program management

Recommendation 43: The Foreign Service Institute should propose changing the Foreign
Affairs Manual to require that post language officers take the institute’s PLP100 - Post Language
Officer Course available by distance learning before assuming their responsibilities. (Action:
FSI)

        Many overseas missions contract host-country language instructors but do not know the
quality of those instructors. The Curriculum and Staff Development division has guidance for
SLS language sections to interview candidates.



                                       31
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 11: The Foreign Service Institute should inform overseas
       missions that it has guidance for vetting candidates for language instructors in post
       language programs and is willing to interview the mission’s leading candidate.

        Post language programs have little or no communication with SLS on instructional
issues. Although FSI encourages post language programs to use SLS language teaching
materials, many materials on FSI networks are not readily accessible to them. SLS would benefit
from coordinating with post language programs to improve its own curriculum materials.

       Informal Recommendation 12: The Foreign Service Institute should determine which
       post language programs are interested in coordinating with the School of Language
       Studies, establish a schedule of regular communication with post language officers, and
       facilitate two-way sharing of curricular materials.

        Distance Language Learning and Self-Study: Some 1,200 students worldwide are
enrolled in SLS self-study and mentored distance learning courses designed to improve their
foreign language proficiency. Mentored courses, taken by more than 1,100 students in FY 2012,
are in growing demand. SLS is not yet measuring the programs’ effectiveness, but a number of
students contacted the inspection team to praise the programs for improving their job
effectiveness and test scores. Although the mentored courses appear to be quite effective at a
reasonable cost, they incur staff costs, requiring 52 full-time mentors. To keep up with demand,
SLS is shifting some courses from individual mentoring to group mentoring, which reduces cost
but may also reduce effectiveness. The Office of the Registrar, rather than language sections,
determines enrollment. SLS has not defined its priority target audiences for these courses, so it
cannot determine which courses are most needed. There were instances of distance language
students studying online the language of the country in which they were assigned, raising the
question of whether the post language program or other in-country programs with face-to-face
instruction might be more effective in terms of cost and pedagogy. Better coordination with post
language programs would allow FSI to take advantage of the strengths of each learning option.

Recommendation 44: The Foreign Service Institute should define the goals of distance
language learning programs, track their effectiveness, and improve their coordination with post
language programs. (Action: FSI)

Testing

         SLS is a leader in language testing within the U.S. Government and the broader language
learning community. SLS tested in 95 languages in FY 2012, more than any other U.S.
Government language testing institution. The well-led Continuing Training and Testing division
tests candidates for employment, personnel seeking an evaluation of language proficiency
obtained outside FSI, and FSI students at the end of training. SLS’s certification process for
testers and examiners is rigorous and requires recertification every 3 years. Two-person testing
teams made up of FSI staff—a certified tester, who is a native speaker, and a certified test
examiner, who may or may not be a native speaker—administer tests in person, by telephone,
and by video conference. It is the industry norm to use only native speakers as examiners and
testers. FSI uses only native speakers as testers and examiners in Arabic, Chinese, French,

                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Russian, and Spanish to maintain American Council of Education certification for these tests,
which enables FSI examinees to apply for academic credit.

        Reliability: There is a widespread and long-standing view that FSI students receive
higher test scores than students with the same level of language proficiency acquired outside FSI.
There are many reasons for this view. Although SLS policy specifies that instructors should not
teach to the test, instructors often do so. FSI uses testers almost exclusively from its own
instructional staff, who know what material FSI teaches. Very few academic, commercial, or
government language training institutions use their own instructional staff members as
examiners/testers and then only rarely. Some FSI testers reported to the inspection team that they
feel pressure to give the target test scores from students, whose careers and financial
compensation are affected by their test results; from personnel at the student’s next assignment;
and from fellow instructors, whose own reputations benefit if their students score well. Some
Department officials told the OIG team that employees with 3/3 scores in some hard and super
hard languages are unable to function at as high a level as employees with the same score in a
world language. It is complicated to compare the reliability of test scores from language to
language. SLS strives to do this through quality control in the testing process.

         It would be costly for SLS to create a separate testing entity with test developers and
testers who do not instruct, or for SLS to contract out all FSI test development and tests. Short of
these steps, SLS could determine whether its test scores are reliable by implementing a program
of external verification of a significant portion of its in-house test scoring. This approach will
require FSI to sign a contract or agreement with and train an independent private or U.S.
Government testing institution that will randomly select and score on an annual, ongoing basis at
least 20 percent of all recorded tests that SLS scored above 2/2. Tests reviewed should include
all tests scored above the 2/2 level that were administered by a non-native speaker examiner and,
if possible, at least two recorded samples for all certified testers and examiners. In FY 2012, SLS
administered 5,167 tests: 4,288 were for Department staff members, of whom 2,559 scored at
the 2/2 level or above; 879 were other agency staff, of whom 408 tested at least at the 2/2 level.
For FY 2012, 20 percent of the 2,967 total tests scored above a 2/2 comes to 594 tests. Once SLS
analyzes the verification results, it will be able to confirm whether its in-house test scoring
accurately and reliably reflects examinees’ language proficiency levels, ensure that scoring is
consistent among languages, and revalidate testers’ and examiners’ testing skills.

Recommendation 45: The Foreign Service Institute should sign a contract or agreement with an
external testing body to randomly select and score on an annual basis at least 20 percent of the
institute’s testing results scored above the limited working proficiency level for all languages
tested. (Action: FSI)

        Internal Quality Control: Testing experts from the Continuing Training and Testing
division train and certify testers and examiners but served as testers or examiners in FY 2012 in
only 5 percent of all language tests and in less than 3 percent of end-of-training tests. The vast
majority of FSI testing is done by language instructors, whose primary function is classroom
teaching. During the inspection, SLS implemented a standard operating procedure to conduct
unannounced observations of examiner/tester teams by testing division experts to ensure quality
control.

                                       33
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Test Scoring and Reviews: Unlike other government language testing institutions, SLS
provides immediate scores and feedback to examinees after all tests, except for incoming Foreign
Service generalists. Testing teams typically have 20 minutes to analyze an examinee’s language
sample and assign scores for speaking and reading. Once scores are registered, they cannot be
changed. Testing teams told inspectors that 20 minutes can be insufficient, especially when
examinees have substantial language proficiency that requires evaluation of extensive language
samples. In April 2012, the testing division proposed that examinees receive scores within 2
working days of taking a test and can request feedback up to 5 working days after taking the test.
The proposed schedule would allow time for more thorough, accurate test scoring and for
addressing language proficiency issues. Examinees who need to achieve a certain score before
departing for post would need to schedule their departure accordingly.

Recommendation 46: The Foreign Service Institute should establish a policy for School of
Language Studies’ testing teams to provide test scores to examinees within 2 working days after
a language test is taken and requested feedback within 5 working days. (Action: FSI)

        When examinees request a formal review of their test results, a second testing team with
testing division participation evaluates and discusses the test recording with the original team.
These reviews are labor intensive and may each require as much as 40 hours of staff time. The
number of review requests doubled from 2010 to 2012 and is on track to reach 150 in 2012,
about 3 percent of FSI tests. The amount of time FSI staff currently devotes to reviewing tests is
equivalent to more than one full-time position. Examinees face no risk in requesting a review
because FSI policy is to raise or maintain the score following a review, not to lower it. This is
not the practice at other government agency language testing institutions. From 2010 to 2012,
review teams gave lower scores to 33 percent of all original speaking and reading tests reviewed
and to 38 percent of original end-of-training tests reviewed. For the speaking tests only, review
teams proposed that 40 percent of all scores and 52 percent of end-of-training scores be
downgraded. Given these statistics and the demands on staff time, the current review protocol is
not serving its purpose.

Recommendation 47: The Foreign Service Institute should revise its policy so that language test
reviews may result in a score being lowered as well as maintained or raised. (Action: FSI)

        In 2012, only 4 percent of end-of-training examinees, or 68 out of 1,702, requested test
score reviews. The vast majority of these examinees were not headed to post immediately
because they did not achieve their target proficiency level or were scheduled for further training.
Two-thirds of the end-of-training examinees requested the review within 2 days of taking the
test, even though examinees have 30 days to request a review under current policy. It generally
takes SLS 10 working days to complete a review, but reviews can take longer for less commonly
taught languages. Once scores can be downgraded as a result of a review, it will be important for
end-of-training examinees desiring a review to allow sufficient time for it to be completed before
they depart for post.

Recommendation 48: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should instruct employees who take an end-of-training language test to
schedule their departure for post no sooner than 3 working days after completing the test and
should instruct end-of-training examinees who want to request a review of their test score to
                                                34
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


receive confirmation of the score before departing for post. (Action: DGHR, in coordination with
FSI)

        Test Security: Testing materials, codeveloped by the language sections and the
Continuing Training and Testing division, are paper documents. Once adopted, the finished
products are housed in the testing division, which makes every effort to control access to them.
In response to growing concerns about lapses in test security, FSI took steps to improve the
physical security of testing documents. Despite these efforts, there were more than a dozen
testing irregularities in FY 2012. These incidents included three cases of instructors who said
they inadvertently used test articles in the classroom and three cases of examinees’ being given
articles they had seen in a prior test. Implementing a well-designed and secure electronic-based
testing platform for all tests would reduce testing irregularities and facilitate reasonable
accommodation of visually impaired examinees. The initial cost to develop and implement the
platform and ongoing support costs could be offset by more efficient test administration over
time. For example, time devoted to checking returned test kits as well as the physical contents of
the 14 testing rooms twice a day would be eliminated, saving at least one half-time position.

Recommendation 49: The Foreign Service Institute should implement a secure electronic test
delivery platform for all language tests, seeking funding if necessary. (Action: FSI)

         There is a conflict of interest in having SLS instructional staff select articles for reading
test kits. This vulnerability will not be addressed by implementing a secure electronic test
delivery platform or by outside validation of the scores of recorded test samples. Even if SLS
contracts out the selection of the materials, instructors who are testers and examiners are familiar
with them. The OIG team advised FSI to examine how to resolve this vulnerability.




                                        35
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



School of Professional and Area Studies

        A Foreign Service dean, assisted by a Civil Service associate dean and a Foreign Service
associate dean, leads SPAS, a school of 11 divisions with 167 staff members, of whom 125 are
direct-hire employees and 42 are full-time equivalent contractors. SPAS had a base budget in FY
2012 of $9.2 million and a total budget of $24.7 million, which includes $5.9 million in
reimbursements. A management analysis unit oversees the SPAS budget and contracts and
serves as principal liaison with FSI/EX. SPAS delivers all FSI professional training with the
exception of that related to information technology. The school responds effectively to
Department and congressional requirements for new courses on such issues as democracy,
development, and refugees. Consular, public diplomacy, and economic training are linked well to
policymakers’ priorities; other functional areas need to strengthen ties or lack guidance. The
former dean’s well-articulated vision and objectives provides strategic direction. As of June
2012, employees were enthusiastic about and committed to their mission, and morale was
generally high.

Orientation Division

        Fourteen employees under the direction of a Foreign Service officer conduct mandatory
orientation classes for all incoming Foreign Service and Civil Service employees. Orientation
courses are regularly filled to capacity. Partly because the division is responsible for separate
categories of students, collaboration among the units handling Foreign Service generalist,
specialist, and Civil Service orientations is limited. Recurring staffing gaps and a persistent
interpersonal conflict exacerbated the sense of separation, created logistical challenges, and
contributed to uneven workload distribution. The inspection team counseled the outgoing and
incoming division chiefs on strategies to address these shortcomings. To implement the OIG
team’s proposed recommendation, FSI designated a backup coordinator for Civil Service
orientation.

        The distinction among the types of orientation promotes professional divisions and
impedes development of a common Department esprit de corps. Employees told the inspection
team that the difference in the length and depth of the generalist and specialist courses, and the
different resources the Department devotes to each, fosters the perception that specialists are of
less value to the Department. Orientation courses for Foreign Service generalists and specialists
cover some of the same material, but sessions on core skills, including public speaking, embassy
culture and representation, and crisis management, are longer for generalists. Senior Department
leaders tend to pay more attention to the Foreign Service generalist orientation, where they are
regular speakers.

        In 2010, the division proposed combining orientation for all new Foreign Service and
Civil Service employees in common modules, followed by specific breakout modules based on
employment category. This approach would have eliminated duplicative requests for speakers,
assured consistency of information, and fostered teamwork. However, the proposal also
presented logistical difficulties, including planning for the number and type of expected new
hires, scheduling the appropriate number of sessions, addressing limits on classroom capacity,
and coordinating orientation training schedules with follow-on training for various specialists.
                                       36
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


The different personnel systems and career paths of new hires, and the different course material
studied, further complicated the proposal. At the time, FSI management decided that the
obstacles outweighed the benefits, although FSI did consolidate some sessions for Foreign
Service generalists and specialists when there were concurrent classes. The decline in
Department hiring rates that started in 2012 warrants serious reconsideration of this concept.

Recommendation 50: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should determine the feasibility of taking additional steps toward consolidating
orientation training for Foreign Service generalists and specialists, and integrating Civil Service
employees when appropriate. (Action: FSI, in coordination with DGHR)

Regional Training and Adjunct Faculty

         From 2010 to 2012, FSI increased tenfold the number of locally employed staff it trained
overseas, reducing the cost per student by using local employees working at overseas missions as
part-time adjunct faculty. In 2011, FSI created a two-person unit in the SPAS dean’s office to
oversee training conducted by FSI instructors and FSI-certified adjunct faculty at three regional
training centers and at overseas missions. The unit coordinated only regional training in “soft
skills,” professional habits that complement functional skills, and did not oversee regional
tradecraft training, including that offered by SAIT and the SPAS Public Diplomacy division in
Vienna. The unit’s responsibilities were unclear when the OIG team inspected it in the spring of
2012. In response to a proposed OIG team recommendations, FSI reconstituted the unit as the
SPAS Regional Training Programs division and clarified its role, responsibilities, and courses.

        The Bureaus of European and Eurasian Affairs, Western Hemisphere Affairs, and East
Asian and Pacific Affairs have regional training centers in Frankfurt, Fort Lauderdale, and
Bangkok, respectively. The Frankfurt center also supports the Bureau of African Affairs,
whereas the Bangkok center supports the Bureau of Near Eastern Affairs and the Bureau of
South and Central Asian Affairs. Each center has a regional training director working for the
geographic bureau to coordinate FSI and non-FSI training. The regional training directors in Fort
Lauderdale and Bangkok are FSI employees on detail. In June 2012, FSI did not have current
written procedures establishing roles and responsibilities for FSI, the geographic bureaus, and the
regional training centers. Consultation among the three entities was inadequate. Partners
complained of FSI’s lack of coordination in decisionmaking despite the fact that the geographic
bureaus, not FSI, fund the travel and salary costs of center personnel and adjunct faculty.

Recommendation 51: The Foreign Service Institute, in coordination with the Bureau of
European and Eurasian Affairs, the Bureau of Western Hemisphere Affairs, and the Bureau of
East Asian and Pacific Affairs, should implement written procedures for collaboration with each
of the regional training centers and the geographic bureaus that operate them. (Action: FSI, in
coordination with EUR, WHA, and EAP)

        Regional training directors select participants for courses they offer, seeking to choose
the students most in need of training. The limited access rights regional training directors have to
FSI’s Student Training Management System, however, prevents them from seeing other courses
in other regions for which students have registered or completed.

                                       37
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 13: The Foreign Service Institute should grant regional
       training directors the necessary access to the Student Training Management System to see
       what other courses their students have registered for or completed.

        Customized Training: Bureaus sometimes request training to address a specific need or
schedule a date outside the times available in the course catalog. SPAS established a procedure
to channel these through the Regional Training Programs division regardless of which school
will ultimately teach the course. In response to a proposed OIG team recommendation, in
December 2012 FSI launched a new Web-based system to centralize coordination for customized
training. Initial staff response has been positive.

Curriculum and Staff Development Division

        The five-member Curriculum and Staff Development division conducts courses in
tradecraft at FSI and elsewhere in the Department. Over half of the division’s positions were
vacant for more than 6 months in April 2012 for lack of qualified candidates. The division
teaches FSI instructors how to draft documentation for each segment of a training curriculum,
known as a microdesign, with details about the content, timing, and methods for the instructor to
use when teaching the course. SPAS does not have a written policy requiring instructors who
develop courses to document their microdesigns. The inspection team observed several instances
when instructors asked to teach courses on short notice were unprepared due to lack of
documentation.

       Informal Recommendation 14: The Foreign Service Institute should develop
       microdesigns for all School of Professional and Area Studies courses and implement a
       review schedule to keep them current.

Area Studies Division

        FSI offers basic and advanced courses on the history, politics, and economics of foreign
countries. Over half the students in its basic courses are from other agencies. Many of these
agencies would welcome more emphasis on military and intelligence issues as well as the
inclusion of more classified sessions, but these content modifications would detract from the
courses’ core objectives. Advanced courses are taught 1 day a week as part of language study
and are aimed primarily at Foreign Service personnel preparing for assignments overseas. As
noted above, SPAS and SLS coordinate the scheduling of these courses well.

        Student evaluations praise the quality of instruction in these courses but sometimes
criticize their relevance and depth. Officers with academic backgrounds tend to want more rigor,
whereas some specialists question the need for area studies in their field altogether. Instructors
would welcome the chance to teach at a more demanding level but must take into account the
size and diversity of their classes. Many classes contain 50 or more students with a wide variety
of interest levels and background knowledge. At the suggestion of the inspection team, FSI
reviewed and tightened the learning objectives in some area studies courses and increased the use
of breakout sessions aimed at individual countries or subregions to accommodate individual
interests.

                                       38
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         Academic experts chair all regional programs except for African studies, which is
headed by a Foreign Service officer. The exception is not cost effective. This position requires
specialized academic expertise as well as a network of professional contacts with universities to
identify and recruit expert speakers and seminar leaders. FSI concurs with the need for a more
permanent and experienced incumbent.

Recommendation 52: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should, upon the departure of the incumbent, convert position number S775081 in the
Area Studies division of its School of Professional and Areas Studies from Foreign Service to
excepted Civil Service. (Action: FSI, in coordination with DGHR)

        FSI lacks an area studies program on South and Central Asia and requested an additional
position to create a program on South Asia. To support Department policy priorities, FSI should
use the position instead to create a broader program that would include Afghanistan, South Asia,
and the former Soviet republics of Central Asia. To address a proposed OIG team
recommendation, FSI finalized the purchase for the full-time equivalent for the redefined
position in November 2012.

Political Training Division

        A small, well-led division has managed a rapid expansion of courses on political issues
and a single course on tradecraft. However, unclear lines of authority and understaffing sap
morale.

        To support QDDR priorities and congressional mandates for required reporting, FSI
added a broad array of new political courses in such policy areas as human rights, religion,
multilateral affairs, and refugees. It also developed courses in new program areas, such as
foreign assistance, to support a growing need for political officers to manage grants. Despite this
rapid growth, FSI maintained high quality in existing courses on political reporting and
negotiation. It strengthened cable-drafting exercises, for example, by incorporating the criteria
OIG uses to evaluate reporting in inspections. Instructors also reduced the number of lectures
and used more exercises, simulations, and discussions. The OIG team encouraged further new
approaches such as videoconferences with embassies.

        FSI works closely with the Department’s functional bureaus to design new courses in
political affairs but lacks guidance from the geographic bureaus on their political training
requirements. Geographic bureaus generally assign responsibility for training to their executive
offices, whose staff often does not have the information or the expertise to address this issue. FSI
also lacks a central point of contact in the Department to define overall political skills and
training requirements, a sharp contrast to the role that is played for other functions by the Bureau
of Consular Affairs, the Office of the Under Secretary for Public Diplomacy, and the Bureau of
Economic and Business Affairs. As a result, FSI’s political instructors cannot be certain that their
work addresses the Department’s current needs.

Recommendation 53: The Office of the Under Secretary for Political Affairs, in coordination
with the Foreign Service Institute, should direct each regional bureau to designate a senior policy

                                       39
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


officer to define and communicate to the Foreign Service Institute the current training needs of
the political function. (Action: P, in coordination with FSI)

        The Political Training division requires reorganization. Foreign Service officers rather
than political scientists teach most courses. This approach focuses courses on pragmatic
diplomatic needs rather than on academic theory but relies heavily on the deputy director as the
only nonrotating professional position. Confusion over the responsibilities of this position
hamper efficiency and good management. The responsibilities of this position are unclear, and
other position descriptions, work requirements, and other internal documents are contradictory,
particularly in terms of supervisory authority.

         The creation of so many new courses in response to the QDDR also leaves the division
understaffed and too reliant on part-time employees and temporary positions. FSI could both
clarify the supervisory issue and address the understaffing problem through a well-thought-out
restructuring plan.

       FSI has responded to the OIG team’s concerns about workload and responsibilities by
requesting the purchase of a new full-time equivalent position and has committed to revise the
deputy’s position description to clarify supervisory responsibility. A formal plan would help
keep reorganization efforts on track.

Recommendation 54: The Foreign Service Institute should complete a plan to reorganize the
Political Training division in the School of Professional and Area Studies that clarifies and
strengthens the role of the deputy director. (Action: FSI)

        To reduce costs and encourage joint reporting, FSI combined its economic and political
tradecraft courses into a single course administered jointly by the Economic and Commercial
Studies division and the Political Training division. The new approach cuts duplication but
reduces the total number of instruction hours spent on political tradecraft. As a result, students
are sometimes clearer about what U.S. policy goals are than how they should go about advancing
them. This course is also the only tradecraft training that most political officers receive during
their career. OIG inspections of embassies suggest a need for additional training that focuses not
on theory or thematic issues but on practical skills, such as reporting, analysis, and negotiation.
These skills are not the subject of FSI’s new course for political section chiefs, which
concentrates on management. In response to the proposed inspection recommendation, FSI plans
to conduct a needs assessment for an advanced political tradecraft course.

Economic and Commercial Studies Division

        A small, well-managed division provides high-quality training in economic and
commercial work as well as in environment, science, technology, and health. Surveys show high
student satisfaction. Academic economists teach most courses, and Foreign Service officers
serve as director and deputy. Filling both managerial positions with Foreign Service officers,
however, jeopardizes continuity when they both rotate at the same time. FSI agreed to alter the
rotation dates to avoid simultaneous transitions. There remains some confusion about the role of
the deputy position, which is described as supervising deputy director in Foreign Service bidding
documents but not in FSI’s internal documents and work requirements.
                                                 40
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 15: The Foreign Service Institute should clarify the
       responsibilities of the deputy director in the Economic and Commercial Studies division.

         FSI supports the Secretary’s 2011 Economic Statecraft Initiative well. As part of that
initiative, the Department conducted a worldwide survey of economic officers to determine
needed training. Based on the response, FSI is discussing with the Office of the Chief Economist
and other stakeholders whether the Department should send more economic officers to long-term
university programs or rely on shorter and less expensive courses at FSI. University training
provides more academic depth, whereas classes at FSI are designed to turn out economically
literate diplomats rather than economists. In contrast to political training, FSI coursework offers
a continuum of economic tradecraft training throughout an officer’s career. The OIG team
endorsed the division’s efforts to provide more training to Foreign Service nationals.

       FSI is also supporting QDDR priorities by creating or updating courses on energy and
development. It launched a course on foreign assistance for political and economic officers that
included key programs such as the President’s Emergency Plan for AIDS Relief. Efforts to
develop a Partnership in Development and Diplomacy course were less successful. Despite
extensive consultations, FSI and USAID were unable to agree whether the course should
emphasize development theory or economics. During the inspection, FSI reassigned
responsibility for the course to the Political Training division. In response to the OIG team’s
suggestion, FSI finalized the course design, holding the first session in September 2012.

Stability Operations Division

         FSI formed a Stability Operations division in 2008 to respond to the Department’s need
to train unprecedented numbers of staff members for service in Afghanistan, Iraq, Pakistan, and
other fragile states. The Department requires that all personnel assigned to Afghanistan and Iraq
under chief of mission authority, including those from other agencies, complete familiarization
and security courses.

        The leadership of this 21-member division was in transition during the spring 2012 phase
of the inspection. There was lack of cohesion and mixed morale. Although most staff members
liked their jobs, several cited leadership deficits in motivating staff and planning and organizing
work. Managers were not receptive to staff proposals to change parts of programs or coordinate
more closely. The three team leaders met weekly with the director, but full division staff
meetings were sporadic and there was little sense of common purpose or interaction. As
suggested by the inspection team, in August 2012, the division began holding staff meetings
every other week.

        Although there are similarities in the course material for the Afghanistan, Pakistan, and
Iraq programs, there was little coordination in course development. Course materials and training
objectives developed by the conflict prevention and response team were not integrated into
country-specific courses. The Pakistan and Afghanistan programs had the same team leader, but
there was little interaction among subteam members. On the advice of the inspection team, the
division was reviewing crosscutting material for its courses on Afghanistan, Iraq, and Pakistan so
it could incorporate appropriate material from its conflict prevention and response courses.

                                       41
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        FSI convened a task force to determine what changes in training are needed as the
Department reduces operations in Afghanistan and Iraq but maintains positions in other fragile
states. At the OIG team’s suggestion, FSI reviewed and determined that it is not effective at this
time to disband the Stability Operations division and incorporate its courses into the curricula of
the Area Studies, Economic and Commercial Studies, and Political Training divisions. FSI
agreed to keep this option in mind as the pace and requirements of courses change.

Public Diplomacy Training Division

        This medium-sized division has strong ties to the Office of the Under Secretary for Public
Diplomacy and other relevant Department officers, who reported that the division has effectively
updated training to reflect present needs. Core courses focus on first-time public diplomacy
officers, locally employed staff, and staff responsible for grants. More senior officers enroll in
the specialized public affairs officer tradecraft training or a course on social media. Senior public
diplomacy officers suggested a need for an advanced public diplomacy seminar for more
experienced officers. FSI agreed to conduct a needs assessment for advanced public diplomacy
training for officers at the FS-01 level and higher.

        The Bureau of Administration provides instructors for courses on grants management
required for employees to obtain a grants warrant. The team reviewed course materials and found
that less than half the examples were on the Department’s grant process and only a quarter of the
content pertained to overseas grants. Lack of specificity in grants training can result in serious
deficiencies in grant operations.

Recommendation 55: The Foreign Service Institute, in coordination with the Bureau of
Administration, should make grants management training more specific to Department of State
grants, including the distinction between domestic and overseas grants. (Action: FSI, in
coordination with A)

        The division offers courses in Vienna, Austria, where it supervises a small training office
staffed by a locally employed staff member and a part-time eligible family member. The locally
employed staff member meets with division staff at FSI a few times a year. FSI had not
authorized the Washington-based supervisor to travel to Vienna to observe training, even though
generally accepted management practices dictate that supervisors evaluate and offer feedback on
the performance of subordinates. To implement a proposed inspection recommendation, FSI
included travel for the supervisor in its FY 2013 travel plan.

Consular Training Division

        The Consular Training division works closely with senior staff in the Bureau of Consular
Affairs, which funds consular training. Division morale is excellent; staff members all report
high levels of job satisfaction, good communication, and clear understanding of objectives.
Every Department employee responsible for adjudicating visa and passport applications overseas
is required to complete a basic 31-day consular course, each one filled to capacity. In FY 2012,
FSI added surge sessions to accommodate an upswing in hiring. Neither FSI nor the Bureau of
Consular Affairs anticipates a decline in demand for enrollment in FY 2013. Basic consular
course classroom space requires information technology hardware and software as well as
                                                42
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


consular equipment that is subject to inventory accountability. To implement a proposed
inspection recommendation, FSI changed the reservation system so that only the Consular
Training division can reserve rooms containing the needed equipment.

        The Bureau of Consular Affairs funds 100 percent of consular training expenses through
visa application fees mandated by Congress for the enhancement of border security. OIG
concluded in a 2012 audit 21 that the Department could not establish that all border security funds
were used in accordance with Department guidance because several bureaus moved funds from
border security accounts to general accounts, thereby losing the identity of the individual funds.
As of April 2012, FSI had not provided the Bureau of Consular Affairs with sufficient detail
about its computation methods and accounting practices to justify its use of border security
funds; this deficiency was corrected during the inspection. The Consular Training division
sought to streamline processes so that the approximately 950 students who travel annually to
consular courses can use the lowest permissible airfares. FSI/EX and SPAS leaders met in June
2012 but had not achieved a result as of November 2012.

        Informal Recommendation 16: The Foreign Service Institute should implement a
        process for authorizing travel for consular training courses that permits travelers to use
        the lowest permissible fares and provides for efficient accounting of border security
        program funding.

        In April 2012, the Bureau of Consular Affairs was establishing a simulated database so
that FSI students could learn without the risk of compromising the actual Consular Consolidated
Database. In June 2012, FSI and the Bureau of Consular Affairs signed a memorandum of
understanding delineating responsibility for funding, inventory, and technical support. The
inspection team advised the division director to review the practical application of the terms of
the memorandum once the system is deployed.

Management Tradecraft Training Division

         The well-managed 25-member Management Tradecraft Training division offers courses
to overseas and domestic employees in general services operations, financial management,
facilities management, and human resources. Instructors regularly discuss course content and
student evaluations with the Department subject matter experts who teach segments in many of
the longer management courses. Although the division’s human resources unit meets monthly
with the Bureau of Human Resources, Office of Overseas Employment to keep curriculum
current, the division reviews the content of other core courses infrequently. The general services
course, for example, was last reviewed in detail with Department stakeholders 5 years ago. At
the suggestion of the inspection team, the division began updating all of its course materials with
the relevant subject matter experts.

       The division’s courses are designed primarily for overseas management employees,
including locally employed staff; less than 15 percent of the courses serve domestic management
employees. Segments of both the financial management and human resources courses were

21
  Audit of Funding Provided by the American Recovery and Reinvestment Act for the Bureau of Consular Affairs
Passport Facilities Project, Report No. AUD/CG 12-25, March 2012.
                                           43
                               SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


relevant to domestic employees. Noting that enrollment was dropping in the division’s annual 3­
week domestic management officer course, the inspection team suggested that the division
review and shorten course content. Managers in several bureaus and at FSI told the inspectors
that Foreign Service employees returning to a domestic management assignment and new Civil
Service supervisors would also benefit from a short course in domestic management processes.

Recommendation 56: The Foreign Service Institute should conduct a needs assessment of
Department of State employees serving in domestic management positions and adjust its course
offerings accordingly. (Action: FSI)

        Division staffing is adequate when all positions are filled. The two Foreign Service
financial management instructor positions historically have been difficult to fill. The division is
considering requesting the conversion of the course chair position to Civil Service. The
inspection team endorsed this approach, which would improve continuity while widening the
pool of available applicants. In the spring of 2012, morale was low among the division’s training
support staff members due to performance and interpersonal problems. The advice division
managers sought from the human resources office was insufficient to help them deal with these
issues. Inspectors counseled managers on their options. After the OIG team identified these
performance problems, FSI combined training support staff into one team, adjusted portfolios,
and designated backups.

Office Management Training Division

        The Office Management Training division trains the Department’s 850 Foreign Service
office management specialists and hundreds of Civil Service office support professionals and
locally employed staff responsible for office support and protocol functions. The division offers
courses on communication, records management, and travel for all Department employees. Civil
Service office support professionals have no mandatory tradecraft training; each year only about
60 attend division courses. At the OIG team’s suggestion, the division agreed to market its
training to participants in the Civil Service orientation course.

        Under the Foreign Service specialist career development plan, office management
specialists could need to prove as soon as 2013 that they have met training requirements to be
eligible to compete for promotion to FP-04. Supervisors often deny requests for training at FSI
during assignments, and specialists have trouble getting training between assignments because
both gaining and losing overseas missions seek to minimize gaps.

Recommendation 57: The Bureau of Human Resources should establish a policy to assign each
FP-05 office management specialist to mandatory training courses required by the career
development program before the specialist’s next assignment, unless the gaining overseas
mission has confirmed in writing that it will send the specialist to the required training within 12
months after arrival. (Action: DGHR)

       Demand for the division’s courses is growing, as reflected in enrollment waiting lists.
Because the Department does not systematically track the training needs of office management
professionals, the division is not certain its course offerings are correctly targeted. It has been
more than 2 years since the division launched a new classroom or distance learning course. In
                                                   44
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


2012, the division was projected to deliver less than a quarter of the regional training it delivered
in 2006. FSI is not advertising some courses far enough in advance for students at overseas posts
to schedule and plan travel. The inspection team advised the division to plan and prioritize
course offerings and locations more effectively, including creating email distribution lists of
office management professionals, analyzing annual registrar reports, and conducting annual
needs-assessment surveys.

Recommendation 58: The Foreign Service Institute should establish priorities for office
management courses and revise course content and offerings accordingly. (Action: FSI)

        The Department does not have a central point of contact for office management or
protocol guidance. Course alumni frequently request guidance from division instructors and
credit the advice they receive for improved performance. A central clearinghouse and knowledge
management site, similar to the Ask Admin site, would reduce the volume of questions to
overburdened instructors and improve the performance of office management professionals by
providing consistent answers to frequently asked questions.

       Informal Recommendation 17: The Foreign Service Institute should work with the
       Bureau of Administration to establish and maintain a knowledge management intranet
       site for frequently asked questions about office management and protocol.

        Understaffing has impeded productivity and undermined morale in the division. In April
2012, 4 of the division’s 10 positions (including the director) were vacant. The inspection team
observed instructors teaching courses on subjects new to them as they and program assistants
took on additional work. By October 2012, FSI had filled all four vacant positions. The director
position is graded lower than director positions in other SPAS teaching divisions. FSI agreed to
determine the staffing needs by number, rank, and employment category in 2013.




                                        45
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



School of Applied Information Technology

        Led by an experienced Foreign Service dean and Civil Service associate dean, SAIT has
3 divisions with a total of 64 staff members, of whom 52 are direct-hire employees and 12 are
full-time equivalent contractors. Its FY 2012 base budget was $2.1 million and its total budget
was $6.6 million, which includes $85,000 in reimbursements. SAIT successfully plans, delivers,
and evaluates technical training for Foreign Service, Civil Service, and locally employed end
users and information technology personnel. Although SAIT’s three divisions serve discrete
clientele, they need more corporate cohesion and greater coordination with SPAS. SAIT also
should determine whether it can realize savings by having a commercial vendor teach its
industry-standard courses.

        SAIT is the sole tradecraft school not in SPAS. The inspection team observed that SAIT
and SPAS could take better advantage of each others’ best practices in curriculum development,
use of connection technologies to provide distance learning, and tracking adjunct faculty. A May
2012 Department policy instruction 22 announced that information technology professionals of
the future will not only provide traditional technical support but also play key roles other areas,
including advising on technology aspects of bilateral and multilateral policy. This goal could be
easier to achieve if SAIT were integrated into SPAS. At the suggestion of the inspection team,
FSI reviewed the advisability of integrating SAIT into SPAS and determined that maintaining
SAIT as a separate school is currently the best configuration.

        SAIT lacks institutional cohesion. In the spring of 2012, the OIG team observed
productive staff meetings at the school and division levels but saw little cross-division
interaction by staff below the level of division chief. Some staff members did not understand the
work of the other divisions, preventing them from sharing best practices. Simple steps could
include placing information on each division in new employee orientation materials, circulating
division monthly reports among all staff members, and holding quarterly all-hands meetings. In
response to the inspection team’s advice to increase collaboration, SAIT began in October 2012
to hold weekly meetings with the dean, associate dean, division directors, branch chiefs, program
managers, and analysts.

       Marketing: Almost 4,500 Department employees came to FSI for SAIT courses in FY
2012. SAIT expects to train more than 7,000 in FY 2013. In the first three quarters of FY 2012,
low enrollment contributed to FSI’s cancellation of 10 percent of SAIT’s on-campus classes.
Improved marketing would make more Department employees aware of SAIT classes. The SAIT
dean was briefing newly appointed ambassadors at FSI’s Ambassadorial Seminar and advertises
SAIT noontime seminars in Department notices. However, SAIT was not coordinating with
bureau training officers and regional information management officers to determine the needs of
the bureaus and develop a plan to offer customized classes to both Foreign Service and Civil
Service information technology specialists and end users. In response to the OIG team’s
suggestion, SAIT implemented a formal marketing plan to promote its courses, which resulted in
demand for additional SharePoint and Excel courses that SAIT will offer in early 2013.



22
     STATE cable 50126 sent to all U.S. diplomatic missions on May 16, 2012.
                                             46
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Need for Cost-Benefit Analysis: SAIT has a robust curriculum review committee that
refines existing courses and creates new ones, with participation from stakeholders from the
Bureau of Information Resource Management. As recommended by the OIG team, SAIT has
begun to develop a cost-benefit analysis to determine the appropriate mechanism for teaching
industry-standard courses, such as Microsoft and Citrix.

Recommendation 59: The Foreign Service Institute should complete its cost-benefit analysis to
determine whether industry-standard courses should be taught at the School of Applied
Information Technology or by a commercial vendor. (Action: FSI)

        Adjunct Faculty: In April 2012, SAIT lacked proper controls to ensure that adjunct
faculty instructors obtain and maintain the proper certifications to teach technical courses.
Adjunct faculty instructors have been teaching systems administration, end-user, and
Department-specific technical courses at overseas missions and regional training centers since
2009. SAIT was not ensuring that all adjunct faculty instructors were qualified to teach their
respective courses, despite SAIT’s agreement with Microsoft, which requires that Microsoft
official courses be taught only by Microsoft certified trainers. To implement the OIG team’s
proposed recommendation, FSI has taken steps to track adjunct faculty instructor qualifications
and monitor that they only teach courses for which they have credentials.




                                       47
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Leadership and Management School

        Led by a Foreign Service dean and a Civil Service associate dean, LMS has 4 divisions
and 48 staff members, of which 44 are direct-hire employees and 4 are full-time equivalent
contractors. The school had an FY 2012 base budget of $2.4 million and a total budget of $3.6
million, which includes $473,000 in reimbursements. LMS is a small but important component
of FSI, responsible for teaching leadership skills to senior and mid-level officers. When OIG
inspected FSI in 1999, leadership training consisted of a few courses in SPAS. LMS was created
in 2000 as part of the Department’s increased emphasis on leadership. It delivers well-received
leadership training mandatory for Department employees at various stages in their careers.

        Participants praised LMS courses highly. However, the dean’s directive leadership style
was criticized by school staff. Although the dean met the FSI front office’s request to attend to
management issues left unresolved during an extended period between deans, her tenure has
taken a toll on morale. (b)(5)(b)(6)                      she has taken some steps to be more
accessible to staff members and acknowledge them and their work.

        Department Leadership Principles: In contrast to other Federal agencies, the Department
has not had a commonly agreed set of leadership principles that LMS instructors could draw on
as a standard of conduct and guide for navigating leadership challenges. In the absence of such
principles, LMS instructors base their leadership training on a variety of sources. The Bureau of
Consular Affairs developed its own consular leadership tenets many years ago; the Bureau of
Economic and Business Affairs has followed suit. Several LMS instructors took the initiative a
few years ago to draft a set of Department leadership principles that could form the basis for a
Departmentwide discussion. To partially address a recommendation in a 2012 OIG report, 23 the
Office of Management Policy, Rightsizing, and Innovation, in collaboration with the Bureau of
Human Resources, incorporated FSI’s draft leadership tenets into 10 overarching leadership
principles. These principles synthesize tenets and qualities currently promoted by the Office of
Personnel Management, the U.S. Foreign Service, the Bureau of Consular Affairs, and others.
Once the principles are fully vetted, the office plans to include them in the FAM and LMS may
use them.

        Paper Flow in the Dean’s Office: In April 2012, most LMS staff members complained to
the OIG team about the lack of timely actions from the dean’s office on paperwork, pointing to
delays, missed deadlines, and unanswered mail. To meet a proposed inspection recommendation,
LMS implemented a new system for tracking requests for clearances and approvals.

Crisis Management Training

         After the 1998 bombings of Embassies Nairobi and Dar es Salaam, the Department
expanded the crisis management training program to allow most Foreign Service employees to
participate in an exercise each tour. Posts that have experienced civil unrest, terrorism, and
natural disasters in recent years reported that the exercises were invaluable in preparing them for
real crises. According to 12 FAH-1 H-767 a., crisis management training is to be conducted
23
  Improving Leadership at Posts and Bureaus, Memorandum Report No. ISP-I-12-48, September 2012,
Recommendation 2.
                                         48
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

annually at posts with a 1-year tour of duty and 24 to 30 months elsewhere. The Crisis
Management Training division was on track in April 2012 to meet these timeframes, but some
FSI officials were trying to change the FAH to lengthen the interval between exercises to every
30 to 36 months. This change would have increased the number of employees at overseas
missions who have not trained as a team. To implement a proposed inspection recommendation,
FSI secured updated text in 12 FAH-1 H-767 to reaffirm its commitment to schedule crisis
management exercises at every overseas post in 24- to 30-month intervals, with annual exercises
at posts with 1-year tours of duty. In April 2012, the OIG team determined that exercises
conducted by DVC received generally negative feedback from posts. FSI subsequently
established a policy to conduct exercises by DVC only when there are compelling budgetary,
security, and/or logistical reasons for doing so. To strengthen coordination with posts and with
the Operations Center, FSI also agreed to establish a policy to approve at least one annual visit
by the Crisis Management Training division director, as well as the program officer in the
rotational position in the Operations Center, to overseas posts to observe exercises.

Policy Leadership Division

        The Policy Leadership division is the smallest division in LMS, with six U.S. direct-hire
employees. The inspection team noted that this division was too small to allow the skills of its
FS-01 Foreign Service director to be used effectively. In July 2012, the Under Secretary for
Management approved a waiver to the organizational structure outlined in 1 FAM 014.7 d.,
allowing the division to remain at the current level of six staff members. One instructor runs the
highly regarded National Security Executive Leadership Seminar, which exposes FS-01 and GS­
15 level employees of the Department and other agencies to national policy issues and the
interagency decisionmaking environment. The other instructors organize and lead an average of
18 high-level government-private sector roundtables a year on foreign policy themes.

Executive Development Division

        The Executive Development division trains the Department’s most senior officers. It
offers the Ambassadorial Seminar for first-time ambassadors, a new workshop for deputy
assistant secretaries, and a range of other courses. Although it trains the most senior officers in
the Foreign Service, the division had until recently only one Foreign Service employee. The OIG
team recommended a stronger Foreign Service component and supports FSI’s new pilot
conversion of the director position from Civil Service to senior Foreign Service, with a decision
to be made in 12–18 months on whether the change should be permanent.

Leadership Training Division

        The Leadership Training division trains mid-level officers, who are required to take such
training at each grade level to be eligible for promotion. LMS instructors expressed surprise by
how much leadership training course time is devoted to discussion of employee relations.
Inspection teams regularly address problems in this area during inspections. FSI offers classroom
and distance learning courses on various aspects of employee relations, but none are mandatory
for supervisors. Such training would also be beneficial for team leaders who do not have rating
responsibilities. FSI’s distance learning capabilities offer opportunities to meet this need.

                                       49
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Recommendation 60: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should make training in employee relations, including the management of
performance and conduct issues, mandatory for all Department of State supervisors and
encouraged for team leaders at intervals throughout their careers. (Action: DGHR, in
coordination with FSI)

        USAID still provides most of its nonlanguage training either at its own training facilities
or at the Federal Executive Institute in Charlottesville, Virginia. Given the high-level attention to
and success of recent Department-USAID collaboration, joint mid-level leadership training is a
natural progression in the closer training partnership called for by the QDDR. According to the
U.S. Code, 24 “other agencies shall avoid duplicating the facilities and training provided by the
Secretary of State through the institution [FSI] and otherwise.” In accordance with a proposed
inspection recommendation, senior FSI and USAID staff discussed in September 2012 courses
FSI can make available to USAID, including in leadership/management, EEO/diversity, and
crisis management. A memorandum of understanding outlining the proposed training is under
preparation.

Coaching

         LMS staff provides individualized coaching in person or over the telephone. Clients are
self-selected, sent by their home bureaus, or sent by the Director General. LMS provided
coaching to an estimated 131 clients during FY 2011, but only to 77 clients in FY 2012 because
two coaches stopped working at FSI. FSI does not widely advertise its coaching out of concern
that requests would overwhelm the capacities of its remaining seven certified coaches, whose
coaching duties are ancillary to their training duties, which increased in FY 2012. Access to
coaching is inequitable because some employees who would like or actively need this kind of
assistance do not know it is available. Anecdotal success stories based on self-reporting and
LMS surveys show the undisputed benefit of such coaching for employee performance. To begin
implementing a proposed OIG team recommendation, FSI began requiring in September 2012
that all LMS coaching clients take a coaching evaluation survey. Even though FSI is not actively
advertising coaching, FSI has a waiting list of employees interested in receiving it. Once FSI
takes steps to advertise coaching to make access more equitable, demand is likely to increase,
further straining LMS resources.

Recommendation 61: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should develop a plan to make access to coaching more equitable, seeking new
funding as necessary. (Action: FSI, in coordination with DGHR)




24
     22 U.S.C. § 4021(b).
                                        50
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Transition Center

        Led by an experienced Civil Service director, the Transition Center has 21 staff members,
of which 17 are direct-hire employees and 4 are full-time equivalent contractors. Its FY 2012
base budget was $518,000 and its total budget was $1.3 million, which includes $750,000 in
reimbursements. This small, effective center provides a spectrum of courses and workshops to
prepare foreign affairs personnel and their families for diplomatic life, service overseas, and
retirement. FSI’s Transition Center’s three divisions—the Overseas Briefing Center, the Career
Transition Center, and the Training division—also assist personnel returning from Iraq,
Afghanistan, and other high-threat assignments through the High Stress Assignment Outbrief
Program. The Transition Center markets its courses throughout the foreign affairs community
and keeps course offerings relevant by monitoring Web site and classroom feedback and
requests.

        The Overseas Briefing Center provides information on every U.S. diplomatic post and
has begun to address the needs of domestic employees by providing information on U.S. cities as
well. On average, more than 10,000 individuals use center resources annually. In April 2012,
more than 24,000 people visited its Internet site. Technological advances have drastically
changed the work of center staff as they analyze changes affecting Department personnel; work
with overseas and returning personnel to keep information current; draft briefing materials on
topics of interest, such as traveling with pets; and convene workshops. Although its research is
more complex and its training responsibilities have grown, the center’s two resource specialist
positions are still classified as clerical. Morale is high, but positions in the center have lower
grades than similar positions in other units, leading to rapid turnover. In August 2012, the
Transition Center requested that the two positions be reclassified as training instructors. By
November 2012, FSI had conducted a desk audit of one of these positions, confirming the
existing grade.

Recommendation 62: The Foreign Service Institute should conduct a desk audit of the second
resource specialist position in the Transition Center for possible reclassification. (Action: FSI)

        Access to NFATC Campus: In June 2012, there was not a standard procedure for
generating attendance lists for Transition Center courses on a timely basis. Employees and
family members register for courses by email through the Transition Center. The general services
officer supervising the FSI security program provides e-copy registration lists for Transition
Center courses to the FSI entrance guards, who only admit people with a Department badge or
who are on a registration list. On a few occasions, the lists were incomplete or provided late,
requiring the guards to contact the registrar to verify enrollment. When several classes began on
the same day, guards had long lists to check, making participants late. After the inspection team
identified this problem, FSI developed a standard operating procedure for preparing and
transmitting visitor lists and student rosters for Transition Center courses to the security guards
to expedite processing.




                                        51
                            SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


            Resource Management
                                             FSI Staffing as of December 2012
    U.S. Staff ­          Foreign            Civil          Civil             Full-time               When             Total
     Domestic             Service           Service        Service           Equivalent              Actually
                                             (GS)           (GG)            Contractors*            Employed
                             86              221           425                 587                       8            1327
    U.S. Staff ­          Foreign        Civil Service                        Full-time               When             Total
     Overseas             Service        Excursions                          Equivalent              Actually
                                                                             Contractors            Employed
                              5                   0                              0                      0                  5
*The number of actual contractors is higher.

                          Resources Controlled by FSI and Other Bureaus (in thousands)
                                  Funding Description                                               FY 2011        FY 2012
  (1)
      Diplomatic and Consular Programs Human Resources 19__1201130001                                $85,494        $75,728
  (2)
       Diplomatic and Consular Programs Overseas Programs-PD 19__1201130007                           $2,370         $2,253
  (3)
     Diplomatic and Consular Programs Worldwide-Security Upgrades                                     $5,868         $5,868
  19___X0113000H Controlled by DS
  (4)
     Diplomatic and Consular Programs Machine Readable Visa Processing Fees                            $6,300         $6,300
  19___X01130006 Controlled by CA
  (5)
     Capital Investment Fund Information Systems-19___X01200000 Controlled by                          $3,303              $0
  IRM (IT)
  (5)
     Diplomatic and Consular Programs Expedited Passport Fees 19___X01130007                           $4,484         $8,026
  Controlled by IRM (IT)
  (6)
      Iraq Operations 19__1201130001 Controlled by NEA/SCA                                            $4,354        $1,000
  (6)
     Afghanistan/Pakistan Supplemental 19__2301130001 Controlled by NEA/SCA                           $5,610        $7,759
  (7)
     Reimbursements from other agencies and entities                                                 $26,366        $9,860
  Total:                                                                                            $144,149      $115,985
  (1)
      Funds controlled by FSI. FY 2012 amount represents the annualized costs and purchase of 25 direct-hire positions for
  $4,665,000; $126,000 for nonrecurred adjustments; a $2,098,000 efficiency savings reduction; a base reduction of $5
  million; and a $1.321 million across-the-board cut. An additional adjustment for locally employed staff 3-percent step
  increase; purchase of 7 full-time equivalent positions for $595,000 and one full-time equivalent for $109,000; and a
  correction for 84 reimbursable positions valued at $5,245,000 that was inadvertently included as part of FSI’s base funds.
  (2)
      Funds controlled by FSI. FY 2012 amount represents $51,000 efficiency savings and a $35,000 across-the-board cut.
  Public diplomacy funds increased by $50,000 for social media distance learning delivery.
  (3)
        FY 2012 is flatlined at FY 2011 levels.
  (4)
    FY 2012 increase reflects training funds for 25 new Bureau of Consular Affairs employees hired above attrition,
  ongoing training (ConGen, language, etc.), and training consular limited noncareer appointees.
  (5)
      IT programs are funded based on available balances in Expedited Passport Fees or Capital Investment Funds
  (6)
      Funds are either increased or decreased according to the number of personnel taking language and/or professional area
  studies training. The FY 2012 amount from the Afghanistan/Pakistan Supplemental is the final amount that FSI retained
  after returning $809,000, reducing the budgeted amount from $7,759,000 to $6,950,000.
  (7)
      These amounts are fluid and vary annually depending on the amount of training FSI delivers to the other
  agencies/entities. Revenues earned are used to cover the costs of delivering the reimbursable training.




                                                        52
                                            SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED



  FY 2012        FSI      D&CP     DS D&CP       D&CP     D&CP      NEA         NEA           NEA       Other        Total
                Direct     PD      Worldwide     MRV      Exped      Iraq    Afghanistan     Reimb.     Agency         in
                Budget              Security     Proc.    Pass­     Suppl     Pakistan        Pass-     Reimb.     thousands
                                   Upgrades       Fees     port                 Suppl       through
                                                           Fees
 Front           $1,276                                                                                                $1,276
 Office
 FSI/EX         $26,685      $82         $115      $229    $4,324    $338                                             $31,773
 SLS            $33,543                $4,931    $1,944                                         $783     $5,541       $46,742

 SPAS            $9,166   $2,171         $118    $3,401              $662            $184      $5,983    $3,010       $24,695

 SAIT            $2,098                            $726    $3,702                                           $85        $6,611
 LMS             $2,442                  $698                                                              $473        $3,613

 Transition       $518                      $6                                                             $750        $1,274
 Center
 Total          $75,728   $2,253       $5,868    $6,300    $8,026    $1,00            $184       $6,766    $9,859     $115,984
                                                                         0
Notes: D&CP PD, Diplomatic and Consular Programs Public Diplomacy; DS, Bureau of Diplomatic Security; MRV Proc.,
machine readable visa processing; Exped, expedited; NEA, Bureau of Near Eastern Affairs; Suppl, supplemental; Reimb.,
reimbursement.

          Executive Office

                  FSI/EX, headed by an experienced Civil Service director, has 343 staff members, of
          which 128 are direct-hire employees and 215 are full-time equivalent contractors. FSI/EX had a
          base budget in FY 2012 of $26.7 million and a total budget of $31.8 million. FSI/EX oversees
          the preparation of the Department’s training plan and FSI’s resource requests; plans and allocates
          FSI’s financial, personnel, information technology, and physical resources; and is responsible for
          the institute’s emergency and security programs. There were deficiencies in information
          technology strategic planning and project management, contracting, and budgeting practices that
          resulted in inadequate tracking of major application development costs and timelines. The 10
          components of FSI/EX generally provide good support for FSI’s training program, but general
          services needed improvement, and the human resources office needed to continue efforts to
          improve communication and customer service.

                  FSI’s executive director has held the position since 1996 and successfully managed
          FSI/EX through a period of substantial growth. She is exceptionally knowledgeable about all
          aspects of FSI operations but maintains a grip on resource allocation and decisionmaking that is
          often too tight. She did not have a deputy until 2011. The OIG team counseled the executive
          director to delegate more responsibilities to the deputy director and information resources
          manager so that she can focus on strategic-level decisions.

                  In April 2012, FSI was sending frequent broadcast announcements on routine matters but
          disseminating few notices about changes in FSI policies and procedures. It was difficult to locate
          written records of accountable decisions. Employees frequently relied on rumor and hearsay
                                                  53
                                      SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


rather than on accurate information. At the inspection team’s suggestion, FSI began posting new
and revised administrative notices on its intranet site in September 2012.

        Because of the heavy workload generated by the four commercial schools that provide
contract language instructors, SLS maintains a stand-alone administrative section staffed by three
employees and five contractors. Both FSI/EX and SLS find the arrangement helpful in reducing
processing time and improving accuracy. The OIG team observed that the provision of
administrative functions in SLS seemed smoother than those in FSI’s four other schools, which
have smaller volume and less complex administrative support requirements and do not require a
discrete administrative section.

Human Resources

        The human resources office has experienced considerable turnover. Staffing levels are
sufficient when all 13 of its positions are filled, but vacancies have hurt customer service.
Periodic reviews by the Bureau of Human Resources have been generally positive but have noted
the need to improve some procedures and documentation. FSI’s customers rated human
resources services as above average in OIG surveys, but several improvements were needed.

        The FSI/EX director and deputy director split responsibility for day-to-day operations.
The office supports both FSI and other bureaus, but the human resources officer reports to the
deputy director on matters related solely to FSI and to the director on services provided to other
bureaus. This arrangement has resulted in occasional miscommunication and conflicting
guidance. The director prefers to retain day-to-day responsibility for shared services because she
participates in the Human Resources Shared Services Initiative, a Departmentwide committee at
the bureau executive director level. This is not a sufficient reason for the director to retain this
function, as the deputy director could brief her for these meetings.

Recommendation 63: The Foreign Service Institute should assign responsibility for all aspects
of the human resources operations to the Executive Office deputy director. (Action: FSI)

        Customer Service: As of June 2012, FSI/EX policies and standard operating procedures,
including those for awards, performance plans and appraisals, sick leave, annual leave, and
standards of conduct, had not been updated since 1999. Others needed clarification, were
duplicative, or difficult to find on FSI’s intranet site. The human resources section of the intranet
site did not have information about orientation, retirement, or benefits. In response to a proposed
inspection recommendation, FSI updated all of its human resources policies and procedures and
launched a new Web site in September 2012 to disseminate them.

         Some FSI clients complained about poor customer service, most often citing the
unresponsiveness of the human resources office to emails and, in a few cases, staff errors. Many
FSI employees, including language instructors with limited English, were uncertain whom to
contact for information. Office staff members contend that many questions directed to them
actually should be directed to the Human Resources Service Center and that attending to such
matters distracts staff from core duties. At the suggestion of the inspection team, FSI posted a
link to the Human Resources Service Center on its intranet site as well as a list of the issues the
center handles and those the institute handles.
                                                  54
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

         Recruitment and Staffing: Many SLS instructional staff members pointed to a lack of
transparency in the process by which contract instructors are selected for direct-hire status,
assigned desirable curriculum development work, or promoted into GG-12 training specialist
positions. Some SLS employees complained of favoritism in hiring and assignments. These
perceptions arose in part because SLS gained 75 much-needed and keenly competed direct-hire
positions in FYs 2010 and 2011. In years past, seniority at FSI was reportedly a more important
criteria used to select direct-hire SLS instructional staff. Although FSI used appropriate hiring
procedures to fill these positions, its failure to explain clearly the recruitment criteria and process
generated significant misunderstanding. Good communication is a key component of leadership
and supervision.

Recommendation 64: The Foreign Service Institute should publicize its criteria for selecting
and its process for hiring direct-hire instructional staff in the School of Language Studies.
(Action: FSI)

         Some managers expressed concern about FSI’s lengthy hiring process. For the first
quarter of FY 2012, FSI averaged 128 days to hire an employee (excluding the security
clearance), compared to the Department’s average of 116 days. FSI reported in November 2012
that it had substantially reduced the number of days to hire an employee.

        Excepted Civil Service Employees: The Foreign Service Act of 1980 25 grants FSI the
authority to hire language instructors, linguists, and other academic training specialists as
excepted Civil Service employees, referred to as GG employees in accordance with their pay
scale. Roughly 57 percent of FSI’s employees work under this authority, which gives FSI an
efficient way to hire qualified individuals who are non-U.S. citizens. FSI limits the terms of
employment to 2 or 5 years so that FSI can adjust staffing levels easily as demand for instructors
fluctuates. A number of supervisors reported that the term limits made them feel vulnerable and
inhibited them from raising necessary concerns with their supervisors and actively addressing
performance problems on their staffs. Many GG employees in multiple schools also cited a fear
of nonrenewal as a major concern. Employees with a decade-long history of strong performance
were on 2-year term appointments, instead of 5-year term appointments, which FSI reportedly
used more frequently in the past. A few employees reported they were informed their
employment would be continued just days before it was due to expire. Overall, only 13 percent
of FSI’s GG employees were on 5-year appointments in December 2012. There were significant
disparities in the proportion of 5-year appointments among FSI’s schools and divisions. The
policy FSI updated and reissued on excepted Civil Service during the inspection did not specify
FSI’s position on the term for renewed appointments, its policies in the event of a reduction in
force, or the different benefits of excepted Civil Service employees and competitive Civil
Service employees.

Recommendation 65: The Foreign Service Institute should establish a policy to remove term
limits from Excepted Civil Service supervisors and to renew for the maximum 5-year term limit
Excepted Civil Service employees who have demonstrated strong performance for at least 6
years. (Action: FSI)


25
     Pub. L. No. 96-465, as amended.
                                             55
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 66: The Foreign Service Institute should survey Excepted Civil Service
employees to determine their most frequently asked questions and put answers on its intranet site
and in its orientation materials. (Action: FSI)

        Position Descriptions and Grades: In 2009, FSI revised and reclassified position
descriptions for all of its GG-15 associate deans and GG-14 SLS division directors. All but one
of the associate dean positions were upgraded to Senior Executive Service and almost all
division director positions were upgraded to GG-15. Most division directors, but not all, are in
ladder positions, permitting promotion from GG-14 to GG-15 when requirements are met. The
span of control and range of responsibilities for all SLS division director positions merit this
grade structure, even after the reorganization proposed in this report. SLS GG-13 language
training supervisors on average were supervising or serving as government technical monitors
for 17 staff members and numerous students in November 2012, a broader span of supervision
than GG-13 employees were exercising outside SLS. FSI management said position descriptions
for GG-13 language training supervisors were reviewed, but not reclassified, because their duties
have not changed since the descriptions were rewritten 5 years ago. Several language training
supervisors told inspectors that their position descriptions do not reflect the extent of their
responsibilities. Once FSI implements the recommendations in this report, their responsibilities
and span of control will increase even further.

Recommendation 67: The Foreign Service Institute should review, revise, and reclassify as
appropriate Civil Service division director positions in the School of Language Studies that do
not have GG-14/GG-15 ladders as well as all language training supervisors. (Action: FSI)

        There are several division directors who are the supervisors of record of significant
numbers of direct-hire employees, even though their divisions have a GG-13 or GG-14 deputy
director or GG-13 and GG-12 team leaders with day-to-day supervisory responsibility who have
not been designated the supervisor of record. This arrangement undermines operational
efficiency. Guidelines in 1 FAM 014.5 d. describe the importance of establishing an appropriate
ratio between supervisors and the number of personnel they supervise. In addition, it is common
management practice to develop staff by letting them perform managerial and supervisory tasks
as early in their careers as possible.

       Informal Recommendation 18: The Foreign Service Institute should, to the maximum
       extent practicable, reclassify position descriptions to assign supervisory responsibilities to
       deputy division directors and team leaders.

        Telework and Alternate Work Schedules: The Department encourages telework and
alternate work schedules to increase morale and productivity. In December 2012, 83 percent of
positions Departmentwide were eligible for telework; 31 percent of those in domestic telework­
eligible positions were teleworking. In April 2012, less than 3 percent of FSI employees were
authorized telework. FSI reissued its telework policy in June 2012 to implement a proposed
inspection recommendation. By December 2012, 4.1 percent of FSI employees were
teleworking. Three additional SLS employees were routinely teleworking, but their telework
agreements had expired. Records of which teleworkers had taken the mandatory online training
were incomplete. At the suggestion of the inspection team, FSI started improving the accuracy of
its records in November 2012. In accordance with FSI policy, deans approve situational telework
                                                56
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


requests from instructional staff only when the staff member presents a set of deliverables and a
business justification. The classroom responsibilities of many instructors do not require them to
be at FSI on a daily basis, and much noninstructional activity can occur off site. The Bureau of
Human Resources confirmed to the team that situational telework is appropriate for instructional
staff to develop curricula or perform other administrative work off site. Bringing telework
participation in line with Department averages would also help relieve overcrowding in the
cafeteria and parking lots.

        As of December 2012, 466 FSI employees had approved alternate work schedules; 431
employees were authorized flexible work schedules, with 8-hour days that include core hours
and flexible start and end times. Only 35 employees were authorized to work a compressed work
schedule, which allows employees to complete the basic 80-hour biweekly work requirement in
less than 10 workdays. The Bureau of Human Resources offered to conduct informational
sessions with FSI supervisors to facilitate implementation of this recommendation.

Recommendation 68: The Foreign Service Institute, in coordination with the Bureau of Human
Resources, should increase the percentage of employees with situational telework and
compressed work schedules so that they correspond much more closely to levels observed across
the Department of State. (Action: FSI, in coordination with DGHR)

Human Resources Shared Services

        FSI provides adequate human resources support to five other bureaus 26 under the
Department’s shared services program. Human resources specialists in these bureaus are detailed
on paper to FSI, which monitors their work and ensures they receive required training. The
executive offices of the bureaus retain management control over these employees. FSI has
service-level agreements with each bureau detailing the division of responsibilities. In April
2012, serviced bureaus lacked access to FSI’s standard operating procedures and not all were
receiving monthly status reports on actions FSI was processing. In accordance with a proposed
inspection recommendation, in September 2012 FSI provided the bureaus with links to its new
SharePoint site featuring standard operating procedures and activity tracking spreadsheets.

        An FSI supervisory human resources specialist is embedded within the joint Executive
Office for the Bureaus of Near Eastern Affairs and South and Central Asian Affairs. The
embedded specialist manages human resources operations for which FSI is responsible, apart
from actions for excepted Civil Service employees hired on a temporary basis for Iraq,
Afghanistan, and Pakistan, which are handled by specialists located at FSI. A January 2012
Department audit of FY 2011 Civil Service hiring actions of the two bureaus showed a number
of problems with quality and validity. FSI has worked with its embedded specialist on these
issues. The bureaus’ joint executive office and FSI have discussed assigning the human resources
specialists to work at FSI for short periods. At the inspection team’s suggestion, FSI/EX
instituted more frequent meetings in June 2012 to increase interaction among FSI and human
resources specialists in the serviced bureaus.


26
  The Office of Medical Services and the Bureaus of Near Eastern Affairs; South and Central Asian Affairs; Public
Affairs; and Population, Refugees, and Migration.
                                           57
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Office of the Registrar

       As FSI has grown, so has the Office of the Registrar. FSI offers more than 3,000
classroom and online courses. The Department also funded 5,457 enrollments in non-FSI courses
in FY 2012. Total enrollment for classroom and distance learning courses has more than
quadrupled over 10 years, from 30,276 in FY 2001 to 128,081 in FY 2012. 27 Mirroring this
growth, registrar staff has doubled during the same period. Registration is labor intensive and
sometimes takes place under time pressure. FSI is in the process of modernizing the 10-year-old
Student Training Management System, which lacks the flexibility FSI needs to process
enrollments and create reports efficiently. The upgrade will facilitate the registrar’s ability to
monitor demand, inform leadership decisions, provide statistics required by the Office of
Personnel Management, and justify funding for expenditures and improvements.

        The Foreign Service Act of 1980 requires that all external training for Department
employees, no matter the funding source, first receive FSI approval. 28 The LearnCenter supports
FSI’s distance learning courses; it is secure, Internet-based, and accessible at all times from
anywhere in the world. The LearnCenter hosts 270 FSI-developed online courses that generally
require approval for registration. The LearnCenter also hosts a commercial library of
approximately 2,800 FasTrac courses for which students require no approval to register. In FY
2012, there were 21,328 FasTrac course completions.

                        FASTRAC Course Enrollments for FYs 2012 and 2001
     Fiscal   FSI Classroom             FSI Distance                Enrollments at non-FSI    Total
     Year      Enrollments          Learning Enrollments                   Training        Enrollments
     2012        59,359*                     68,722**                           5,457                    133,538
     2001        30,276***                                                      4,780                     35,056
Source: FSI

*8,589 or 14.5 percent of whom were non-Department students.

 **2,873 or 4.1 percent of whom were non-Department students.

***Classroom and distance learning enrollments were not reported separately in 2001.


        In general, FSI does not make FSI-developed course content available without
registration. Some non-FSI supervisors and employees considered the requirement to approve or
get approval for mandated courses a nuisance and chafed at delays. To implement a proposed
inspection recommendation, FSI extended its streamlined registration for the mandatory online
No FEAR Act course to the three other mandatory online courses: Cyber Security Awareness,
Personally Identifiable Information, and State Messaging and Archive Retrieval Toolset
(SMART). FSI plans to streamline registration for future Departmentwide mandatory courses.
27
   These statistics do not include courses for which the Office of the Registrar does not process enrollments. The PS­
800 Cyber Security Awareness for OpenNet+ Users course, offered by SAIT, with 104,769 users in FY 2012, is one
such uncounted course. Also not included in these figures are the 27,617 course completions from other agencies in
courses FSI offered in FSI’s capacity as one of five Federal e-training service providers, Diplomatic Security
Training Center courses, or use of commercial training aids.
28
   Chapter 7 of the Foreign Service Act of 1980, as amended (22 U.S.C. § 4021, et seq.); Chapter 41 of the Civil
Service Reform Act of 1978, as amended (5 U.S.C. § 4101, et seq.); Exec. Order No. 11,348; 13 FAM 011 b.; and
13 FAM 012 a.
                                            58
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


        Although 91 percent of the total enrollments in FY 2012 were Department students, 9
percent were students from 47 other agencies and entities. The FSI business model is cost
recovery from other agencies, in compliance with the Economy Act of 1932, as amended. 29 FSI
created a marketing committee in February 2012 to increase awareness of FSI courses in other
agencies and actively recruits other agency participants for some courses. However, the OIG
team was told that in FY 2012, employees from the U.S. Department of Agriculture and USAID
had trouble registering for classes despite the availability of space. It is possible that those
classes were filled while the registrar’s office was working to obtain missing information to
include in the manual application process that non-Department agencies use. USAID views what
it perceives as unreliable access to training as a barrier to a closer training partnership with the
Department. To implement a proposed inspection recommendation, FSI updated its policy in
September 2012 to clarify the priority students from other agencies have to enroll in FSI courses.

        Only Department employees using OpenNet can see a full interactive FSI catalog to
register for training. The Office of Personnel Management requires Federal agencies to use form
SF-182 (Request, Authorization, Agreement, and Certification of Training). Department
employees use the online SF-182 to register for FSI courses; applicants from other agencies
email or fax paper forms to the registrar, which manually transfers the information to the
registration system. This inefficient process has generated problems over the past year. Military
members on travel orders arrived at FSI unaware that their paper registration request was
incomplete and not fully processed, and they were registered only after extraordinary efforts by
registrar staff. One USAID employee received enrollment confirmation too late to make travel
arrangements, delaying training for another year. It is possible for the Bureau of Information
Resource Management to give USAID employees in Washington and in the field access to
OpenNet so that they can submit training applications electronically. USAID is concerned about
ensuring fiscal accountability if employees register for courses online and so is not interested in
pursuing that approach now. Some other agencies also have access to OpenNet, but their
obstacles to implementing online registration are even greater than USAID’s hurdles.

Recommendation 69: The Foreign Service Institute should explore the feasibility of
implementing a system that enables staff of other agencies to register for courses via OpenNet
while enabling the sending agency to track obligations and payments. (Action: FSI)

Office of Acquisitions

        The Office of Acquisitions improved its operational effectiveness since December 2011;
several customers praised its increased responsiveness. Contracting specialists received
mandatory training on an accelerated schedule to meet new Office of Management and Budget
certification requirements. The director of the office has unlimited contracting authority.
Warrants ceilings of contracting specialists are increased upon certification, allowing more
employees to oversee the procurement of high-dollar contracts. In FY 2012, FSI obligated
$61,381,701 through contracts.



29
     31 U.S.C. § 1535.
                                       59
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Throughout FSI, 135 contracting officer’s representatives, their assistants, and
government technical monitors perform contract administration duties. Although each has taken
the required training, Office of Acquisitions staff reported that many were unfamiliar with
contract oversight responsibilities and procurement regulations. Office staff cited examples of
contracting officer’s representatives who assigned their oversight function to other employees or
allowed their certifications to expire despite reminders from acquisition staff. The office often
returns statements of work for rewriting and rejects the majority of requests for sole source
procurements due to insufficient justification. The acquisitions director and budget director held
a joint meeting in May 2012 with all contracting officer’s representatives, explaining how to
avoid unauthorized commitments, and briefing employees on prohibited communications with
contractors. Followup training for SLS was held in January 2013.

       Informal Recommendation 19: The Foreign Service Institute should require that
       acquisitions management be added as an element in the performance plans for all
       employees assigned acquisitions management functions and require supervisors of the
       contracting officer’s representatives, alternate contracting officer’s representatives, and
       government technical monitors to take a contracting officer’s representative course.

        In its October 2012 Procurement Operations Review report, the Office of the
Procurement Executive recommended that FSI review contracting officer’s representatives’ span
of control for administering contracts; prescribe clear, practical guidance to contracting officer’s
representatives; seek outside help for more complex issues; avoid waiting to put customer
requests in by the requirement due date; and share standard operating procedures. To address a
proposed OIG inspection recommendation, FSI provided a written response to the Office of the
Procurement Executive on February 1, 2013, detailing how the institute implemented the office’s
recommendations.

         Information Technology Contract Management: In June 2012, the Corporate Systems
division was using time and materials task orders awarded against five blanket purchase
agreements to support its Student Training Management System and the LearnCenter
modernization projects. FSI’s blanket purchase agreements were for the delivery of services, not
for timely and on-budget project completion. Time and materials contracts reduce the incentive
for timely performance and cost management, shifting risks to the government. Additionally, the
use of blanket purchase agreement task orders limits contractors’ accountability if projects fail to
meet budget and timeline requirements. The Office of Federal Procurement Policy’s October
2009 memorandum, Increasing Competition and Structuring Contracts for Best Results,
encourages agencies to use incentives to motivate lower costs. A fixed-price contract that shifts
risk to the contractor for producing the agreed-upon deliverables facilitates timely completion.
Although FSI reported that the two projects are not sufficiently mature to permit a fixed-price
contract, the Department’s Information Technology Strategic Planning Office determined that
the current time and materials contract was inappropriate for a large development effort.

        At the request of the inspection team, the Office of the Procurement Executive included
the Student Training Management System modernization contract in its summer 2012
Procurement Operations Review. In October 2012, the Office of the Procurement Executive
recommended that FSI replace blanket purchase agreements with binding indefinite-delivery
indefinite-quantity type contracts, write a separate statement of work for operation and
                                                 60
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


maintenance, justify and document usage of time and material contracts, research the use of
fixed-price contracts for operations and maintenance contracts, and consult with the Office of the
Procurement Executive on more complex procurements. FSI heeded the Office of the
Procurement Executive’s informal feedback and did not renew the option year for the contract.
As of November 2012, FSI was developing a new statement of work to solicit new contracts to
be awarded in March 2013 to replace the current major Student Training Management System
contracts.

        Management of Shared Contractor Resources: In June 2012, the Corporate Systems
division had a pool of contract personnel for its software development team to draw from as
needs were identified. The five contract companies did not bill according to project or activity
but submitted invoices with hours billed by the position description. Corporate Systems
managers submitted these billable hours to the contracting officer’s representative, who did not
mitigate this weakness by tracking contractor activities. As a result, it was impossible for FSI to
attribute hours to specific projects, which is contrary to the project management policies
described in 5 FAM 681 a. on tracking the cost to complete each project. To implement a
proposed inspection recommendation, in September 2012 the Corporate Systems division and the
Office of Budget and Management implemented a process to track hours by project.

Office of Budget and Management

        The Office of Budget and Management provides good service and support to FSI and its
external customers in managing FSI’s budget. The staff of 16 is generally well trained,
knowledgeable in Department regulations and procedures, and customer-service oriented.
Current staffing is usually sufficient to handle the office’s workload. Some FSI employees
complained about the lack of transparency in the derivation of budget numbers as well as the
distribution and disbursement of funds. The office holds quarterly meetings with the schools to
discuss FSI’s complex budget but needs to improve communication. After the team counseled
the office director to explain the budget process and budget information to the schools more
clearly, FSI considered options to do so.

        In line with the Department’s mandate, FSI has increased its focus on unliquidated
obligation reviews, working with the schools to reduce prior year balances. In FY 2011, SAIT
hired a contractor to review and reconcile a significant backlog in unliquidated obligations, with
positive results. SAIT was current in June 2012 and had implemented new policies to review
unliquidated obligations regularly. Although SPAS does not have a backlog, its Consular
Training division has a high volume of travel transactions that create a large number of
unliquidated obligations. The budget office was requiring SPAS financial staff to review these
transactions monthly. As of November 2012, SPAS management and FSI/EX were working
together to streamline the process and reduce the number of unliquidated obligations.

        FSI has reimbursable agreements with more than 47 other U.S. Government agencies and
entities, totaling about $19 million in FY 2011. FSI uses Government Accountability Office
principles to determine the costs for its reimbursable agreements. FSI reviews pricing every 2
years to determine whether tuition rates are realistic and reasonable. In a review of the
reimbursement process in May 2012, the OIG team did not find any issues with the timeliness of
the reimbursements or with FSI’s use of the funds. FSI/EX has also worked diligently to reduce
                                                 61
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


the need to make Prompt Payment Act 30 interest payments and continues to improve its
procedures.

        FSI/EX’s Office of Budget and Management sets tuition rates for FSI courses by
collecting data on the operational cost of each course and using financial algorithms developed
internally to calculate recovery costs. FSI reviews tuition rates every 2 years. The Economy Act
of 1932 does not require ordering agencies to conduct an audit or certification in advance of
payment. This inspection did not include an audit of how FSI sets tuition rates, which was last
reviewed during the 1999 OIG inspection. There is interest in the Department and other agencies
as to how FSI sets its tuition rates. In accordance with a proposed OIG recommendation, FSI
began working with the Bureau of the Comptroller and Global Financial Services to solicit bids
for periodic outside audits.

Recommendation 70: The Foreign Service Institute should obtain regular outside audits of its
procedures to set tuition rates. (Action: FSI)

       Following the summer 2012 Procurement Operations Review, the Office of the
Procurement Executive made a number of recommendations pertaining to the Student Training
Management System modernization and other information technology contracts. Specifically, the
Office of the Procurement Executive instructed FSI not to add funds to existing contracts/blanket
purchase agreements, not to use multiyear funding unless fully documented and approved, and to
fund operations and maintenance annually.

Recommendation 71: The Foreign Service Institute should hire an independent auditor to
review the appropriateness of the institute’s use of multiyear funding for the Student Training
Management System modernization and similar information technology contracts. (Action: FSI)

General Services Office

         The general services office, with 12 direct-hire and 12 contract employees, performs a
range of functions in support of FSI operations. Although the office’s average score on OIG’s
workplace and quality of life questionnaires was acceptable, numerous FSI employees
complained about its services and support in inspection questionnaires and followup interviews.
Most of the complaints centered on slow response times, uneven or poor customer service,
failure to respond to emails or phone calls, and unexplained decisions.

        Service requests are made through an automated work order system. The general services
officer reviews all work orders and assigns them to staff for action. This process creates a
bottleneck as work orders accumulate at his desk. Although some general services employees
have backup access to the automated system, it is unclear when these employees are authorized
to make decisions in the absence of the general services officer. After the inspection team raised
this issue, the executive director asked the Corporate Systems division to develop a system to
allow FSI/EX managers to view the status of work orders.



30
     Pub. L. No. 97-177, as amended.
                                             62
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The structure of the office impedes efficient operations. Each employee reports directly
to the general services officer, the only supervisory position. This centralized decisionmaking
places a burden on the general services officer. In addition, the office environment is not
conducive to good morale or teamwork. Employees maintain professional relations, although
interpersonal difficulties cause strain. After the inspection team raised these issues, the FSI/EX
director contacted a facilitator from LMS to work with staff. As of November 2012, FSI was
reviewing workflow processes to determine whether a deputy general services officer position is
warranted to speed responses and decisionmaking.

Recommendation 72: The Foreign Service Institute should establish a position for a deputy
general services officer to increase office efficiency. (Action: FSI)

Facilities Management

       The on-site facilities manager plus two direct-hire staff members are employees of the
Bureau of Administration, Office of Facilities Management Services. They coordinate well with
the FSI general services office and the security director. The facilities management staff oversees
contractor crews of custodial, maintenance and repair, and utilities workers. The General
Services Administration provides groundskeeping and landscaping services for the 72-acre
campus. Custodial work is inspected daily by contactor supervisors and by facilities maintenance
staff members.

        Lactation Rooms: At the suggestion of the inspection team, FSI issued an administrative
notice on July 10, 2012, revising its policy on accommodating lactating employees and students.
FSI provides one lactation room for its staff and students, meeting the Department’s minimum
requirement. Given the size of the campus and number of buildings, the OIG team discussed
with FSI management whether a second lactation site is needed.

        Parking: Inadequate space for parking generates frequent, vociferous complaints. FSI
has only 1,611 parking spaces but has approximately 1,400 staff members and up to 2,000
students and lecturers on campus daily. To alleviate its parking shortage, FSI tightened parking
pass eligibility, created 100 new spaces, and piloted a shuttle bus service to the Ballston metro
station from May to October 2012. The pilot was discontinued due to insufficient ridership and
high per-rider cost. The inspection team suggested that FSI explore the feasibility of using some
of the shuttles provided by a neighboring facility.

Information Resource Management Office

        FSI’s Information Resource Management office received high marks on OIG surveys for
providing computing, audio visual, instructional design, and library support to FSI employees
and students. Staffing in June 2012 consisted of 40 direct hires and 162 full-time contractors.
The office has taken significant strides to meet growing computing demands, challenges from
emerging technologies, and regulatory changes. It is improving network performance, enhancing
information security, increasing distance learning capabilities, and modernizing training
management systems. However, as of June 2012, the office manager had not successfully
integrated operational procedures. There were deficiencies in strategic planning, information

                                       63
                           SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


technology management policy and processes, distance learning delivery technologies, network
infrastructure management, and information technology security.

        The office comprises four divisions. The Office of Management Information Services
(OMIS) provides network infrastructure, computing equipment, and technical staff to support
FSI’s roughly 2,400 network users. OMIS employees respond to customers and administer one
of the Department’s largest sensitive but unclassified OpenNet operations, with roughly 1,600
workstations and 88 servers. FSI also operates an unclassified, stand-alone network with roughly
400 workstations. The Instructional Support division (ISD) provides a range of instructional
design and development support for online courses, multimedia language laboratories, and
library support. It has developed more than 270 online tradecraft and language courses. The
Corporate Systems division develops FSI’s training support systems and applications. The
division maintains two major training support systems: the Student Training Management
System, used for managing student records, and the LearnCenter, which hosts online courses and
materials developed by FSI and other Department customers. The Audio Visual Facility supports
classroom technology and trains FSI instructors in the use of those technologies, such as
SMART Boards, which are interactive whiteboards for the classroom. The division also makes
26 foreign television broadcasts available to SLS and supports media productions, such as video
clips. Audio Visual Facility also manages large-volume printing orders through the Bureau of
Administration’s Global Publishing Solutions office, which has a full-time employee at FSI.

        Information Technology Strategic Planning: The most recent FSI Information Resource
Management office strategic plan is poorly linked to FSI’s second-highest strategic goal of
increasing access to distance learning. Its objectives and performance indicators are neither clear
nor consistent. Accomplishments are not consolidated and do not highlight how the four
divisions should work together to achieve them.

            Informal Recommendation 20: The Foreign Service Institute should update the
            Information Resource Management office strategic plan to link its goals to those of the
            institute and provide clear joint objectives and performance indicators.

        Instructional Support Division Workforce: In June 2012, ISD lacked sufficient direct-
hire positions to oversee contract employees who were designing, coding, and testing FSI’s
distance learning courses. Contractors performed inherently governmental functions, contrary to
the Federal Acquisition Regulation. 31 Two contractors worked as project managers/project leads
and 11 contractors performed quality assurance certifications on their firm’s products. Because
ISD did not have the government personnel to conduct the evaluation process, contractor
personnel voted on the technical merits of commercial off-the-shelf products for replacing the
contractor-developed software. ISD did not independently review the contracting firm’s
products. Contractors also conducted analyses and market research, recommended source
selection by technical evaluation, and developed inputs for government cost estimates for
distance learning courses. These functions are considered to be “closely associated with
inherently governmental” work in the Office of the Procurement Executive’s Procurement
Information Bulletin (PIB) 2012-11, which states, “closely associated functions may be provided


31
     Specifically, subparts 7.503(a) and 7.503(c)(12)(i) – (ii).
                                                64
                                    SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


by contract, but may require enhanced oversight or conflict of interest mitigation planning.” 32
FSI implemented a plan, effective July 2012, to increase oversight to ensure there is no conflict
of interest and to prevent contractors from performing inherently governmental functions. ISD
also hired two government project managers and reported that contract staff no longer uses the
title of “project manager.”

        ISD develops and maintains online courseware development tools by using contractors
instead of acquiring commercial, off-the-shelf tools. This approach requires FSI to update the
tools as technology changes, such as in January 2010 when FSI upgraded one of these tools to
generate multibrowser compatible courses. Using commercial off-the-shelf tools for all
appropriate courses would shift the responsibility for updates to the vendor, reducing FSI’s use
of contractors. In January 2010, ISD set criteria for contractors to review the technical merits of
moving to commercial, off-the-shelf software; the contractor concluded that no product fully
supports FSI’s business needs. The evaluation was inadequate, however, because it did not show
the contractor’s evaluation methods and lacked participation by direct-hire employees.

Recommendation 73: The Foreign Service Institute should implement a policy for conducting
periodic cost-benefit analyses to determine which courses require Instructional Support division
online courseware rather than commercial, off-the-shelf courseware development tools. (Action:
FSI)

         Stephen Low Library: FSI management sees the role of its Stephen Low Library as
supporting training, not research requests, and is considering various options for the library,
including turning it into a smaller resource center that would free up space for higher priority,
nonlibrary uses. The library does not currently play an integral role in FSI training. Few
instructors incorporate the library into their courses. Instead, students use it as time and interest
permit. The library still has a significant number of books; it is increasing digital media holdings
in line with FSI’s vision to transition from paper to digital resources. The library contracts out its
cataloging but does most of its own procurement. The Low library collaborates informally but
well with the Department’s full-service Ralph J. Bunche Library but duplicates some of its
functions and procurements. For example, in May 2012, FSI was spending $94,816 annually on
databases and subscriptions to which the Bunche library already subscribes, missing a savings of
at least $50,000. In accordance with a proposed inspection recommendation, FSI issued a policy
in August 2012 to save money by using Bunche library Lexis-Nexis and ProQuest services.

        Given its specialized function, the Low library does not fit well in ISD, an information
technology office. Merging the Low library into the Bunche library would give the Low library
the professional supervision it needs to support training effectively through better resources and
more competent staff at a lower cost. A merger would permit books and displays to be rotated
from the Bunche library’s collection to the Low library. Bunche library staff could take over
procurement, cataloging, and preparing ambassadorial briefing books if it is determined these
functions should be continued, thus resulting in reduced duplication, cost, and staff resources.
FSI could ensure that its equities are met by concluding a memorandum of agreement that
provides for regular meetings to address issues of concern.

32
  Procurement Information Bulletin (PIB) 2011-11, Planning for Contract Administration, provides information on
the types of functions typically requiring additional monitoring and suggested strategies.
                                           65
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Recommendation 74: The Foreign Service Institute, in coordination with the Bureau of
Administration, should make the Foreign Service Institute’s Stephen Low Library a branch of the
Ralph J. Bunche Library, working with the Bunche library to establish the optimum function,
size, and holdings of the institute’s library. (FSI, in coordination with A)

         Information Technology Project Management: In June 2012, the FSI Information
Resource Management office’s four divisions did not have standardized and integrated
methodologies to manage information technology projects efficiently. The divisions did not
routinely share project plans or coordinate work, even though ISD’s course development projects
depend on the Corporate Systems division and OMIS for integration and testing. Inspectors were
told of confusion over unclear testing and implementation timelines due to lack of shared project
management methodologies. Projects ranging in cost from $500,000 to $23 million were
documented through a variety of means, including Microsoft Word, Microsoft Excel, Microsoft
Project, and handwritten notes. There was no consistent method for ensuring accountability
through use of control gates, decision points, and deliverables. In some instances, FSI’s
Information Resource Management office staff was not able to provide comprehensive project
management documents for tracking efforts or resources. As outlined in 5 FAM 611,
organizationwide information technology project management models facilitate efficient and
effective management of investments and enhance risk management while controlling costs.
Further, properly documented project management steps create consistent, repeatable, and
transparent steps for an entity to complete projects that meet business needs within established
timelines and budget.

        The Corporate Systems division is undertaking two large-scale, multiyear projects to
modernize the Student Training Management System and the LearnCenter, applications vital to
FSI’s ability to fulfill its mission. However, in June 2012, the division was not using a clearly
defined project plan to show the development of life cycle phases for the Student Training
Management System modernization. In April 2010, FSI estimated the modernization project
would cost between $30 million and $35 million over 4 years. In June 2010, FSI’s executive
director approved a decision memorandum specifying a project cost of $13.7 million over 4
years. The actual funding obligated—which should be noted within a project plan—was made
available to the inspection team only in late June 2012 in copies of task orders, which are
difficult to work with. In 2011, the executive director orally approved expanding the scope of the
project, increasing its budget by $9.82 million, and pushing its completion date out by 8 months.
Cost and schedule changes of this magnitude indicate that FSI is not allocating resources
efficiently through well-informed decisionmaking as required by 5 FAM 660 and the Office of
Management and Budget. 33 As of June 2012, FSI had spent $2.4 million, even though no fully
documented project plan was in place as required by 5 FAM 615. FSI’s failure to adhere to
standard project management requirements, including documented management approvals, a
project plan, and comprehensive project documentation, decreased overall accountability. As one
of FSI’s stated top management priorities, the Student Training Management System
modernization project requires a proper project management methodology to ensure that it is
completed on schedule and within budget. Documentation for the second modernization project,


33
  Office of Management and Budget Circular A-94, revised, Guidelines and Discount Rates for Benefit-Cost
Analysis of Federal Programs.
                                           66
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


the LearnCenter, follows generally accepted project management methodology but is not
completed consistently.

        In addition to these two large-scale modernization projects, FSI’s Information Resource
Management office started a project in December 2011 to explore mobile training delivery with
an approved budget of $588,000; an estimated $221,000 was spent as of May 2012. In March
2012, the executive director instructed ISD to continue the project. However, as of mid-June, FSI
had not specified either the wireless development environment or distance learning courses
suitable for mobile delivery. The project’s lack of timeline and clear goals resulted in ineffective
use of contractors’ time. According to 5 FAM 617.2 a., projects should have the necessary
resources and a defined timeline for funding to be used effectively and meet business objectives.
As of November 2012, FSI’s Information Resource Management office division directors were
reviewing a draft methodology for documenting FSI’s systems development life cycle process.

Recommendation 75: The Foreign Service Institute should institute standardized and
centralized information technology project management methodologies in its Information
Resource Management office. (Action: FSI)

         Software Change Request Process: In June 2012, the Corporate Systems division lacked
a standardized and documented software change request system to track change requests as well
as a system to monitor and close out these requests. Change requests for the Student Training
Management System were so poorly documented that during the inspection FSI was conducting
a costly, in-depth review of how the system works so that the system could be modernized. The
division established a Change Control Board portal for Student Training Management System
change requests in April 2012 but did not provide the inspection team with the requested samples
of how the division tracked change requests submitted on the portal from submission to closeout.
The division used SharePoint to manage change requests for the LearnCenter system but
accepted ad hoc requests, which were often not tracked. Inconsistent tracking of change requests
results in undocumented system changes that can compromise system integrity. To ensure
systems integrity, 5 FAM 655 requires that changes to systems be controlled and documented. In
November 2012, FSI reported that it was exploring online processes to institute a standardized
software change request process.

Recommendation 76: The Foreign Service Institute should institute a standardized software
change request process for the Information Resource Management office. (Action: FSI)

         Distance Learning: FSI has transformed its training over the past decade, supplementing
classroom courses with more than 3,000 FSI-developed and commercially obtained online
classes. In FY 2012, more than 70,000 U.S. Government employees and contractors enrolled in
FSI-developed distance learning courses. Mobile wireless devices are beginning to supplant
desktop computers for accessing distance learning. FSI management describes its mobile
learning initiative—what the industry calls m-Learning—as a lower priority than its two large-
scale information technology modernization projects. The OIG team agreed but advised FSI to
clarify its path forward on implementing m-Learning. Although Department security



                                       67
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

requirements impose limitations on m-Learning functionalities, the Department has urged
bureaus to explore innovative technical solutions while maintaining national security. 34

        In April 2012, more than 40 percent of FSI’s distance learning course development
projects could not be completed by their planned delivery dates because the Department-
provided subject matter experts, who provide the content for the courses, could not devote
sufficient time to develop an engaging narrative. Some subject matter experts were late in
providing content, whereas others provided content at too elevated a level for the intended
audience or merely recapped regulatory citations. In response to a proposed inspection
recommendation, FSI developed new text in October 2012 for its standard memoranda of
understanding with requesting bureaus, specifying the anticipated time commitment from the
bureau-supplied subject matter experts and requiring the bureau to pay for cost overruns related
to the bureau’s experts and additional requests.

        Connection Technologies: Connection technologies make it possible for FSI to train
employees and bring in speakers who otherwise could not travel to a regional center or FSI, due
to a lack of time or funding. FSI uses two principal connection technologies for distance learning
—DVC and Internet Web conferences—in addition to the more traditional telephone and email.
In April 2012, FSI schools were not fully using the technologies due to lack of training. An
illogical split, with the Audio Visual Facility supporting DVCs and the Corporate Systems
division supporting Web conferencing, made it harder for instructors to choose appropriate
technologies. At the suggestion of the inspection team, FSI designated the Audio Visual Facility
as the repository of connection technologies in August 2012.

        Department-approved DVC equipment ranges in cost from $7,000 to $51,000, depending
on size and features. The inspection team suggested using existing SMART Boards in lieu of
large monitors, saving $6,000 to $7,000 per installation. Alternatively, FSI management
suggested that more classes explore using Web conferencing, rather than DVCs. In response to a
proposed inspection recommendation, FSI completed a needs assessment, scheduled installation
of two additional DVC setups in December 2012, determined that the need for Web conference
licenses was increasing, and implemented a system to monitor demand.

         FSI regularly features notable guest speakers from government and the private sector.
Although some guest speakers make presentations on a not-for-attribution basis and others
restrict uncompensated distribution, FSI could take better advantage of most of these speakers’
knowledge and experience by making recordings available on demand. In the past 2 years, on
average only 15 guest speakers a year have been recorded. Content made available online or via
OpenNet must conform to Section 508 of the Rehabilitation Act of 1973, as amended. 35 FSI staff
reported that more speakers could not be recorded due to the high cost of outside contractors
used to add captioning. The inspection team received a recommendation from an industry expert
for a vendor who can do the captioning for $150 per video hour, a fraction of the $500 cost per
video hour cited by FSI. To implement a proposed inspection recommendation, FSI was
finalizing a policy in November 2012 for schools to request that appropriate sessions be taped


34
     STATE cable 37932, dated April 17, 2012.
35
     29 U.S.C. § 798.
                                             68
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


and for the Audio Visual Facility to create a searchable archive of presentations that meet all
required standards by April 2013.

        The audience response system “clickers,” along with low wattage radio frequency
universal service bus transmitters, are a useful classroom technology for testing, interaction, and
instant polling. The OIG team heard conflicting accounts of the availability and instructors’
familiarity with this technology. The Audio Visual Facility has put two sets of this technology
out to schools on an extended loan basis. As suggested by the OIG team, FSI surveyed the need
for audience response systems in September 2012 and purchased additional systems, increasing
the number from 320 to 600.

        Development Network Infrastructure: In April 2012, ISD contractors were operating and
managing a development network for distance learning software development and testing. ISD
was not providing adequate government oversight to ensure that Department network operations
and security procedures were being followed. For example, there were user accounts for
contractor and direct-hire staff who no longer worked for the institute. (b) (5)


Contractor staff was not adequately familiar with the Department’s policy for media protection
and access control in 12 FAM 622.1-7 a. and c. and 12 FAM 621.3-3. To implement a proposed
inspection recommendation, FSI moved operation and management of development network
servers from ISD to OMIS, which handles FSI’s network infrastructure.

        Wi-Fi Campus: Students and instructors have been advocating for a Wi-Fi campus at FSI
for more than 5 years. The topic is a recurring thread on the Department’s Sounding Board, an
employee open-suggestion forum for innovative ideas. FSI does not have enough computer
terminals to give each student on campus access to Department email and files. Instituting
campuswide wireless access will facilitate distance learning development, reduce copy cost,
decrease the number of student computers needed, and shorten classroom setup time. For SLS,
Wi-Fi will relieve pressure on overcrowded language laboratories and allow students to access
authentic language materials and SLS instructional materials on SharePoint, using their own
devices during study time. A Wi-Fi campus will also supplement the one classroom computer
connected to the SMART Board so that instructors and students can all use online resources in
class. Wireless capability will also enhance FSI’s emergency preparedness for maximizing
communication options should the Department use FSI as an alternate command site.

        With the inspection team’s encouragement, FSI management has been working closely
with the Bureau of Diplomatic Security and the Bureau of Information Resource Management
since May 2012 to identify and resolve important questions, including the amount of
management and monitoring required, risk and accountability, security and information
assurance, and overall cost. The biggest hurdle involves the location of Wi-Fi hotspots. Draft
wireless local area network security standards provide for expanding the spherical zone of
control from 10 to 150 feet, restricting potential Wi-Fi hotspots at FSI. To broaden wireless
access, FSI plans to consolidate classified processing areas used for courses that require
discussion of classified information and is working with other bureaus that have classified areas
at FSI. In November 2012, the FSI director sent an information memorandum to the Bureau of
Diplomatic Security and the Bureau of Information Resource Management outlining FSI’s three
                                                  69
                            SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


          categories of wireless needs and soliciting their support for solutions that will make wireless
          hotspots possible. A followup meeting among the three bureaus will take place in early January
          2013 to establish a common understanding for moving forward with wireless installations at FSI.

          Recommendation 77: The Foreign Service Institute, in coordination with the Bureau of
          Diplomatic Security and the Bureau of Information Resource Management, should implement
          wireless access as broadly as possible on the Foreign Service Institute campus. (Action: FSI, in
          coordination with DS and IRM)

          Information Technology Security

                   FSINet Certification and Accreditation: FSI uses a dedicated Internet network called
          FSINet to deliver training content to on-campus and online students worldwide. The 2002
          Federal Information Security Management Act requires the Department to develop an
          enterprisewide program for information security management that includes a security
          categorization of its assets. The inspection team found that this system categorization was never
          submitted for FSINet, so the appropriate level of security for FSINet has not been determined.
          Given FSINet’s vital role in supporting FSI’s training mission, system categorization is essential
          to determining whether FSINet should undergo certification and accreditation by the Bureau of
          Information Resource Management’s Information Assurance office. This categorization would
          result in the application of appropriate information security controls commensurate with the
          value of the asset.

          Recommendation 78: The Foreign Service Institute should complete and submit the
          information security categorization for FSINet to the Bureau of Information Resource
          Management for review. (Action: FSI)

                  Wireless Dedicated Internet Network: Since August 2010, FSI has operated a
          multipurpose, stand-alone, dedicated Internet network called the “Sandbox” for authorized FSI
          users who need access to Internet applications and sites not typically allowed on the
          Department’s unclassified system. Although Sandbox users connect primarily to the Internet
          using the wired network, the Sandbox network also has wireless capability, which is occasionally
          required for authorized FSI developers to pilot new Department technology. The Bureau of
          Diplomatic Security and the Bureau of Information Resource Management granted FSI a waiver
          to operate its first wireless dedicated Internet network for classroom instruction in June 2008. In
          June 2010, FSI received authorization to include a second classroom. In June 2012, FSI’s
          Sandbox dedicated Internet network still had not been reviewed by either the Bureau of
          Diplomatic Security or the Bureau of Information Resource Management and was not authorized
          to operate. In response to a proposed inspection recommendation, FSI immediately disconnected
          the wireless setup. FSI submitted a completed information systems categorization for FSINet to
          the Bureau of Information Resource Management and received approval for limited wireless
          implementation in October 2012.
(b) (5)




                                                 70
                                     SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      71

          SENSITIVE BUT UNCLASSIFIED

                                     SENSITIVE BUT UNCLASSIFIED



     Security
             Security Management: NFATC’s physical security meets the requirements of the
     applicable security standards for U.S. Government domestic facilities 36 and strikes an
     appropriate balance between security and NFATC’s collegiate atmosphere. FSI’s senior
     leadership has a keen interest in security and is fully abreast of security issues affecting NFATC.
     Management of FSI’s security program is split between an FSI-appointed principal unit security
     officer and a domestic security officer assigned by the Bureau of Diplomatic Security’s
     Uniformed Protection division. Although these two officers work together well on routine tasks,
     communicating on a nearly daily basis, the NFATC-related duties and responsibilities of FSI’s
     domestic security officer are not sufficiently well defined and documented. There is no written
     guidance specific to FSI, which could result in security program lapses. In addition, in the case
     of a security incident, the Uniformed Protection division’s standard operating procedures instruct
     domestic security officers to first contact the Uniformed Protection division watch commander,
     and only later, if at all, the building’s tenants. Failure to notify FSI’s senior leadership
     immediately of a security incident could hamper effective incident management.

     Recommendation 79: The Bureau of Diplomatic Security, in coordination with the Foreign
     Service Institute, should develop a memorandum of understanding specifying the duties and
     responsibilities of the institute’s domestic security officer, including requiring the domestic
     security officer to immediately communicate and coordinate with institute leadership on matters
     related to security at the National Foreign Affairs Training Center. (Action: DS, in coordination
     with FSI)

             The main responsibility of the principal and unit security officers is to ensure that
     classified information is controlled in accordance with Executive Order 13526. In April 2012,
     FSI’s 40 unit security officers needed training and better oversight. Few had been trained on their
     responsibilities; some did not know that classified material was being stored in their office or
     who had security clearances. By October 2012, FSI had trained all but six unit security officers
     and their alternates and planned to train the remaining six in January 2013. In September 2012,
     FSI updated its online Administrative Procedures Handbook section 1-157 on unit security
     officer program policies and procedures.
(b) (5)




             Inner Compound Access Control: At the beginning of the inspection, FSI’s Visitor
     Center was open only from 6:00 a.m. to 7:00 p.m. FSI staff members with 24-hour access were
     able enter and exit the compound after working hours via any of the four identification-card­

     36
       The Interagency Security Committee published the Physical Security Criteria for Federal Facilities, dated April
     12, 2010. The Office of Physical Security Programs, Facilities Security Division promulgated the Physical Security
     Standards for Department of State Domestic Occupied Space, dated June 28, 2010.
                                                 72
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


operated turnstiles (b) (5)
                                                   At the OIG team’s recommendation, FSI
started limiting after-hours and weekend entry to the Visitor Center in November 2012. Also at
the OIG team’s recommendation, the Bureau of Diplomatic Security began using temporary
nonescort badges in September 2012, ending the practice of issuing temporary escort badges but
informing visitors that they did not require an escort.

        As of June 2012, when contract language instructors took leave, they were required to
leave their FSI badge at the Visitor Center. Upon the contract instructor’s return, the instructor’s
American supervisor had to go to the Visitor Center and attest to the contract instructor’s
continued employment before the badge could be returned. This practice was unnecessary and
placed an additional burden on FSI supervisors and Visitor Center guards. To implement an OIG
team suggestion, FSI established a new policy effective in December 2012 that contract language
instructors must leave their FSI badges at the Visitor Center only at the conclusion of their task
order or work period at FSI.

        Emergency Preparedness: At the beginning of the inspection, the terrorist/dissident
section of NFATC’s emergency action plan consisted of only two sentences. At the OIG team’s
recommendation, FSI in August 2012 included guidance on actions to take and offices to contact
in the plan. Although the plan’s general information on evacuations instructs all personnel to
(b) (5)



          Informal Recommendation 21: The Foreign Service Institute should reevaluate the
          locations of its emergency assembly areas and use consistent evacuation distances in its
          facility emergency action plan.

        During the October 9, 2012, fire evacuation drill, some floor wardens did not account for
the personnel assigned to their assembly area. Guidelines in 6 FAM 423.6-2(D)(4), Assembly
Point Coordinator, require an accounting for the personnel assigned to each assembly area.

          Informal Recommendation 22: The Foreign Service Institute should establish
          procedures to account for staff and students during emergency evacuations.




                                          73
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Cafeteria and Childcare Center: Some FSI staff criticized the concessionaire-operated
cafeteria, including the lack of variety of food, high prices, operating hours, and inefficient
configuration. A handful of employees also complained about the long wait list for use of the
childcare center and about long-term students having first priority. The cafeteria and childcare
center are both operated by outside entities.

         Gym and Parking: Other FSI staff had concerns about the cleanliness of the gym
facilities and the level of parking fees. Both of these operations are run by the Foreign Affairs
Recreation Association based on agreements with FSI that are several years old. At the
suggestion of the inspection team, FSI updated the agreements, which it and the Foreign Affairs
Recreation Association signed on November 30, 2012.




                                       74
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Management Controls

       Overall management controls at FSI are in place. The FSI executive director is the
management controls officer, and the institute places heavy emphasis on management controls.
The director submitted the required annual management controls statement of assurance to the
Secretary in August 2012, in which FSI addressed the significant weakness in property
management identified during the FY 2011 inventory.

        Property Management: At the outset of the inspection, FSI/EX noted the challenge of
managing property given FSI’s multiple facilities and constant room reconfigurations. FSI’s FY
2011 inventory reported approximately 11,000 items of nonexpendable property valued at
roughly $13 million. When FSI/EX conducted the FY 2012 inventory, employees could not
locate 16 laptop computers. The laptops belonged to OMIS, which did not track to whom the
laptops were issued. The Department’s Property Survey Board authorized FSI to retire the
missing equipment. Following discussions with employees from the General Services office, in
June 2012, the Office of Management Information Services issued a policy on laptop
assignment, tracking, and inventory. Additionally, FSI/EX took actions to review and dispose of
as necessary information technology equipment, including laptops, which the inspection team
observed in the FSI warehouse. In June 2012, FSI identified adequate controlled space to hold
and process the equipment and established joint FSI/EX-Information Resource Management
office teams to review and dispose of excess equipment.

        Purchase Card Program: The director of the Office of Acquisitions administers FSI’s
purchase card program, which had approximately 50 cardholders and $1,116,236 in obligations
in FY 2012. The director identified program deficiencies during an FY 2011 annual review.
Cardholders and approving officers who needed ethics training got it immediately. The director
saw improvements after his February 2012 meeting with cardholders and approving officials that
addressed common errors, including not using mandated vendors, not obtaining waivers in
advance, and not performing monthly reconciliations on time. The director conducted an audit of
all purchase cardholders and transactions in November 2012; the office plans to conduct ongoing
spot checks of operations.

        Unauthorized Commitments: Some FSI employees expressed concern about FSI’s policy
for making financial arrangements with nongovernment speakers. FSI requires the speakers to
sign an honoraria letter that makes the FSI employee who arranged for the speaker liable for
committing funds. This letter could be an unauthorized commitment in its current wording. The
team discussed this matter with FSI/EX staff, whose legal advisor verified that the letter as
written does not constitute an authorized commitment, as the letters are issued under the
authority of the executive director. This confusion may have resulted after some FSI employees
arranged services and submitted the letter after the fact, which is an unauthorized commitment.

       Informal Recommendation 23: The Foreign Service Institute should distribute to its
       employees periodic reminders clarifying what constitutes an unauthorized commitment
       and how to avoid making them.



                                      75
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



List of Recommendations
Recommendation 1: The Foreign Service Institute should establish standard operating
procedures that delegate to deans, directors, and their deputies the authority to make specified
administrative decisions for the units they supervise. (Action: FSI)

Recommendation 2: The Foreign Service Institute should implement a system to track, record,
and disseminate policy decisions. (Action: FSI)

Recommendation 3: The Foreign Service Institute should implement a travel authorization
system in which the front office sets overall funding levels and criteria for proposed travel during
financial reviews and authorizes and holds the deans accountable to approve the specific
allocation of those funds. (Action: FSI)

Recommendation 4: The Foreign Service Institute should centralize responsibility for
directing the program evaluation process and issue standards for the conduct and content of these
evaluations. (Action: FSI)

Recommendation 5: The Foreign Service Institute should establish guidelines for its
instructors for classroom hours and curriculum development time. (Action: FSI)

Recommendation 6: The Office of Civil Rights, in coordination with the Foreign Service
Institute, should schedule quarterly meetings to review trends in Equal Employment Opportunity
and harassment complaints and implement a joint action plan to address complaints, including
customized training. (Action: S/OCR, in coordination with FSI)

Recommendation 7: The Foreign Service Institute, in coordination with the Office of Civil
Rights, should require all School of Language Studies’ employees and contractors to attend an
annual 2-hour training session held by the Office of Civil Rights. (Action: FSI, in coordination
with S/OCR)

Recommendation 8: The Foreign Service Institute should implement an outreach plan for
senior staff members to interact with non-Department of State experts in fields including
training, pedagogy, leadership, languages, information technology, and foreign policy. (Action:
FSI)

Recommendation 9: The Office of Management Policy, Rightsizing, and Innovation, in
coordination with the six regional bureaus, should develop and prioritize the bureaus’ training
needs, including for language training, over the next 5 years and provide updated information to
the Foreign Service Institute annually. (Action: M/PRI, in coordination with AF, EAP, EUR,
NEA, SCA, and WHA)

Recommendation 10: The Foreign Service Institute should incorporate regional bureau
training priorities into the Department of State’s training plan and adjust its course offerings to
meet those needs. (Action: FSI)

Recommendation 11: The Bureau of Human Resources should survey mid-, senior-, and
executive-level employees to find out what additional long-term education they need and why
                                              76
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


employees are not bidding on certain current long-term educational opportunities. (Action:
DGHR)

Recommendation 12: The Foreign Service Institute should transfer the management and
financial duties of the School of Language Studies’ associate dean for instruction to the associate
dean for management. (Action: FSI)

Recommendation 13: The Foreign Service Institute should assign responsibility for
coordinating the School of Language Studies’ strategic planning to the school’s associate dean
for management. (Action: FSI)

Recommendation 14: The Foreign Service Institute should assign responsibility for oversight,
collection, analysis, and use of data on student performance and language needs to the School of
Language Studies’ associate dean for instruction. (Action: FSI)

Recommendation 15: The Foreign Service Institute should implement a plan of visits to
overseas posts with post language programs to obtain feedback and improve coordination of all
Department of State-funded language activities. (Action: FSI)

Recommendation 16: The Foreign Service Institute should assign operational duties to one
lead coordinator in each of the School of Language Studies’ instructional divisions. (Action: FSI)

Recommendation 17: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should update Foreign Affairs Manual and Foreign Affairs Handbook
sections that pertain to the School of Language Studies. (Action: FSI, in coordination with
DGHR)

Recommendation 18: The Bureau of Administration, in coordination with the Foreign Service
Institute and the Bureau of Human Resources, should conduct a workforce study of the School of
Language Studies, identifying functions and analyzing workforce mix. (Action: A, in
coordination with FSI and DGHR)

Recommendation 19: The Foreign Service Institute should strengthen qualifications for
contract and direct-hire instructors to include oral and written proficiency in both the target and
English languages, teaching experience, and relevant information technology skills. (Action:
FSI)

Recommendation 20: The Foreign Service Institute should provide guidance to supervisors on
the feedback they should furnish to contract instructors and contracting firms. (Action: FSI)

Recommendation 21: The Foreign Service Institute should require that instructors in their first
year be observed at least biweekly and that language training supervisors observe all instructors’
classroom performance at least quarterly and include their observations in counseling and annual
evaluations. (Action: FSI)

Recommendation 22: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should reinstitute language aptitude screening. (Action: DGHR, in coordination
with FSI)
                                        77
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 23: The Bureau of Human Resources should instruct bureaus not to offer a
handshake for an assignment that would require training in a hard or super hard language to an
employee who has not demonstrated prior success in language learning or tested language
aptitude without concurrence from the Bureau of Human Resources and the Foreign Service
Institute. (Action: DGHR)

Recommendation 24: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should establish, once a new language aptitude test is available, a policy of
assigning employees lacking demonstrated prior success in language learning or tested language
aptitude to hard or super hard language training only if there are no other qualified bidders
available. (Action: DGHR, in coordination with FSI)

Recommendation 25: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should determine annually what measures need to be taken if less than 80
percent of students in a language do not attain the target proficiency level within the standard
time of instruction. (Action: FSI, in coordination with DGHR)

Recommendation 26: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should develop a system to determine jointly whether to withdraw or extend a
student the institute has identified as not likely to succeed in learning a language within the
standard amount of time of instruction. (Action: DGHR, in coordination with FSI)

Recommendation 27: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should implement a system to require professional student conduct during
language training. (Action: FSI, in coordination with DGHR)

Recommendation 28: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should modify the Student Training Management System so that School of
Language Studies staff can retrieve language designated position levels and pending posts of
assignment data for each employee assigned to language training. (Action: FSI, in coordination
with DGHR)

Recommendation 29: The Foreign Service Institute should establish a standard methodology
for calculating and reporting its on-time and overall language success rates. (Action: FSI)

Recommendation 30: The Foreign Service Institute should create and fill one or more
curriculum and materials development specialist positions in the Curriculum and Staff
Development division of the School of Language Studies. (Action: FSI)

Recommendation 31: The Foreign Service Institute should implement a multiyear strategic
plan to revise School of Language Studies instructor-led and self-study curricula and syllabi.
(Action: FSI)

Recommendation 32: The Foreign Service Institute should designate one person in each
language division to lead coordination of curriculum material revisions in conjunction with the
Curriculum and Staff Development division. (Action: FSI)


                                       78
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 33: The Foreign Service Institute should institute procedures for the
language sections to submit curriculum materials they develop or revise to the Curriculum and
Staff Development division for review, including for adherence to the institute’s copyright
policy, and for external peer review and obtaining copyright permissions as necessary. (Action:
FSI)

Recommendation 34: The Foreign Service Institute should prepare cost estimates for
developing curriculum materials in less commonly taught languages and work with the regional
bureau that created the first language designated position to identify funding. (Action: FSI)

Recommendation 35: The Foreign Service Institute should explore ways of obtaining funding
from and increasing joint curriculum development efforts with agencies that participate in the
Interagency Language Roundtable. (Action: FSI)

Recommendation 36: The Foreign Service Institute should have the School of Language
Studies Curriculum and Staff Development division director report to the associate dean for
instruction instead of the dean. (Action: FSI)

Recommendation 37: The Foreign Service Institute should reassign staff so that personnel in
the Continuing Training and Testing division can focus solely on testing. (Action: FSI)

Recommendation 38: The Foreign Service Institute should assign responsibility for
technology coordination and training to one of its training specialists in each language division.
(Action: FSI)

Recommendation 39: The Foreign Service Institute should coordinate the development of
language modules in each functional area. (Action: FSI)

Recommendation 40: The Bureau of Human Resources should coordinate with the regional
bureaus for each bureau to submit a phased-in list of positions with designated and preferred
language levels of advanced professional proficiency that they intend to request in FY 2014 and
subsequent fiscal years. (Action: DGHR, in coordination with AF, EAP, EUR, NEA, SCA, and
WHA)

Recommendation 41: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should prepare components of instructional programs, including immersion
programs, to achieve advanced professional proficiency levels specified for relevant language
designated positions. (Action: FSI, in coordination with DGHR)

Recommendation 42: The Foreign Service Institute, in coordination with Bureaus of African
Affairs, East Asian and Pacific Affairs, European and Eurasian Affairs, Near Eastern Affairs,
South and Central Asian Affairs, and Western Hemisphere Affairs, should institute a procedure
to incorporate the institute’s review and comment on all anticipated foreign language
expenditures for post language programs. (Action: FSI, in coordination with AF, EAP, EUR,
NEA, SCA, and WHA)

Recommendation 43: The Foreign Service Institute should propose changing the Foreign
Affairs Manual to require that post language officers take the institute’s PLP100 - Post Language
                                       79
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Officer Course available by distance learning before assuming their responsibilities. (Action:
FSI)

Recommendation 44: The Foreign Service Institute should define the goals of distance
language learning programs, track their effectiveness, and improve their coordination with post
language programs. (Action: FSI)

Recommendation 45: The Foreign Service Institute should sign a contract or agreement with
an external testing body to randomly select and score on an annual basis at least 20 percent of the
institute’s testing results scored above the limited working proficiency level for all languages
tested. (Action: FSI)

Recommendation 46: The Foreign Service Institute should establish a policy for School of
Language Studies’ testing teams to provide test scores to examinees within 2 working days after
a language test is taken and requested feedback within 5 working days. (Action: FSI)

Recommendation 47: The Foreign Service Institute should revise its policy so that language
test reviews may result in a score being lowered as well as maintained or raised. (Action: FSI)

Recommendation 48: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should instruct employees who take an end-of-training language test to
schedule their departure for post no sooner than 3 working days after completing the test and
should instruct end-of-training examinees who want to request a review of their test score to
receive confirmation of the score before departing for post. (Action: DGHR, in coordination with
FSI)

Recommendation 49: The Foreign Service Institute should implement a secure electronic test
delivery platform for all language tests, seeking funding if necessary. (Action: FSI)

Recommendation 50: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should determine the feasibility of taking additional steps toward
consolidating orientation training for Foreign Service generalists and specialists, and integrating
Civil Service employees when appropriate. (Action: FSI, in coordination with DGHR)

Recommendation 51: The Foreign Service Institute, in coordination with the Bureau of
European and Eurasian Affairs, the Bureau of Western Hemisphere Affairs, and the Bureau of
East Asian and Pacific Affairs, should implement written procedures for collaboration with each
of the regional training centers and the geographic bureaus that operate them. (Action: FSI, in
coordination with EUR, WHA, and EAP)

Recommendation 52: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should, upon the departure of the incumbent, convert position number
S775081 in the Area Studies division of its School of Professional and Areas Studies from
Foreign Service to excepted Civil Service. (Action: FSI, in coordination with DGHR)

Recommendation 53: The Office of the Under Secretary for Political Affairs, in coordination
with the Foreign Service Institute, should direct each regional bureau to designate a senior policy

                                       80
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


officer to define and communicate to the Foreign Service Institute the current training needs of
the political function. (Action: P, in coordination with FSI)

Recommendation 54: The Foreign Service Institute should complete a plan to reorganize the
Political Training division in the School of Professional and Area Studies that clarifies and
strengthens the role of the deputy director. (Action: FSI)

Recommendation 55: The Foreign Service Institute, in coordination with the Bureau of
Administration, should make grants management training more specific to Department of State
grants, including the distinction between domestic and overseas grants. (Action: FSI, in
coordination with A)

Recommendation 56: The Foreign Service Institute should conduct a needs assessment of
Department of State employees serving in domestic management positions and adjust its course
offerings accordingly. (Action: FSI)

Recommendation 57: The Bureau of Human Resources should establish a policy to assign
each FP-05 office management specialist to mandatory training courses required by the career
development program before the specialist’s next assignment, unless the gaining overseas
mission has confirmed in writing that it will send the specialist to the required training within 12
months after arrival. (Action: DGHR)

Recommendation 58: The Foreign Service Institute should establish priorities for office
management courses and revise course content and offerings accordingly. (Action: FSI)

Recommendation 59: The Foreign Service Institute should complete its cost-benefit analysis
to determine whether industry-standard courses should be taught at the School of Applied
Information Technology or by a commercial vendor. (Action: FSI)

Recommendation 60: The Bureau of Human Resources, in coordination with the Foreign
Service Institute, should make training in employee relations, including the management of
performance and conduct issues, mandatory for all Department of State supervisors and
encouraged for team leaders at intervals throughout their careers. (Action: DGHR, in
coordination with FSI)

Recommendation 61: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should develop a plan to make access to coaching more equitable, seeking
new funding as necessary. (Action: FSI, in coordination with DGHR)

Recommendation 62: The Foreign Service Institute should conduct a desk audit of the second
resource specialist position in the Transition Center for possible reclassification. (Action: FSI)

Recommendation 63: The Foreign Service Institute should assign responsibility for all aspects
of the human resources operations to the Executive Office deputy director. (Action: FSI)

Recommendation 64: The Foreign Service Institute should publicize its criteria for selecting
and its process for hiring direct-hire instructional staff in the School of Language Studies.
(Action: FSI)
                                        81
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 65: The Foreign Service Institute should establish a policy to remove term
limits from Excepted Civil Service supervisors and to renew for the maximum 5-year term limit
Excepted Civil Service employees who have demonstrated strong performance for at least 6
years. (Action: FSI)

Recommendation 66: The Foreign Service Institute should survey Excepted Civil Service
employees to determine their most frequently asked questions and put answers on its intranet site
and in its orientation materials. (Action: FSI)

Recommendation 67: The Foreign Service Institute should review, revise, and reclassify as
appropriate Civil Service division director positions in the School of Language Studies that do
not have GG-14/GG-15 ladders as well as all language training supervisors. (Action: FSI)

Recommendation 68: The Foreign Service Institute, in coordination with the Bureau of
Human Resources, should increase the percentage of employees with situational telework and
compressed work schedules so that they correspond much more closely to levels observed across
the Department of State. (Action: FSI, in coordination with DGHR)

Recommendation 69: The Foreign Service Institute should explore the feasibility of
implementing a system that enables staff of other agencies to register for courses via OpenNet
while enabling the sending agency to track obligations and payments. (Action: FSI)

Recommendation 70: The Foreign Service Institute should obtain regular outside audits of its
procedures to set tuition rates. (Action: FSI)

Recommendation 71: The Foreign Service Institute should hire an independent auditor to
review the appropriateness of the institute’s use of multiyear funding for the Student Training
Management System modernization and similar information technology contracts. (Action: FSI)

Recommendation 72: The Foreign Service Institute should establish a position for a deputy
general services officer to increase office efficiency. (Action: FSI)

Recommendation 73: The Foreign Service Institute should implement a policy for conducting
periodic cost-benefit analyses to determine which courses require Instructional Support division
online courseware rather than commercial, off-the-shelf courseware development tools. (Action:
FSI)

Recommendation 74: The Foreign Service Institute, in coordination with the Bureau of
Administration, should make the Foreign Service Institute’s Stephen Low Library a branch of the
Ralph J. Bunche Library, working with the Bunche library to establish the optimum function,
size, and holdings of the institute’s library. (FSI, in coordination with A)

Recommendation 75: The Foreign Service Institute should institute standardized and
centralized information technology project management methodologies in its Information
Resource Management office. (Action: FSI)

Recommendation 76: The Foreign Service Institute should institute a standardized software
change request process for the Information Resource Management office. (Action: FSI)
                                       82
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 77: The Foreign Service Institute, in coordination with the Bureau of
Diplomatic Security and the Bureau of Information Resource Management, should implement
wireless access as broadly as possible on the Foreign Service Institute campus. (Action: FSI, in
coordination with DS and IRM)

Recommendation 78: The Foreign Service Institute should complete and submit the
information security categorization for FSINet to the Bureau of Information Resource
Management for review. (Action: FSI)

Recommendation 79: The Bureau of Diplomatic Security, in coordination with the Foreign
Service Institute, should develop a memorandum of understanding specifying the duties and
responsibilities of the institute’s domestic security officer, including requiring the domestic
security officer to immediately communicate and coordinate with institute leadership on matters
related to security at the National Foreign Affairs Training Center. (Action: DS, in coordination
with FSI)




                                       83
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Foreign Service Institute should require the director and
deputy director to hold periodic informal meetings at various levels to engage with staff
members on issues of concern to the institute and its personnel.

Informal Recommendation 2: The Foreign Service Institute should designate and train a
specialist in employee relations to address discipline and conduct issues and provide advice to
supervisors.

Informal Recommendation 3: The Foreign Service Institute should direct all of its training
divisions to establish and keep current a point of contact in all agencies with an interest in
institute courses.

Informal Recommendation 4: The Foreign Service Institute should reorganize responsibilities
in the French section of the School of Language Studies to assign responsibility for each teacher
and student to a single supervisor.

Informal Recommendation 5: The Foreign Service Institute should participate in the
longitudinal predictive validity study of the High-Level Aptitude Battery developed by the
University of Maryland Center for the Advanced Study of Language.

Informal Recommendation 6: The Foreign Service Institute should share the results of
students’ Learning Consultation Service evaluations with instructional staff unless students opt
out.

Informal Recommendation 7: The Foreign Service Institute should conduct a pilot test to
determine whether preceding language training with intensive cognitive training increases
language learning success and reduces the amount of training time needed to reach specific
proficiency levels.

Informal Recommendation 8: The Foreign Service Institute should encourage language
sections to begin teaching functional modules during language training and continue during
professional training.

Informal Recommendation 9: The Foreign Service Institute should establish guidelines to
better link area studies and language teaching and measure their success using the Interagency
Language Roundtable competence in intercultural communication scale.

Informal Recommendation 10: The Foreign Service Institute should implement policies and
procedures to facilitate student-funded, short-term immersions.

                                       84
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Informal Recommendation 11: The Foreign Service Institute should inform overseas missions
that it has guidance for vetting candidates for language instructors in post language programs and
is willing to interview the mission’s leading candidate.

Informal Recommendation 12: The Foreign Service Institute should determine which post
language programs are interested in coordinating with the School of Language Studies, establish
a schedule of regular communication with post language officers, and facilitate two-way sharing
of curricular materials.

Informal Recommendation 13: The Foreign Service Institute should grant regional training
directors the necessary access to the Student Training Management System to see what other
courses their students have registered for or completed.

Informal Recommendation 14: The Foreign Service Institute should develop microdesigns for
all School of Professional and Area Studies courses and implement a review schedule to keep
them current.

Informal Recommendation 15: The Foreign Service Institute should clarify the responsibilities
of the deputy director in the Economic and Commercial Studies division.

Informal Recommendation 16: The Foreign Service Institute should implement a process for
authorizing travel for consular training courses that permits travelers to use the lowest
permissible fares and provides for efficient accounting of border security program funding.

Informal Recommendation 17: The Foreign Service Institute should work with the Bureau of
Administration to establish and maintain a knowledge management intranet site for frequently
asked questions about office management and protocol.

Informal Recommendation 18: The Foreign Service Institute should, to the maximum extent
practicable, reclassify position descriptions to assign supervisory responsibilities to deputy
division directors and team leaders.

Informal Recommendation 19: The Foreign Service Institute should require that acquisitions
management be added as an element in the performance plans for all employees assigned
acquisitions management functions and require supervisors of the contracting officer’s
representatives, alternate contracting officer’s representatives, and government technical
monitors to take a contracting officer’s representative course.

Informal Recommendation 20: The Foreign Service Institute should update the Information
Resource Management office strategic plan to link its goals to those of the institute and provide
clear joint objectives and performance indicators.

Informal Recommendation 21: The Foreign Service Institute should reevaluate the locations
of its emergency assembly areas and use consistent evacuation distances in its facility emergency
action plan.

Informal Recommendation 22: The Foreign Service Institute should establish procedures to
account for staff and students during emergency evacuations.
                                       85
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Informal Recommendation 23: The Foreign Service Institute should distribute to its
employees periodic reminders clarifying what constitutes an unauthorized commitment and how
to avoid making them.




                                     86
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Principal Officials
                                                                       Name      Arrival
                                                                                   Date
Office of the Director:
Director                                               Dr. Ruth A. Whiteside     02/2006
Deputy Director – Departure 07/2012                      Tracey A. Jacobson      07/2010
   Deputy Director                                       Marianne M. Myles       07/2012

School of Language Studies:
Dean – Departure 07/2012                                 Marianne M. Myles       05/2011
   Dean                                                    William J. Haugh      08/2012
Associate Dean - Instruction                                 James E. North      09/2008
Association Dean - Management                           Debra L. Smoker-Ali      10/2011
Director, East Asian and Pacific Languages               W. Charles Miracle      07/2004
Director, European and African Languages                    Debra M. Blake       03/2009
Director, Near East, Central, and South Asian
Languages                                                 James E. Bernhardt     08/1993
Director, Romance Languages                                   Alfred J. Carter   05/2012
Director, Slavic, Pashto, & Persian Languages              Marsha A. Kaplan      07/2004
Director, Continuing Training and Testing               Christina N. Hoffman     01/2001
Director, Curriculum and Staff Development                      David L. Red     07/2009

School of Applied Information Technology:
Dean – Departure 06/2012                               Frontis B. Wiggins, III   02/2010
   Dean                                                     Michael B. Bretz     07/2012
Associate Dean                                                     Tin T. Cao    11/2008
Director, Business Applications – Departure 06/2012          William J. Walls    07/2011
   Director, Business Applications                           David J. Rowles     07/2012
Director, Enterprise Technology                                Peter E. Butler   09/2010
Director, Research Learning and Development                 James E. Barclay     10/2010

School of Leadership and Management:
Dean                                                         Carol A. Rodley     11/2011
Associate Dean                                                 Gail E. Neelon    07/2008
Director, Leadership Training Division                          Duane Karlan     10/2007
Director, Executive Development Division                      Geraldine Kam      09/2012
Director, Crisis Mgmt. Training – Departure 08/2012         James L. Huskey      08/2008
   Director, Crisis Management Training                        Sarah F. Drew     08/2012
Director, Policy Leadership Div. – Departure 08/2012      Elise H. Kleinwaks     08/2011
   Director, Policy Leadership Division                    Damian R. Leader      08/2012

School of Professional Area Studies:
Dean – Departure 08/2012                                    David T. Newell      07/2010
   Dean                                                   Patricia A. Butenis    08/2012
Associate Dean                                               Nazih Y. Daher      05/1988
                                      87
                          SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED


Associate Dean – Departure 08/2012                    Katherine B. Hadda       08/2010
   Associate Dean                                    Mirembe L. Nantongo       08/2012
Director, Office Management Training                            Judith Filip   10/2012
Director, Public Diplomacy – Departure 08/2012                   Amy Bliss     08/2010
   Director, Public Diplomacy                             Robert B. Hilton     08/2012
Director, Curriculum and Staff Development              Richard J. Welebir     07/2000
Director, Political Training                              David E. Henifin     08/2011
Director, Management Tradecraft Training                Gary D. Anderson       07/2011
Director, Orientation – Departure 08/2012                Joseph Bedessem       08/2010
   Director, Orientation                               Elise H. Kleinwaks      08/2012
Director, Economic and Commercial Studies                Nicholas J. Noyes     08/2011
Director, Consular Training                                Jill M. Esposito    05/2011
Director, Area Studies                                   Anne E. Imamura       07/1988
Director, Stability Operations – Departure 08/2012      Barbara A. Bootes      08/2010
   Director, Stability Operations                            Stacy Nichols     09/2012

Transition Center:
Director                                                      Ray S. Leki      05/2009
Deputy Director – Departure 08/2012                       Susan Browning       01/2010

Executive Director for Management:
Executive Director                                    Catherine J. Russell     05/1996
Deputy Executive Director                            Gelinda M. Giacomin       01/2011
Information Resource Manager, Information Resource
Management Division                                  Hassan Gharekhanloo       01/2011
Director, Corporate Systems Division                 Douglas M. Arterburn      11/2011
Director, Instructional Support Division                 Karen M. Audant       09/2009
Chief, Audio Visual Facility                             Dennis L. Raulin      01/2005
Systems Manager, Office of Management Information            Linda Coble
Systems                                                                        03/2002
Director, Budget Division                                Victor M. Munoz       07/2000
Director, Acquisition Division                            Martin T. Regan      09/2011
Director, Human Resources Division                    Deborah A. Duckett       02/1993
Registrar, Office of the Registrar                       Laura D. Bravery      08/2008
Director, General Services Division                   Keith D. Williamson      06/2000
Supervisory Management Analyst                          Wayne A. Oshima        11/1992




                                      88

                          SENSITIVE BUT UNCLASSIFIED

                SENSITIVE BUT UNCLASSIFIED



Abbreviations
Department       U.S. Department of State

DVC              Digital video conference

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FSI              Foreign Service Institute

FSI/EX           Foreign Service Institute’s Executive Office

ISD              Instructional Support division

LMS              Leadership and Management School

MLAT             Modern Language Aptitude Test

NFATC            National Foreign Affairs Training Center

OIG              Office of Inspector General

OMIS             Office of Management Information Services

QDDR             Quadrennial Diplomacy and Development Review

SAIT             School of Applied Information Technology

SLS              School of Language Studies

SPAS             School of Professional and Area Studies

USAID            U.S. Agency for International Development




                            89
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





SENSITIVE BUT UNCLASSIFIED

